<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2001</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




                 DEPARTMENT OF THE INTERIOR AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2001

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS
                             SECOND SESSION

                                ________

   SUBCOMMITTEE ON THE DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES
                      RALPH REGULA, Ohio, Chairman
 JIM KOLBE, Arizona                  NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               JOHN P. MURTHA, Pennsylvania
 CHARLES H. TAYLOR, North Carolina   JAMES P. MORAN, Virginia
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                           Alabama
 ZACH WAMP, Tennessee                MAURICE D. HINCHEY, New York   
 JACK KINGSTON, Georgia
 JOHN E. PETERSON, Pennsylvania     
                       
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
   Deborah Weatherly, Loretta Beaumont, Joel Kaplan, and Christopher 
                                 Topik,
                            Staff Assistants

                                ________

                                 PART 11
                           OVERSIGHT HEARINGS
                                                                   Page
 Fish and Wildlife Service Land Acquisition.......................    1
 Forest Service Financial Management..............................  118
 Forest Service Research Programs.................................  291
 South Florida Ecosystem Restoration..............................  413

                              <snowflake>


                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 64-555                     WASHINGTON : 2000




                        COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois        NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky             MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico               JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 RON PACKARD, California             NANCY PELOSI, California
 SONNY CALLAHAN, Alabama             PETER J. VISCLOSKY, Indiana
 JAMES T. WALSH, New York            NITA M. LOWEY, New York
 CHARLES H. TAYLOR, North Carolina   JOSE E. SERRANO, New York
 DAVID L. HOBSON, Ohio               ROSA L. DeLAURO, Connecticut
 ERNEST J. ISTOOK, Jr., Oklahoma     JAMES P. MORAN, Virginia
 HENRY BONILLA, Texas                JOHN W. OLVER, Massachusetts
 JOE KNOLLENBERG, Michigan           ED PASTOR, Arizona
 DAN MILLER, Florida                 CARRIE P. MEEK, Florida
 JAY DICKEY, Arkansas                DAVID E. PRICE, North Carolina
 JACK KINGSTON, Georgia              MICHAEL P. FORBES, New York
 RODNEY P. FRELINGHUYSEN, New Jersey CHET EDWARDS, Texas
 ROGER F. WICKER, Mississippi        ROBERT E. ``BUD'' CRAMER, Jr., 
 GEORGE R. NETHERCUTT, Jr.,          Alabama
Washington                           MAURICE D. HINCHEY, New York
 RANDY ``DUKE'' CUNNINGHAM,          LUCILLE ROYBAL-ALLARD, California
California                           SAM FARR, California
 TODD TIAHRT, Kansas                 JESSE L. JACKSON, Jr., Illinois
 ZACH WAMP, Tennessee                CAROLYN C. KILPATRICK, Michigan
 TOM LATHAM, Iowa                    ALLEN BOYD, Florida              
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama
 JO ANN EMERSON, Missouri
 JOHN E. SUNUNU, New Hampshire
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania
 VIRGIL H. GOODE, Jr., Virginia     
                                    
                 James W. Dyer, Clerk and Staff Director

                                  (ii)



              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 
DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2001

                              ----------                             

                                        Tuesday, February 15, 2000.

                       GENERAL ACCOUNTING OFFICE

                               WITNESSES

JIM WELLS, DIRECTOR, ENERGY AND NATURAL RESOURCES DIVISION
CYNTHIA RASMUSSEN
    Mr. Regula. I think we will get started this morning.
    I am pleased to welcome all of you who will be 
participating in this morning's hearing, Mr. Wells and his team 
from GAO; and of course, Director Jamie Clark and her team. 
What I am planning to do is to have GAO present its report. We 
will then have questions of GAO. Then we will go to the Fish 
and Wildlife Service.
    The objective of the hearing this morning is to look at 
land acquisition and the impact it has on operations and 
maintenance in terms of cost. We have backlogs of maintenance 
in all of our departments, including the Fish and Wildlife 
Service.
    There are really two primary sources of funds for adding 
land to the refuge system. One is through appropriations from 
the Land and Water Conservation Fund (LWC), and the other is 
from migratory bird funds. Land may also be added through 
donations and land exchanges.
    So we are very interested in hearing from both groups.
    It is a management challenge to ensure that we get the 
right numbers of the right acreage to serve the public well, 
and that we have the funding available to do the operations and 
maintenance in the future. We have over 500 wildlife refuges 
now, and only about 300 of them are manned. It is one of those 
challenges that confront this committee in trying to manage 
well.
    Mr. Dicks, would you like to make any comment?
    Mr. Dicks. Thank you, Mr. Chairman. I think this will be a 
good hearing today, and having had a chance to review the GAO 
report, I think there are some substantial issues about how 
acquisition is done under land and water conservation, under 
the migratory bird fund and also the way we do it up here on 
the Hill. I think all three of those are issues that need to be 
considered. This may also be an area where the authorizing 
committees, because of the multitude of authorities, need to 
take another look at how this is actually performed. But I look 
forward to hearing from the witnesses, and hopefully there are 
things we can do to improve Congress' information on these 
acquisitions.
    What bothers me is, there are certain lands acquired 
without congressional approval or notice, and then a bill comes 
up to expand a refuge, for instance, and we need to consider 
all the costs. We have a backlog of about $200 million in 
refuge maintenance.
    So this is something that we need to consider because there 
is always a great desire to acquire things, but then we have 
got to pay the bill; and when we have got to consider the 
backlog. I would like to see us be as eager in reducing the 
backlog as we are in acquiring new things, and I think this 
hearing will help us at least evaluate that.
    Thank you, Mr. Chairman.
    Mr. Regula. Thank you.
    Mr. Skeen.
    Mr. Skeen. Thank you, Mr. Chairman. I sure want to thank 
you for holding this important hearing on the land acquisition.
    Part of our history, in the development of the Western 
States particularly, was that if you didn't have 20 inches of 
rainfall over there, the Federal Government wound up holding 
all the dry land over there; and the rest of it that you could 
irrigate or something like that was very minimal. But somebody 
had to be the landlord for the land that nobody wanted, and I 
think the Oklahoma land rush was the last deal where you had 
people lined up to go stake out their claim on these lands.
    I am here to listen today to--perhaps we will have a number 
of questions on the subject of containment of these lands. For 
instance, the ranch that has been in my family since the late, 
or the early 1900s, and I bought it from the Federal 
Government, but you had to trade land somewhere else. It was a 
very difficult process, but it gives you a lot more feeling for 
landowners, land operators, to have it owned; because a lot of 
our land has never been transferredfrom the Federal Government 
to the property owners, and it is a very difficult thing to accomplish. 
And there are some 11 Western States that are situated--with much 
Federal land. As you know, we have got a lot of government buyers for 
big holdings, particularly the Baca Ranch and some of the rest of these 
parcels. So maybe we can get down to brass tacks about this thing.
    Mr. Regula. Thank you, Mr. Skeen.
    Mr. Skeen. Thank you for having it.
    Mr. Regula. This committee has responsibility for about 30 
percent of the land in America. It is always a startling number 
when you tell it to people.
    Mr. Nethercutt.
    Mr. Nethercutt. Mr. Chairman, thank you for holding the 
hearing. I certainly welcome the witnesses and look forward to 
the testimony today. I will reserve some time maybe to talk 
during the question period.
    One of my concerns relative to my own Fifth Congressional 
District of Washington, relates to the need for people to man 
the reserve or the refuge in a period of increasing numbers of 
people who are using the refuge, and so we are seeing less an 
issue of the need to acquire more land and more the issue of 
maintaining and operating for the public use well that which we 
already have.
    So I thank you, Mr. Chairman, for having the hearing and 
look forward to the testimony.
    Mr. Regula. Thank you.
    Mr. Taylor, would you like to comment?
    Mr. Taylor. I appreciate that. I am having some trouble 
whether to recommend a 10 percent cut in their staff, or a 20, 
and I will work it out as time goes on.
    Mr. Regula. Mr. Hinchey, any comments here before we get 
started?
    Mr. Hinchey. No, sir.
    Mr. Regula. Okay.
    Mr. Wells will have an opening statement, hopefully a very 
brief one. Then we will have questions from the members.
    [The written statement of Mr. Wells follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. Thank you very much. I will have a number of 
questions for the record, but I want to be sure I understand 
this report correctly.
    The Fish and Wildlife Service can acquire land without any 
congressional approval or even knowledge. Am I correct?
    Mr. Wells. That is correct.
    Mr. Regula. Is there any other agency in government that 
has that kind of authority that you are aware of?
    Mr. Wells. If they are out there, they are few, few in 
number.
    Mr. Regula. In the meantime, when this land is acquired, 
the obligation to man it, if it is to be manned, and to take 
care of it becomes a congressional responsibility. Is that 
correct?
    Mr. Wells. That is correct. They can acquire 1 acre and 
basically put the Congress and the American taxpayer on the 
hook for additional appropriations.
    Mr. Regula. So there is no minimum amount. Somebody could 
either donate or sell 1 acre and that becomes a refuge. Then it 
can grow from that base, depending on whether the Fish and 
Wildlife Service chooses to do so. Is that correct?
    Mr. Wells. Absolutely. That doesn't even necessarily have 
to be 1 acre. We have one refuge being established with less 
than an acre. Would you like to highlight a specific example?
    Ms. Rasmussen. That would be the Lake Wales refuge. In our 
report, we show that the first acquisition that established 
that refuge was actually two-tenths of an acre and a $500 
acquisition.
    Mr. Regula. $500 for two-tenths of an acre?
    Ms. Rasmussen. As we show in our report, that is the first 
acquisition. Shortly after that acquisition, the Service 
started acquiring additional lands. When they made that first 
acquisition, they would have had a plan in place that would 
have an estimate for the number of acres that would be in that 
refuge.
    It is a small refuge. At the end of our study period, it 
had about 1,200 acres in it.
    Mr. Regula. It started with two-tenths of an acre?
    Ms. Rasmussen. It did, but what we show here is the first 
acquisition of a series. Shortly thereafter they acquired 
additional acres.
    Mr. Regula. The Service can establish boundaries for a 
refuge as they choose. Is that correct?
    Ms. Rasmussen. That is correct.
    Mr. Regula. In other words, the park system has to get 
congressional approval, and the rest of the agencies do, but 
this is unique for the Fish and Wildlife Service in this 
respect. Is that correct?
    Ms. Rasmussen. Yes.
    Mr. Wells. How many acres is that refuge projected to 
total, 5,000?
    Ms. Rasmussen. It would be a total of about 7,000 acres.
    Mr. Wells. So they are heading towards 7,000 acres from the 
two-tenths of an acre they started with.
    Mr. Regula. And it could continue even beyond that and take 
on the obligation for maintenance, operations, all those 
things. These needs, of course, reflect back on this committee 
and the Congress to provide.
    Ms. Rasmussen. So at the end of our study period, this 
refuge, that in its first transaction, the Service acquired 
less than an acre had grown to 1,200 acres. There are plans to 
request about $6 million in land and water conservation funds, 
as Jim said, to complete that refuge, another 2,600 acres.
    Mr. Regula. Two other questions. If I understand you 
correctly, the Fish and Wildlife Service does not have to 
account to us for the expenditure of migratory bird funds, the 
approximately $20 million that they receive. Is that correct?
    Ms. Rasmussen. To your committee, that is correct.
    Mr. Regula. In effect, they don't account to anyone. Is 
that correct?
    Ms. Rasmussen. The Migratory Bird Commission.
    Mr. Regula. Well, of course, but I am sure they are very 
critical. Are there standards established by the Service for 
these acquisitions? Are there any criteria that this acre, or 
two-tenths of an acre, has to meet as a condition foraccepting 
it as a donation or purchasing it?
    Ms. Rasmussen. There are standards, of course. The Service 
has a planning process in place. They require for every refuge, 
irrespective of how it is established--whether or not it is a 
request for land and water conservation funds from your 
committee or whether by donation or transfer, that they have a 
planning process in place. And in developing that plan they--as 
Mr. Wells said in his statement, they have biologists in the 
field that go out and look at habitat. They would look at land 
to find out whether or not it would match a need of the 
Service's mission. There are various national plans. If it is 
for, say, migratory birds, there is a national waterfowl 
management plan. There is a national wetlands priority list as 
well. These are national planning documents that could be used 
as a basis for developing new refuge plans.
    Mr. Regula. Have any of you testified before the 
authorizing committee, or is there legislation contemplated 
that puts the Fish and Wildlife Service under the same 
standards for land acquisition that the other agencies have?
    Mr. Wells. Not that I am aware of, sir.
    Ms. Rasmussen. We haven't testified. I think we have read 
where a bill had been introduced, but we are not familiar with 
it.
    Mr. Regula. Am I correct that any land could be subject to 
acquisition by the Fish and Wildlife Service?
    Mr. Wells. Yes, sir, that is targets of opportunity, the 
potential is there. Keep in mind that the Service looks at free 
land as good land, and if in fact it has a biological, 
ecological system that is in place that would serve growing 
their system, they would certainly place high priority on 
putting that in an acquisition process.
    Mr. Regula. Do they have the right of eminent domain?
    Mr. Wells. They choose not to use that.
    Mr. Regula. But they do have it?
    Ms. Rasmussen. Yes, condemnation authority.
    Mr. Regula. Mr. Dicks.
    Mr. Dicks. You said in your opening statement, Mr. Wells, 
that you weren't suggesting that anything untoward has happened 
here.
    Have you any example where one of these refuges that were 
acquired was not in the public's interest?
    Mr. Wells. We know that the IG earlier had looked at a 
piece of property that had been acquired that has some 
contamination potential that may put some liability to the 
Federal Government. They are looking at that.
    Mr. Dicks. The big problem here, as I understand it--is 
that this LAPS system, which the Fish and Wildlife Service is 
changing, is so confusing and the criteria are so complicated 
that in one instance, I am told that with the new test one of 
the projects went from, 130th out of 141 to first.
    Ms. Rasmussen. That is correct.
    Mr. Dicks. Now, to me, that indicates you have got a broken 
system. So, I would hope that one thing at least that comes out 
of your very good report is that we get this system corrected.
    Now, how are they moving towards correcting the LAPS 
system? Is it moving quickly or is this one of those 3 or 4 
year projects, and we will get their approaches that we know so 
well from the Department of Interior?
    Mr. Wells. In terms of background, we know it is a 14-year-
old system that is leaking oil. We know that they have 
attempted to correct some of the fixes twice in the 1990s. We 
give them credit for having a very spirited and dedicated team 
right now, trying to put in new criteria and design a new 
system. We understand it is about ready to go for public 
comment this week or next week. They are very optimistic that 
they think they have some good fixes.
    Mr. Dicks. Is there a time line that you know of?
    Mr. Wells. They indicated in response to our 
recommendations to provide more information on how to 
prioritize future land acquisitions that they were preparing 
and hope that the system would be ready to come in around the 
2002 budget submission, so 3 to 4 years.
    Mr. Dicks. On the other approach, under the migratory, what 
is that again?
    Mr. Wells. Migratory Bird Commission.
    Mr. Dicks. Under the Migratory Bird Commission, there is no 
LAPS system?
    Mr. Wells. That is correct.
    Mr. Dicks. This is strictly ad hoc, isn't that correct, 
that the regional people can go out and look at the land, and 
if it is a willing buyer and they can get a contract and they 
can work it through the process, it can be submitted to the 
Commission without really being ranked in terms of the criteria 
that we use under the Land and Water Conservation Fund; is that 
correct?
    Mr. Wells. That is correct, sir. If it has biological 
elements that make it important for the Service to acquire, 
yes, that is correct, it does not have to come through the LAPS 
approval process.
    Mr. Dicks. So then it is an internal process. Isn't the 
issue, can you get an agreement and do you have a willing 
seller? Isn't that basically it?
    Ms. Rasmussen. That is it. The regions do some analysis and 
they do establish priorities based on some of these planning 
documents that I mentioned earlier, the North American 
Waterfowl Management Plan; but you are absolutely correct in 
that it is not part of the national priority system, and if 
there is a willing seller, that they have an opportunity to 
obtain funding through the Migratory Bird Commission.
    Mr. Dicks. Are there also examples of Congress turning down 
a project under Land and Water Conservation and then it is 
acquired under the Migratory Bird Fund?
    Ms. Rasmussen. Well, actually, we have three examples we 
talk about in our report; not instances where the Congress 
said, do not go forward on the refuge, but rather there are 
instances where the Service requested funding from the 
Congress, and it was not given to them. They subsequently 
established those refuges. Two of them were established by 
donation, and one of them was established by an exchange of 
timber for land.
    But they were not instances where, similar to the Great 
Kankankee Marsh that you reference, that is the refuge that 
went from the bottom of the LAPS list to the top of the list, 
that is one that has been consistently in the conference report 
prohibiting the Service to move forward on. But these three 
refuges--there were three in our study period that the Service 
had requested funds, had not received them--did not view the 
lack of funding as a view that the Congress did not want that 
particular project, and so moved forward and established them 
by donations.
    Mr. Dicks. It is true Fish and Wildlife has said that if in 
future it is not unwilling, or it is willing to let Congress 
know what the potential O&M costs will be of these acquisitions 
that are done without congressional approval through this other 
process?
    Ms. Rasmussen. What you are proposing is the recommendation 
we have in our report, that the Service provide that kind of 
information, and they have agreed to do that.
    Mr. Dicks. How many years will it take to get this done?
    Ms. Rasmussen. It is in the same time frame, to be in place 
by the 2002 budget.
    Mr. Dicks. And you didn't get into looking at the backlog 
on O&M?
    Ms. Rasmussen. No, that was not part of the scope of our 
work.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Regula. Mr. Skeen.
    Mr. Skeen. Mr. Chairman, what I am concerned about 
primarily is, when you make these acquisitions, what happens to 
the water rights and the minerals rights and the rest of it? It 
all goes as one item to be taken care of, does it not?
    Mr. Wells. Yes, sir.
    Mr. Skeen. It can have an adverse effect on water 
situations, and this is what is really, I think, causing a 
great deal of concern amongst operators of some of the lands. 
You know how that checkerboard system works; and I am really 
concerned about how the water ownership operations are affected 
by the acquisitions of these parcels of land.
    Mr. Wells. As you fully appreciate, when you acquire land 
for wildlife habitat, you need water, and Fish and Wildlife 
Service would attempt to make sure that their mission is 
accomplished by, if they need more water, trying to figure out 
a way to grow that system and put more water on that for 
migratory bird use and that kind of thing.
    So it is an O&M maintenance decision in terms of how they 
will manage that refuge that will involve moving water around, 
sometimes very complex.
    Mr. Skeen. Well, they have to have it.
    Mr. Wells. That is correct.
    Mr. Skeen. Just like we have to have it for other 
operations for livestock or whatever, irrigation for farming. 
So there is constant acquisition and conflict. Warfare goes on, 
if you can characterize it this way.
    Mr. Wells. Contentious issues, yes, sir.
    Mr. Skeen. You have got all these Western States that are 
involved in that particular thing because of the water 
situation and the land acquisition as well. We also have some 
of the largest migratory bird situations to take care of. We 
are very proud of those things, but it has an effect on the 
water supply.
    Thank you, Mr. Chairman.
    Mr. Regula. Mr. Nethercutt.
    Mr. Nethercutt. Thank you. I want to ask about your 
findings relative to maintenance or lack thereof. Did you find 
a lack of maintenance on existing refuges?
    Mr. Wells. It was beyond the scope of this effort for the 
Chairman. At his request, our work was a 5-or-6-month effort to 
look at only the land acquisition; but clearly this committee 
has, over the years, raised a number of issues, and I believe 
has questions directed at the Service in terms of how well they 
are doing, trying to reduce what appears to be an extremely 
large maintenance backlog in the existing refuge system, not 
even thinking about what may be coming in the future, a serious 
problem similar to the Park Service. The Park Service for years 
has struggled with huge maintenance backlogs that have not 
always gotten priority attention. I think the same thing might 
apply here at the Fish and Wildlife Service.
    Mr. Nethercutt. I understand. Is there a potential for a 
common maintenance formula for a refuge of relative equal size? 
In other words, should it cost the same to maintain personnel-
wise and cost-wise a refuge in Washington State of 2,000 acres 
as it would for one in California, 2,000 acres; or is that too 
difficult to have a common maintenance cost?
    Mr. Wells. I am sure logic would tell, and the Fish and 
Wildlife Service officials would discuss the merits of 
supporting their desire to continue to grow the system and 
continue to expand each of these small individual refuge 
systems just by economies of scale. Sometimes you can deal with 
maintenance problems by making it larger. That would probably 
support their desire to expand these refuges. The more land you 
have, the more opportunity for economies of scale that could 
minimize your maintenance costs.
    Mr. Nethercutt. I have been here for 5 years, and we have 
had repeated instances of being surprised by executive orders 
of the President. Did you, in the course of your analysis, 
discover or have any evidence that there might be more 
executive orders coming with respect to the declaration of 
additional acreage for refuges?
    Mr. Wells. My information, sometimes I pick it up and read 
it in the Washington Post in the morning. That has been a 
thrust recently, yes, sir.
    Mr. Nethercutt. It wouldn't be unreasonable to expect that 
there might be a flurry of executive orders being made, or is 
that an overstatement?
    Mr. Wells. I wouldn't be in a position to add credibility 
to that statement, but if past history is any sign, we might 
assume that there might be more.
    Mr. Nethercutt. It wouldn't surprise you?
    Mr. Wells. Wouldn't surprise me. When they say they are 
interested in growing a system, they mean that.
    Mr. Nethercutt. Final question.
    Mr. Wells. Good reasons, by the way.
    Mr. Nethercutt. I understand.
    Mr. Dicks mentioned problems with the LAPS system and gave 
the example but you could be 135 one day and number one the 
next. Let me ask whether you would conclude that if and when 
that has happened, and I assume it has happened, would that be 
a result of the ambiguity in the LAPS processing, the LAPS 
process, or did you find any evidence that there was 
manipulation of the system? In other words, let us push this 
one in first for some reason rather than allowing that one to 
be ranked and acquired appropriately?
    Ms. Rasmussen. Well, in the case that Mr. Dicks mentioned, 
that change in the number was really a comparison of that 
refuge, ranked under the current LAPS system, that was at the 
bottom of the list, and under the new LAPS system it went to 
the top. So that explains that large difference.
    As we talk about in our report, I don't see that there 
would be a need for the Service to push priorities around 
arbitrarily to fudge the LAPS numbers. At least based on what 
we report, the Service has very openly selected projects 
further down the list, and as we understand, itwould be because 
those lower projects perhaps meet the needs of an administration 
initiative, perhaps an interest of a Member of Congress that they want 
to support or, to support a particular partnership.
    For example, in the 2000 budget, the Service requested 
lands for something called the Northern Forest, which was a 
series of refuges that had relatively lower priorities, but 
they were consistent with the needs of the administration's 
land legacy initiative, then were included in the budget.
    To come back to your question, I don't know if there is a 
need for the Service to arbitrarily change--or to fudge the 
numbers, because they are openly willing to dip down in the 
list.
    Mr. Nethercutt. Would you be willing, or would you kindly 
submit a list of any project that you found was declared a new 
refuge based on the administration's determination to help a 
Member of Congress, as you indicated?
    Ms. Rasmussen. Are you talking about new refuges?
    Mr. Nethercutt. I am talking about determination of the 
list in one priority order or another. Can you do that?
    Mr. Wells. Yes, sir.
    [The information follows:]

    We did not find any new refuges that were explicitly 
declared because of the administration's determination to help 
a Member of Congress. However, the Service does seek 
congressional support when it establishes or expands refuges.

    Mr. Nethercutt. All right.
    Thank you, Mr. Chairman.
    Mr. Regula. Thank you. For the members that came in late, 
Ms. Clark Director of the Fish and Wildlife Service is here. 
She will be testifying following this testimony, and you will 
have an opportunity to question her. Our goal is to finish by 
noon today.
    Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    I am looking at one statistic that says that the Service 
needs $4 billion to complete land acquisition at refuges it 
already has, and it continues to want to expand others.
    Mr. Wells. That is correct. There are 144 refuges that are 
already established. These are refuges that might have come 
into the system for 9 acres, and they are looking at it 
ultimately being 7,000 acres. So acquiring that additional 
acreage is part of that $4 billion projection that they would 
like to grow their existing systems by that amount.
    Under the Government Performance Act, each of the agencies 
is asked to determine performance goals. When Fish and Wildlife 
Service reported the performance goal for the year 1999 through 
the year 2003, they projected that their goal over the 
remaining 4 years, or future 4 years, was to acquire another 
half a billion acres in terms of refuge acquisition.
    Mr. Taylor. Well, this sounds like an agency somewhat out 
of control from the public interest, necessarily; I mean, the 
Congress is elected and instructed to appropriate funds to run 
the national government and all of its entities. How can you do 
that when you have what might be interpreted as a conflict of 
interest?
    For instance, if I want to expand my Department, all I have 
to do is bring in lands outside Congress and put together 
programs that demand that I get these funds, and I can expand 
my bureaucracy and actually send my whole program in the 
direction that I might contend--not Congress, but what I would 
like to contend.
    Mr. Wells. This is an agency that started a mission back in 
1903. We can sit here and tell you that, based on our study, 
this is an agency that has an extreme amount of flexibility. 
Through the 1930s and 1950s and 1960s this Agency has had 20-
plus pieces of legislation and authorization that allow them in 
one way or manner to acquire pieces of land, and an awful lot 
of that authority has nothing to do with the appropriations 
process. So that is why this agency has an extreme amount of 
flexibility and they are able to accomplish what they are 
accomplishing. They have a lot of legislation.
    Mr. Taylor. Mr. Chairman, you know--and we found this in 
many areas; and when I was chairman of the Parks and Recreation 
Commission in North Carolina, we sat down and put together 
criteria for adding land. And it needs to be studied and acted 
on by broad representation, because it does entail 
appropriations and planning for the future, where you have, 
say, in a small area, two-tenths of an acre or anything of that 
nature, it could be a small interest that could impact and try 
to change the whole planning process of your Department.
    And if it serves the interests of a limited number of 
people, that is one thing, but we have put together a budget 
and a program that serves the whole Nation; and we, right now--
for instance, in my District with public lands, less than one-
hundredth of 1 percent is being utilized in any way where the 
public can enjoy it in any way other than just its being on the 
map.
    For instance, we have demands for fire and disease control 
in the public lands and that costs a good deal of money. We 
have access for handicapped at sites to try to put together the 
ability to visit and utilize some portion of it. Any multiple 
use that you have, all this is an enormous amount of money. And 
we aren't appropriating, Mr. Chairman, the demands even for the 
Park Service, which you are fully familiar with, which is 
billions of dollars; and yet we continue to add areas that we 
have no hope of utilizing in both protection or for public 
utilization. That is disturbing.
    Thank you, Mr. Chairman.
    Mr. Regula. Mr. Hinchey.
    Mr. Hinchey. Well, thank you, Mr. Chairman.
    Mr. Wells, thank you for your testimony. I understand that 
there are essentially two sources of funding for land 
acquisition under the Fish and Wildlife Service. First is the 
Migratory Bird Fund, which was established in 1934 by an act of 
the Congress; and the second was established some 30 years 
later, 1964, the Fish and Wildlife Management Fund. The 
Migratory Bird Fund produces about $40 million a year, and 
about half of that is used for land acquisition in the program?
    Mr. Wells. That is correct, $20 million, about $20 million 
a year.
    Mr. Hinchey. About 20 million a year. So under that 
program, about $20 million can be spent for new refuges or the 
expansion of existing refuges?
    Mr. Wells. That is correct, and about every dollar is spent 
every year doing that.
    Mr. Hinchey. And the other source is the Fish and Wildlife 
Management Fund. How much was appropriated out of that last 
year?
    Mr. Wells. About $50 million went for the land acquisition 
from appropriated dollars, $50 million.
    Mr. Hinchey. For land acquisitions?
    Mr. Wells. For land acquisitions from the Land and Water 
Fund that was appropriated by this committee.
    Mr. Hinchey. How much of that has been spent?
    Mr. Wells. It is generally projected to be spent within a 
2-year period.
    Ms. Rasmussen. We don't have specifics on the unobligated 
balance. The Service perhaps can provide that.
    Mr. Hinchey. So over a year, the maximum amount then would 
be about $45 million that could be spent from these two funds, 
approximately?
    Mr. Wells. Closer to 75 to 100 million if you combine both.
    Mr. Hinchey. Well, if you got $20 million out of the 
Migratory Bird Fund, $50 million out of the Fish and Wildlife 
Management Fund that has to be spent over a 2-year period, that 
50 divided by two is 25; is my math correct so far?
    Mr. Wells. Yes, it is.
    Mr. Hinchey. That is $45 million roughly over a year.
    Mr. Dicks. That is also providing money from the past. It 
is still an annual amount.
    Mr. Hinchey. I am just trying to understand, Mr. Chairman, 
about how much money is going to be spent in a given year. So 
my guess is, it is going to vary, and it is going to be 
somewhere around $50 million a year perhaps, $40 to $50 million 
a year. There have been other years, if my memory serves me 
correctly, when even less money was appropriated than $50 
million out of the Fish and Wildlife Management Fund.
    Mr. Wells. We have a chart in our report that for 1998, for 
instance, it was over 100 million. It was a year in which a lot 
of projects came forward, and the Congress in its wisdom chose 
to fund a lot more that particular year. So it has varied up 
and down.
    Mr. Hinchey. So in any case, these are the decisions that 
are made by the Congress on an annual basis?
    Ms. Rasmussen. The Land and Water Fund would be decisions 
by the Congress, yes.
    Mr. Hinchey. By the Congress, on an annual basis, depending 
upon priorities that are recommended by the Fish and Wildlife 
Service basically for land acquisition?
    Ms. Rasmussen. Correct.
    Mr. Hinchey. And under the Migratory Bird Fund, any land 
that is purchased in a given State must be approved by either 
the governor of that State or the designated agency of the 
governor?
    Mr. Wells. That is correct.
    Mr. Hinchey. So there is no land being purchased in any 
State that is contrary to the wishes of the administration in 
office at any given time?
    Mr. Wells. That is correct.
    Mr. Hinchey. So I am trying to find out if there is 
anything sinister going on here, and I don't see anything. It 
seems to me like this is a pretty straightforward program that 
gets a very modest amount of money from two sources. One is 
reliably $20 million a year; the other depends upon how much 
the Congress feels is appropriate, and that is based upon 
recommendations that come from the Fish and Wildlife Service. 
And all of this, of course, is monitored on an annual basis by 
this subcommittee and by other members of the House of 
Representatives and the Senate.
    Ms. Rasmussen. I don't think that we are trying to say that 
there is anything sinister going on, but perhaps I can give you 
an example of a refuge that shows what our concern is. The 
Patoka Refuge in Indiana was one of those that the Service 
requested funding for, but did not receive. Again, they were 
not told by the Congress not to proceed; they just did not 
receive the funding.
    Mr. Hinchey. They requested it of whom?
    Ms. Rasmussen. This subcommittee. It was in their budget 
request for 1994, and it was not received. The Service then 
established that refuge by a 9-acre donation, and then 
subsequently expanded that refuge by receiving additional 
donations, receiving a transfer of land through the General 
Services Administration, and then also receiving land through a 
North American Wetlands Conservation Fund grant. That would be 
another one of these revolving funds, the use of which is 
approved by this committee, but who gets the money and how it 
is spent is decided by a council that was established by law.
    They also subsequently received $2 million in land and 
water conservation funds from this committee to acquire 2,000 
acres for the Patoka refuge.
    Mr. Hinchey. Subsequently?
    Ms. Rasmussen. Subsequently. So our point on this is that 
we are not saying the Service shouldn't have gone forward. We 
are not saying that the committee told them they couldn't go 
forward. They did go forward.
    There are associated costs, operations and maintenance 
costs, for that refuge. So they established it by donation, 
they came back and received a Land and Water Conservation Fund 
appropriation, which is again approved by this committee. You 
didn't have to give to it them, but then again, they are 
incurring roughly $200,000 per year operations and maintenance 
expense for that refuge.
    And then very interestingly, we know that at the end of our 
study period, a request to establish a unit at the Patoka 
Refuge was approved in February of 1998. A preliminary plan 
percolated up, as Jim was saying, through the Service, and it 
was approved by the Director and allowed them to go ahead and 
establish a unit. It is about 16 miles away from this refuge. 
To acquire the lands in that refuge, the Service, according to 
the plan, is going to use some funding methods available from 
USDA, anticipates additional donations, anticipates using 
additional North American Wetlands Conservation Fund grants.
    So again they are going to expand that refuge, all of their 
means for expending being, in essence, without approval from 
the committee, and this additional unit was projected to have a 
$50,000-per-year operations and maintenance expense.
    So again our point is that you give them money to spend on 
the land, and that is, you know what you are giving it to them 
for. When they establish the refuge outside the process, there 
are some costs that this committee ultimately ends up paying 
for. These are additional funding from the land and water 
conservation fund, and ultimately the operations and 
maintenance expenses of each.
    Mr. Wells. The point is that nothing in our review would 
indicate that no one is questioning the science or whether 
these were inappropriate acquisitions. Clearly, all these land 
acquisitions do go through an approval process. Someone sits 
down and says, this will work, this is an important piece and 
money is dedicated for that, as Cindy pointed out.
    Again, our point is, know what you are buying; and there 
are future implications when you take something into the 
system. Even though it may be a small annual amount there are 
future liabilities associated with bringing that into the 
system.
    Mr. Hinchey. I think that is a very good recommendation. I 
also think that, on a practical basis, it is going to be very 
hard to implement. Nevertheless, I think it is a very good 
recommendation, and to the maximum extent possible, it ought to 
be implemented, but the example you give is anexample that is 
wholly within the process.
    Ms. Rasmussen. Yes.
    Mr. Hinchey. The Congress recognizes that it is valuable to 
establish these wildlife refuges; and being appropriately 
prudent in the spending of taxpayer dollars, it recognizes also 
that there are other sources of revenue and other ways of 
acquiring these wildlife habitats, and it has set that into 
motion by legal processes in the law. And so the Fish and 
Wildlife service, acting within the law, came to the Congress 
in this example and indicated it would like to set up this 
refuge. Congress indicated the there wasn't any money.
    The refuge went out and got donations and contributions 
from other sources, transfers, set it up, came back to the 
Congress and the Congress provided money directly from the 
taxpayers to expand the refuge and to go forward.
    So that is basically a summation of what happened in this 
particular case. Everything, step by step, was entirely 
appropriate, entirely within the law, entirely with a very good 
and noble objective.
    Ms. Rasmussen. Right, and I guess to add to the good and 
nobleness of the situation, for this new unit there is an 
estimate of $250,000 needed to improve the habitat, and 
according to the plans, those costs would be incurred through 
in-kind services through partnerships with interested 
organizations. So they have plans to go outside the 
appropriations process to get some funding for that.
    Mr. Hinchey. That is entirely appropriate?
    Ms. Rasmussen. That is a good thing, yes.
    Mr. Regula. I don't think there is any question of it being 
sinister. The problem, of course, is that the service takes 
unilateral actions which have maintenance and operation costs 
that come back to this committee. We have such enormous 
backlogs of maintenance at a number of agencies that this 
situation becomes a concern.
    Mr. Moran.
    Mr. Moran. Thank you, Mr. Chairman.
    Following up on that, we do have the discretion to block 
further expansion of a refuge, don't we?
    Mr. Dicks. You could put a prohibition in the bill. You 
would have to do it by a line item.
    Mr. Moran. Let me make this point, though: With very few 
exceptions, the Congress has deliberately appropriated the 
money necessary to expand almost all of the refuges that are 
mentioned in the GAO report. I think, in subsequent 
appropriations bills. Even though they were initiated without 
congressional approval, we have essentially given that 
congressional approval in terms of appropriating the funds to 
expand these refugees subsequently; is that not correct?
    Ms. Rasmussen. I will tell you about the Mandalay Refuge, 
and this one is located in Louisiana. This also was started 
with a very small donation to the refuge. We show in our report 
1 acre, because that is the first acquisition. Within a couple 
days, though, the Service received additional donations 
bringing the total acreage to that refuge to 4,600 acres. So 
again that is all outside the appropriations process.
    There are plans to expand that refuge by an additional 
2,500 acres. Those acres would be acquired with migratory bird 
moneys, and bring the total acerage for that refuge to 7,000 
acres; and that has happened without the oversight of this 
committee, yet there will be operations and maintenance costs 
associated with that refuge.
    Mr. Moran. Mr. Chairman, are you saying, the only way to 
stop a refuge from being expanded is to put a specific 
provision in a bill saying, you can't expand it?
    Mr. Regula. We would have to address each one, and we would 
have to anticipate that we are going to do that. It would be 
very difficult actually.
    Mr. Moran. I understand.
    Let me ask you for your perspective on a couple of concerns 
I have. Your report mentions the Rappahannock River Valley 
Park. As one of three refuges that we denied the funds through 
the Land and Water Conservation Fund. Yet Congress did 
appropriate $1.1 million to purchase what we call 
``environmentally sensitive property'' contiguous to that 
refuge in the 2000 budget. Now there is more money requested in 
the fiscal year 2001 budget.
    My first concern is general. Does an expression of federal 
interest that affect the private landowners' willingness to 
donate property if they think that Federal money is going to be 
made available? I mean, it would stand to reason that it would, 
but I wonder how often that occurs, where they might take the 
tax benefits by donating the land, but if they think there is 
going to be Federal money available, then obviously it would be 
a better economic decision to wait and see if the Federal 
Government won't purchase it.
    My second concern reflects an experience with a property 
that is not all that far away; it's in Herb Bateman's district 
but I am familiar with it. It's called the ``Crow's Nest'' in 
Stafford County. I think--from everything I understand, it is a 
very appropriate land for FWS to acquire, but the landowner has 
now taken steps to get permits to run water and sewer lines 
into the property.
    Now, that is going to substantially escalate the value of 
the property, and the price to acquire it. The problem is that, 
the procedure may be too slow to acquire it quickly before it 
gets developed, and I suspect a lot of those decisions are made 
at the eleventh hour to save it from development. On the other 
hand, if there was a more proactive approach, we could probably 
acquire lands much more cheaply before there was the prospect 
of development.
    I don't know if it is even reasonable to expect that 
anything different can be done with so much property around, 
but do you have any perspective on those two cost 
considerations?
    Mr. Wells. In one sense, as I listened to your question, 
you have answered the question. I mean, it is true.
    Mr. Dicks. That is the way he usually does it.
    Mr. Moran. Well, I was just trying to learn from my 
colleagues here, mentors on the Appropriations Committee, in 
asking those kinds of questions.
    Mr. Wells. It is the American way to make smart business 
decisions, and we have tax policies that do influence people's 
decisions to donate.
    Yes, sir, even regarding your second concern, the Service 
is, at the field level, very much interested in watching 
developmental trends in terms of how development is occurring, 
where it is occurring, and what may be in its path. I think 
from a planning standpoint, we would clearlyhave observed 
situations where the Fish and Wildlife Service is trying to get out in 
front to propose purchasing acquisitions that might be at a cheaper 
price today, knowing that as development moves, the price you are going 
to pay at a later point is going to be much higher; and there are some 
incentives working both ways in terms of what is good for the business 
landowner and what is good for the government.
    You are 100 percent correct on both your answers. We saw 
that.
    Mr. Regula. You had better quit right now.
    Mr. Moran. I think I will quit, Mr. Chairman.
    I also wanted to give Ms. Clark an opportunity to prepare 
herself for that question as well.
    Mr. Regula. Thank you.
    Mr. Kolbe.
    Mr. Kolbe. Thank you, Mr. Chairman. I just want to 
reiterate something that you said and also our witnesses said 
and that is, I don't think there is anything sinister being 
suggested here, but we have a responsibility for management, 
and the Fish and Wildlife Service has a responsibility for 
management. We have a responsibility for oversight. We are 
trying to get a handle on that, because we have to fund that; 
and we have, as we are talking about, a lot of unmet needs.
    Just a few questions. Did you find any examples in your 
investigation where they did turn down donations?
    Ms. Rasmussen. We don't have any specific examples of that. 
We can't say that there aren't any examples.
    Mr. Kolbe. But you weren't able to identify some offer, no 
letters in the record, in the files, of offers saying, hey, I 
want to give this land; and them writing back saying, no, it is 
not appropriate?
    Ms. Rasmussen. As we did our work, we in essence started 
the reverse. We started at the top and worked down. We 
identified these refuges, created in this time period, here in 
headquarters. It wasn't a matter of going out to the field and 
just pouring through files. So we really have no basis to 
comment one way or the other.
    Mr. Wells. Mr. Kolbe, I would say that more than one person 
told us that free land is good land. It would be very difficult 
to turn down free land if it met the biological mission needs 
of the Service.
    Mr. Dicks. That's a big ``if.''
    Mr. Wells. Absolutely. If there is no wildlife habitat on a 
particular land, they are not interested in acquiring that 
land.
    The science is there. They do do the planning work to make 
sure they are worth acquiring.
    Mr. Kolbe. There is that----
    Mr. Wells. We saw no evidence of the Service not doing 
that.
    Mr. Kolbe. Okay.
    You mentioned the example in Louisiana where Congress 
didn't give them the money in 1994. They subsequently started 
it with donations and expanded it with donations, and then with 
other use of funds and subsequently with some land and water 
conservation funds.
    Are there other examples besides that one where there was a 
budget request, Congress did not approve it, and they were 
acquired?
    Ms. Rasmussen. Yes, we have three examples.
    Mr. Kolbe. All three of those are in that category?
    Ms. Rasmussen. Yes. One of them was first established by an 
exchange, but subsequently received some actually Title V 
moneys to acquire land.
    Mr. Kolbe. In the documents you looked at where these were 
acquired by donations, does the analysis include a report or 
analysis of future acquisition costs, future acquisitions that 
may be required?
    Ms. Rasmussen. Yes. The Service policies require for very 
refuge, when it is established, irrespective of the method--
donations, as you are speaking of--that there be something 
called a ``preliminary project plan''. And while those plans, 
in and of themselves, vary in depth from refuge to refuge. The 
plans do have estimates of the acreage, and a discussion of how 
the Service intends to acquire those additional acres of land.
    Mr. Kolbe. Did you find that those preliminary plans 
generally are followed, or did the preliminary plans say, oh, 
it is going to be 100 acres, and now today we have 5,000 acres?
    Ms. Rasmussen. We didn't do that specific analysis, but I 
can think anecdotally of examples that went both ways. Some of 
them became smaller following the preliminary planning process. 
They became smaller after the service goes through what they 
call the detailed planning process that involves a public 
comment process. So there can be some changes in the depth or 
breadth of the project through that process.
    Mr. Kolbe. Does the preliminary plan also include a 
discussion or analysis of subsequent annual operating costs?
    Ms. Rasmussen. It does.
    Mr. Kolbe. So that is included in there?
    Ms. Rasmussen. It is, as well as the preliminary plans. And 
again I can't tell you exactly what percentage had each of 
these variables, but they include information on land 
acquisition, the Service's planning costs associated with that 
refuge, and operations and maintenance costs. Many of the plans 
are specific as to the nature of capital equipment that needs 
to be acquired. And whilst a different appropriation account, 
oftentimes there is information about proposed construction at 
that refuge. Construction, I guess--my guess based on the size 
of some of them, they would be coming to the committee as a 
line item for construction.
    Mr. Kolbe. A couple of quick questions in my remaining time 
on the priority setting process:
    Your discussion of the LAPS system certainly is confusing. 
I don't know how anybody can understand it.
    Mr. Wells. We proved that point, I think.
    Mr. Kolbe. The Service apparently doesn't understand it 
either. They are trying to change it, although you suggested 
the system they have come up with they don't seem to like; is 
that right?
    Mr. Wells. They are testing it now.
    Mr. Kolbe. But they don't like it?
    Mr. Wells. They are working bugs out. They would like to 
continue to look at what works and what doesn't work.
    Mr. Kolbe. You mentioned, that it is used for about three-
quarters of the acquisition; is that correct?
    Ms. Rasmussen. What we say in the report is that they 
strictly follow that priority system for three-quarters of the 
projects.
    Mr. Kolbe. What are the criteria for going outside the 
system? Even if it is not a good system, what are the criteria 
for saying, oh, we will follow it here, but these two, we are 
not going to follow it on?
    Ms. Rasmussen. One reason they might, starting at thetop of 
the list, the Service could request funds for the number one, two, 
three priority projects. Perhaps when they get to number four they will 
pass that one over because their people in the field have knowledge 
that there are no willing sellers. So while that from a biological 
standpoint that property is a high priority, because they know from a 
marketplace situation that they are unable to acquire that land, they 
pass over it.
    And the example I gave earlier of the Northern Forest would 
be one that is a request that met the administration's Lands 
Legacy Initiative, and so those were built into the budget 
request. Those were lower priority, I am thinking 98, 100.
    Mr. Kolbe. Finally, Mr. Chairman, on the migratory bird, 
that process that you suggest, instead of being top down, is 
bottom up regionally----
    Mr. Wells. That is correct.
    Mr. Kolbe [continuing]. How do they merge the regional 
requests?
    Ms. Rasmussen. They don't.
    Mr. Kolbe. A little bit of everybody gets funded?
    Ms. Rasmussen. That is right. They anticipate what the 
receipts to that fund will be, and allocated them fairly stably 
year to year, between each of the regions. The regions then 
know, pretty much, how much money they have to spend. And of 
course they have their infrastructure of realty people that 
support that. They have them in place. They can justify having 
people because of stable funding.
    Mr. Kolbe. Infrastructure of realty people? Real estate 
acquisition people?
    Ms. Rasmussen. Right, they would be disbursed. They have a 
workload that is established, based on the expected funding 
that they receive from migratory bird funds from year to year.
    Mr. Wells. If they have $20 million, there will be $20 
million worth of projects submitted for approval. It matches up 
pretty well.
    Mr. Kolbe. Thank you, Mr. Chairman.
    Mr. Regula. But we end up with the O&M. There is the 
problem.
    Mr. Wamp.
    Mr. Wamp. Mr. Chairman, I know we need to get on to the 
Service, but I will say I think the big issues are balance and 
accountability. If I ask somebody in Grassy Creek, Tennessee, 
if the Federal Government should protect and own a lot of land 
in this country, they would say, yes. And then when I tell them 
how much the Federal Government already owns and manages, they 
are surprised that it went that far.
    You talked about 1903. I wonder, if Teddy Roosevelt were 
here, if he would be chuckling right now or if he would be 
scolding us, that it wasn't supposed to go this far. And I ask, 
how much of a factor is the Endangered Species Act; and in the 
last 27 years, has this propensity to take lands escalated and 
is it problematic? Is that the rationale that the Service has 
used for this and should I be able to tell the people back in 
Grassy Creek, Tennessee, that in fact we are--the Congress is 
responsible for allowing takings, you know, based on laws that 
we pass. And who is looking after agencies that just add lands, 
is it primarily caused by the Endangered Species Act? That is 
the heart of my question.
    Mr. Wells. I will ask my colleague if she knows the 
percentages attributed to the one source, Endangered Species, 
but again I go back to that is only one of about 20 different 
ways they can acquire land that has been given to them in the 
authorization process. Do we have a percentage?
    Ms. Rasmussen. No, we don't have a percentage, but the 
projects that the Service request funding for do have many that 
are justified based on the Endangered Species Act. I don't have 
a specific percentage. Their are equally projects justified 
having to do with nationally significant wildlife habitat, 
biodiversity, or wetlands issues.
    Mr. Wamp. Can you see the need for a national priorities 
list on these things, between land conservation and migratory 
birds, so we don't have this separation where if you fail at 
one, you go to the other? We have got national priorities lists 
for Superfund sites. It is darn hard to get any money released 
on those, and here it seems like they are going in the other 
direction.
    Mr. Wells. Clearly, I tried to point that out in my short 
statement how important it is that whatever system is being 
designed, rather than to say they have two systems and they are 
not going to match up between the Migratory Bird and the LAPS, 
I think it is important there be communication between this 
committee in terms of what the Congress needs versus what they 
are designing the system for. That is priority number one.
    Mr. Wamp. Even if LAPS were improved and reformed, it 
wouldn't go far enough?
    Mr. Wells. That is correct.
    Mr. Wamp. Thank you.
    Mr. Regula. Mr. Peterson.
    Mr. Peterson. I guess I shouldn't be surprised. I have only 
been here, it is my fourth year, but I guess I am continually 
amazed at what goes on in Washington. I have a 26-year business 
background, small businessman--19 years in State government, 
and thought I understood how government functioned and 
controlled--but I guess I am surprised that any agency has the 
right to obligate the American taxpayers without public debate, 
and no one has the right to appeal or--that represents the 
taxpayers. Do we have many agencies with this kind of power?
    Mr. Wells. I responded earlier, if there are some out 
there, it will be a relative small number. Typically, the 
government should be held accountable to the Congress and the 
American taxpayer.
    Mr. Peterson. I guess I don't like to be a part of any 
government that the taxpayers don't have a recourse; and they 
don't have a recourse here. It doesn't matter what the goal is. 
We could be helping the sickest of the sick, we could helping 
the poorest of the poor. Whatever we are dealing with, I am not 
sure any governmental agency should have the right to obligate 
future taxpayers, period, without having a public approval 
process.
    So wouldn't you state that this agency is pretty aggressive 
as far as land acquisition and growth? I think you said that 
earlier.
    Mr. Wells. Yes, sir.
    Mr. Peterson. They are averaging five new ones per year?
    Mr. Wells. Five to six a year; that is correct.
    Mr. Peterson. And I guess I won't give Congress--and now my 
fellows will be angry with me--high marks for being as 
futuristic and focused as we should be.
    In State government we made a lot of decisions I don't 
think were well thought out for the future, especially fiscally 
in what things were going to cost down the road. Wealways 
realized, we do things in a hurry.
    But this is not exactly an agency that has a stellar record 
of fiscal responsibility. If my memory is correct, the 
Resources Committee has this agency on the hot seat for how it 
spends money, and here we have an agency with the right to 
purchase property without anybody's approval. I think that is 
the fundamental issue that concerns me. And I don't mean to 
pick on them, but I would feel the same way no matter what the 
agency was, that we have somehow given the right to obligate 
future taxpayers, and they have no right to disapprove or be a 
part of it.
    I think that is the fundamental issue here that I think we 
need to deal with. I would be interested in your 
recommendations.
    Mr. Regula. Mr. Kingston.
    Mr. Kingston. Thank you, Mr. Chairman. I think all of the 
questions have been asked, but being a good politician, I think 
given time, I can grope around and come up with something.
    Mr. Regula. You will have a chance with Ms. Clark.
    Mr. Kingston. Let me just say this. When I was in the State 
legislature, DOT in Georgia actually got a percentage of the 
gas tax, which they spent themselves on roads; and it just 
drove the legislature up the wall because it was an earmarked 
fund for an unelected government agency.
    Now, they did not leave the government with the tab in 
terms of maintaining roads; they used the money from A to Z for 
all the purposes, but still it was basically the same 
philosophical issue here, and even if Fish and Wildlife is 
doing absolutely everything 435 Members of Congress approved 
of, it is still outside of the elected legislative body, and I 
think that is the philosophical issue here that we are all 
dealing with.
    I do want to point out also, Mr. Chairman, I don't know how 
many members of this committee actually have to buy a duck 
stamp each year. I buy one, and I want to say in years past, it 
gave you a warm and fuzzy good citizenship, good 
environmentalist feeling. That is not the case anymore. 
People--and I have been active in Ducks Unlimited, and most of 
my friends duck hunt and buy the stamp every year, and they 
don't feel so good about it anymore. And it is not so much Fish 
and Wildlife; it is just general: the damn government owns 
everything. There are so many rules.
    There is also this myth that when the government buys land 
the common person can still go hunting on much of it, but the 
government's set of rules are so high and so extensive--and 
they are well intended, well intended, but on the same hand, it 
is not like these lands are completely recreational and 
utilized.
    And, you know, I point out also in the madness out there, 
there certainly has not been an increase of ducks on the 
Atlantic flyway as a result of all these land acquisitions.
    So it makes me wonder about the methodology of purchasing 
land--if there is even a direction that is coherent, as opposed 
to there is some big landowner who has got a cozy relationship 
with Fish and Wildlife, it is to his tax advantage.
    Norm, if you don't have it--you don't represent a coastal 
area--that is the case. But anyway, I wanted to point that out 
and ask you, is there, you know, as a benefit of all this 
gobble of land that we have seen, more ducks and other species?
    Mr. Wells. I don't have an answer.
    I think that really gets at the heart of the mission and 
where they need to go in future years. So it is between the 
appropriators and the authorizers to decide what the future 
mission ought to be and how that is measured in terms of 
government performance.
    I think the Fish and Wildlife Service needs to be held 
accountable for what performance objectives are being achieved. 
If there are less ducks out there, it sounds like they are 
heading in the wrong direction.
    Mr. Kingston. There are a lot fewer ducks. I don't know 
that you can squarely blame that on any one thing or agency, 
but there has to be a question, that one of the original 
intents of the migratory bird stamp was to create more duck 
habitat; and speaking for the Atlanta flyway, there are a lot 
fewer ducks. And perhaps we need to look at some other things 
which we are doing.
    But, you know, if that is part of the mission that has been 
a failure, Mr. Chairman.
    Mr. Regula. Thank you. I will say they have been very 
successful with Canada geese. Thank you very much.
    I think you have given us a lot for thought, and I am sure 
you have provoked some questions for our next witness. So thank 
you for coming and for the report.
    Mr. Wells. Would you like us to stay?
    Mr. Regula. If you would like, yes. You are very welcome to 
stay, and I think it would be a good idea if you did because 
Ms. Clark's testimony may provoke some questions that someone 
would like to direct to your agency. Thank you.
                                        Tuesday, February 15, 2000.

                       FISH AND WILDLIFE SERVICE

                               WITNESSES

JAMIE RAPPAPORT CLARK, DIRECTOR
DANIEL ASHE, ASSISTANT DIRECTOR, REFUGES AND WILDLIFE
JEFFREY M. DONAHOE, CHIEF, DIVISION OF REALTY
STEPHEN D. GUERTIN, CHIEF, DIVISION OF BUDGET
JOHN D. TREZISE, DIRECTOR OF BUDGET, DEPARTMENT OF THE INTERIOR

                          Director's Testimony

    Mr. Regula. Ms. Clark, you have your turn up at bat here. I 
think you have some concerns to respond to. We welcome your 
abbreviated testimony, and the rest of it will be in the 
record.
    Thank you for coming.
    Ms. Clark. Thank you, Mr. Chairman. Good morning to you and 
to members of the subcommittee.
    I am happy to be here this morning to discuss our land 
acquisition program in the Fish and Wildlife Service, and am 
accompanied today by Dan Ashe, our Assistant Director for 
Refuges and Wildlife.
    I would like to address our ongoing work with the General 
Accounting Office, which has addressed congressional concerns 
regarding our priority setting for land acquisition and how we 
inform Congress about new refuges. The recent report on our 
program noted the two major issues that have been discussed 
already. First, we can establish refuges through donations, 
transfers or other means outside of the annual appropriations 
process, and through funding from the Land and Water 
Conservation Fund. Under current procedures, the Congress 
oftentimes finds out about these new refuges when we request 
operations and maintenance funding to meet our new 
responsibilities. Second, under the existing land acquisition 
priority-setting system, the criteria are too subjective, they 
don't reflect the true relative rankings of the project, and it 
is hard to differentiate among the projects at the national 
level.
    Based on the concerns regarding LAPS, we did start taking a 
hard look at the program and at the system in 1998. Over the 
past 2 years there has been an energetic bunch of folks dealing 
with this system and working to reengineer the whole process. 
So the reengineering is not yet complete; it is close, but not 
yet complete. I know that it will be much more accurate and it 
will have much more justifiable priorities for setting the 
priority system in the future.
    We made the decision last month to test drive this system. 
We have declared it interim, and we will, in fact, use this in 
the formulation of our proposed 2002 project list coming up 
next year. This is a system that will undergo public scrutiny.
    The GAO recommended that we provide annually a list of all 
approved and proposed refuge and refuge boundary expansions to 
both the authorizing and the appropriating committees and that 
the list should identify future requests for land and water 
funds and estimated future O&M costs for each refuge. They also 
recommended that we expeditiously implement the revised 
priority-setting system for land and water funds. As Mr. Wells 
mentioned, we did agree to implement both recommendations that 
were raised in the report and look forward to continuing our 
cooperation with this committee as we strategically grow the 
refuge system into the future.
    In summary, the need for a more strategic plan for growth 
of the system was identified by our own employees. In fact, in 
our vision document, Fulfilling the Promise, which I am sure 
most of you are aware of, we share your concerns, we share the 
concerns of this committee that there is a better way to grow 
this system. That doesn't mean that we haven't done well by the 
system in the past for wildlife. It does mean, however, we need 
to work smarter and more openly.
    We are committed to better coordination with the Congress 
on system growth through more timely communications, a better 
process for land acquisition that will have undergone public 
scrutiny in both the science and academic community before 
being finalized, and a reengineered process that allows greater 
opportunity to consider land acquisition priorities at the same 
time as we deliberate O&M needs for the future.
    Mr. Chairman, that concludes my testimony, and we would be 
happy to answer any questions.
    [The written statement of Director Clark follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                  Operations and Maintenance Backlogs

    Mr. Nethercutt  [presiding]. Do you have a statement, sir?
    I will reserve--well, I will ask Mr. Regula's questions. 
The chairman has been concerned about the Service making its 
first priority addressing the huge unmet maintenance and 
operational backlogs within the national wildlife refuge 
system. How big are those backlogs now?
    Ms. Clark. Our operations backlog is over $1 billion, a 
little over $1 billion. The maintenance backlog is in the 
neighborhood of about $779 million.
    Mr. Nethercutt. Million?
    Ms. Clark. Yes.
    Mr. Nethercutt. Do you have a list that comprises the $1 
billion and the $779 million backlog?
    Ms. Clark. Yes. We maintain what we call the Refuge 
Operating Needs System, the RONS system, which does deal with 
our backlog of operational needs; and we have our MMS, our 
Maintenance Management System, which does deal with the 
maintenance backlog nationwide for the system.
    Mr. Nethercutt. Would you kindly provide that to the 
subcommittee?
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                         2001 Budget Priorities

    Mr. Nethercutt. From reading the GAO report and from your 
2001 budget request, the impression is clear the land 
acquisition is by far the Service's number one priority. Do you 
acknowledge that?
    Ms. Clark. For 2001?
    Mr. Nethercutt. Right.
    Ms. Clark. The Lands Legacy Initiative for this 
administration is very high profile, very important as we 
protect lands for the future.
    Mr. Nethercutt. Is it the number one priority for the 
Service?
    Ms. Clark. The Service has lots of priorities, Mr. 
Chairman, but land acquisition is important for the conduct of 
our mission. So I hesitate always to say--not number one, two 
or three, but protecting wildlife lands for the future is 
extremely important to us.
    Mr. Nethercutt. Do you rank your priorities as an agency? 
You say you have several priorities. But you are reluctant to 
say that the land acquisition is the number one priority. It 
may be one, two or three. What might the others be and how do 
you rank those if you do?
    Ms. Clark. Priorities of the Agency?
    Mr. Nethercutt. Yes.
    Ms. Clark. Certainly in the 2001 budget, restabilizing or 
rebuilding our law enforcement capability is extremely 
important to the future of our mission. Dealing with aquatic 
conservation, continuing to address incentives for endangered 
species conservation, dealing with the operations and 
maintenance backlogs of both the refuge system and the national 
fish hatchery system are important to us as well.
    Mr. Nethercutt. Are there any priorities that rank as high 
as land acquisition moneywise?
    Ms. Clark. From moneys in the budget, not for the Fish and 
Wildlife Service.
    Mr. Nethercutt. So all of your other priorities you 
mentioned here already in the last few minutes pale in 
comparison to the number, the dollar number that is projected 
for land acquisition in the 2001 budget?
    Ms. Clark. The dollar number for land acquisition for the 
Fish and Wildlife Service in 2001 is significantly higher than 
some of the other initiatives, absolutely.
    Mr. Nethercutt. Your 2001 proposal for land acquisition is 
more than twice the amount provided in 2000, and you have a 
major new State grants program requested for $100 million in 
2001. All the other program increases pale in comparison. How 
is that consistent with the goal of eliminating your critical 
refuge operations and maintenance backlogs by the 100th 
anniversary of the national wildlife refuge system in 2003?
    Mr. Wells. We certainly will acknowledge the challenge 
facing us to address the operations backlog and our maintenance 
backlog. I certainly am not going to try to hide behind that. 
It is significant and very real.
    At the same time, we can't ignore the decreasing lands for 
wildlife in this country and the opportunities that often 
present themselves, either regionally or through some of our 
collaborations with environmental groups or States or others to 
protect lands, and so we have tried to prevent that in a 
balanced way, but our operations and maintenance backlogs are 
quite significant, and we are still looking for ways and 
challenges to deal with that. We make good use of our volunteer 
program. We look for creative partnerships to address some of 
that backlog, still looking for innovative ways.
    Mr. Nethercutt. I understand. I am sure this subcommittee 
will have some good ideas along the way.
    Mr. Dicks.
    Mr. Dicks. Thank you.

             Operations and Maintenance Cost of New Refuges

    Ms. Clark, according to the GAO report, your Assistant 
Director for Refuges and Wildlife has indicated Fish and 
Wildlife Service has not adequately considered operation and 
maintenance cost of new refuges in the past and wants to do 
better. Please explain to the committee exactly how the Service 
intends to do better.
    Ms. Clark. I could turn to my assistant director that said 
it and ask him to explain what he meant. I will lead and let 
Dan finish.
    Certainly we have had a lot of communication on that issue, 
and we are looking for ways to better link our land acquisition 
priorities with the actual understanding and knowledge of what 
it would take in the long term to deal with the operations and 
maintenance needs of that refuge, but I will turn to Dan and 
let him maybe put it in context for the conversation.
    Mr. Ashe. I would guess that when we were having that 
conversation we were talking about the historical context in 
which the Fish and Wildlife Service made land acquisition 
decisions, and I do believe that in the past that operation and 
maintenance needs on our national wildlife refuge and lands 
have not been adequately taken into consideration.
    However, I would point out to the committee that it was the 
Fish and Wildlife Service that developed the refuge operating 
needs system and the maintenance management needs system. We 
did that because we acknowledged that we needed to do a better 
job of accounting for what our operation and maintenance needs 
are. And I think as we continue to improve that system working 
with the committee and we evolve and improve our land 
acquisition priority setting and decision-making process, that 
our goal is to bring those two sets of information together so 
that we are better able to predict what our operating and 
maintenance needs are and the committee is better able to help 
us in terms of identifying those priorities in meeting our 
operation and maintenance needs as we grow the national 
wildlife refuge system.
    So what we are trying to do is reform or continue to 
improve those systems' operating and maintenance needs and also 
kind of marry that with changes in the land acquisition process 
so that we get decisions in the same time frame.
    Right now, they are not in the same time frame; and, 
historically, we have made acquisition decisions--usually we 
have made decisions to acquire lands at least a year, 18 
months, sometimes 24 months before we get to the question of 
operating and maintenance needs.
    Mr. Dicks. Should this be part of this plan you talk about?
    Ms. Clark. It is part of the reengineering of the process 
that we have been referring to.
    Mr. Dicks. I thought you did a plan for each of these 
acquisitions. Why couldn't you make an estimate of the 
potential O&M costs based on similar sized projects?
    Mr. Ashe. We do. I believe the GAO testified we do at the 
preliminary project proposal stage identify the operation and 
maintenance needs. But what the committee should realize is 
that the preliminary project proposal stage is a very early 
preliminary decision. Then we have to go through detailed 
planning, public hearings, the NEFA process. So between the 
time the director signs that document and the time that we 
actually acquire an acre of land could be a process of several 
years.
    So, in the meantime, there really historically has been no 
connection between that land acquisition process and then the 
budget process whereby we are identifying our operation and 
maintenance needs. We need to marry that process so the 
committee has better information and we have better information 
in the future.

                   Operations and Maintenance Backlog

    Mr. Dicks. What bothers me here--I mean, it is the same 
problem we have in so many other areas, not to pick on the Fish 
and Wildlife Service--but here is this operations backlog. What 
does that mean, a billion dollars in operations? What kind of 
things are we not doing that we should be doing, we would like 
to be doing?
    Ms. Clark. Some of it could be wildlife inventories, survey 
work, control of invasive species. Some of it is staffing, law 
enforcement, the whole gamut of what it takes, public use 
facilities, public use opportunities, expanding public use.
    Mr. Dicks. And that $800 million for maintenance?
    Ms. Clark. Facilities, roads.

                      Land Acquisition vs. Backlog

    Mr. Dicks. I guess it gets down to this philosophical 
question of how can we keep acquiring things that are going to 
drive up the operations deficit and the maintenance deficit 
when we have no plan to deal with it? That doesn't seem to me 
to be responsible. How can we keep doing this if we know we 
have these backlogs and we don't have any plan to deal with the 
backlogs?
    Ms. Clark. Well, Congressman, we have developed plans to 
deal with them. Certainly it is not as quick as any of us would 
like.
    Mr. Dicks. You don't have it funded.
    Ms. Clark. That is correct, we don't. But it is really hard 
when you are dealing with all the authorities that we have in 
the Fish and Wildlife Service and facing what you are facing on 
the landscape to pass over opportunities to protect lands for 
long term in conservation status.
    Hanford Reach is a classic example. I would not have wanted 
to pass up the last free-flowing salmon reach of the river 
while I looked to find out what it was going to take for O&M.
    Absolutely, it is a conflict. Absolutely, it is a 
challenge. But some of these transfers, some of these 
donations, some of these opportunities are really super 
opportunities for wildlife. I think it takes the pressure off 
of some of the private lands, particularly when we are dealing 
with endangered species, and it is a challenge that we are 
continually looking for innovative ways to deal with.
    TEA-21, that legislation gave us some tremendous boostsin 
road maintenance dollars, and so we need to continue to look for those 
opportunities while we deal with other challenges facing the backlog. 
But having lands in protected status is pretty important.

                    land acquisition priority system

    Mr. Dicks. This example on LAPS, it says a test of the 
proposed revised system. Under the test, the Grand Kankakee 
Marsh Wildlife Refuge received the highest ranking. However, 
under the old LAPS system in fiscal year 2000, this project was 
ranked 131st out of 140 projects. How can this possibly be the 
case?
    Mr. Ashe. I guess, Mr. Dicks, I would say that when we ran 
the test of the new LAPS, we didn't rank all of the projects. 
So we took a subset of the projects, and Grand Kankakee was the 
lowest ranking project. So we didn't run 160 projects. We ran a 
test of 30, I think, 35 or 39 projects. So Grand Kankakee was 
the lowest ranking project under the olds LAPS of that 39 
projects, and then it went to the top of the list.
    But for most of the projects, the rankings did not change 
that dramatically. That was a dramatic shift, but that is a 
result of the different process. The new LAPS process, you 
know, provides a more kind of even distribution, allows 
projects to be ranked that are more kind of a generalist 
nature.
    So Grand Kankakee serves a lot of benefits. It has aquatic 
resource benefits. It has migratory bird benefits. It has 
endangered species benefits. And so under the new system where 
all of those factors are kind of blended and considered, it 
would rank higher, as opposed to a refuge like Ash Meadows, 
which really only has endangered species benefit and so would 
tend to rank lower under the new LAPS. That is why that project 
jumped so dramatically.
    Mr. Dicks. Finally, can we count on your effort to try to 
move these things forward as rapidly as possible, the things 
you agreed to do?
    Ms. Clark. Absolutely. We have teams working under Dan's 
leadership flat out doing some of this reengineering.
    Mr. Regula [presiding]. I will say your LAPS is now on 
about its fourth iteration in about 5 years or so. The changes 
in the system somewhat diminish confidence that this one is 
going to last.
    Mr. Ashe. I guess I would say, in response to both 
questions and in kind of reference to the tenacity of my 
director, is that, as GAO indicated, there have been attempts 
to revise the LAPS system several times over the last 6 or 8 
years. She has made it happen.
    Mr. Regula. Do you think this one is for real?
    Mr. Ashe. This one is for real.
    Ms. Clark. We are going to test drive it.
    Mr. Ashe. For 2002 we are using the revised LAPS process.
    Mr. Dicks. Are you going to change the way you spell it 
from L-A-P-S-E to L-A-P-S this time? I couldn't help that.

                         land acquisition goals

    Mr. Regula. Did I hear a statement here that you have a 
half a billion acres that you are contemplating? Somebody said 
that there is a half a billion acres on your radar screen for 
future acquisitions.
    Mr. Ashe. Half a billion acres?
    Mr. Dicks. $4 billion.
    Mr. Wells. We included that in our statement where the 
Government Performance and Results Act requires the agencies to 
project annual performance, and the Fish and Wildlife produced 
a document that projected for 1999 through the year 2003 there 
was a performance goal of acquiring a little over a half a 
billion acres.
    Ms. Rasmussen. Half a million.
    Mr. Wells. We can correct that for the record.
    Mr. Regula. Half a million acres. That is still a lot of 
acres to take care of.
    Ms. Clark. We are ambitious. We are not that ambitious.
    Mr. Wells. You had a few M's and pretty soon you get a B.
    Mr. Regula. Mr. Nethercutt, do you have additional 
questions?

                   operations and maintenance request

    Mr. Nethercutt. Yes, Mr. Chairman, thank you.
    It looks to me like with your statement regarding the 
operations cost and maintenance, that the billion dollars and 
roughly the $800 million, you are never going to catch up. This 
agency is never going to catch up with its backlog, given the 
fact that you don't ask for more maintenance and operations 
money in your budget. Your budget is heavy on the land 
acquisition side, light on the maintenance and operations side. 
So you are never going to catch up.
    Ms. Clark. It certainly is a challenge.
    Mr. Nethercutt. The fact is, you are never going to catch 
up in today's budget department, don't you think?
    Mr. Ashe. I guess I would ask the committee to look at this 
in the context that it needs to be looked at, which is over a 
course of many years. I think that in general there has been an 
ebb and a flow. In some years, Congress gives us much more 
money than we ask for in land acquisition. In some years, we 
ask Congress for more money than we are provided in land 
acquisition; and it generally tends to probably average out 
over time. Some years we get more, some years we get less in 
land acquisition.
    The same thing is for operation and maintenance; and it 
kind of depends on, I guess the key word in your question is, 
you know, how are we going to get there, and every land 
managing agency faces the same thing. The park system has a 
several billion dollar operation and maintenance backlog. 
Certainly the BLM and the Forest Service face the same 
situations.
    Businesses face the same situation. You manage a 
maintenance backlog and an operation backlog, and so you never 
really eliminate those things. You maintain them at manageable 
levels. And in the past several years we have requested 
substantial increases for maintenance and operations, not 
enough, and we need to continue on, and this committee has been 
very helpful and very sympathetic to us in that effort, and we 
trust the committee will continue to help us in that regard.
    Mr. Nethercutt. It would be helpful, if you prioritize your 
budget in such a fashion that operations and maintenance and 
backlog are a priority, as opposed to this continuation of more 
land and less maintenance money.

                            hanford transfer

    Let me ask about your comment, Director, respecting 
Hanford. That was a declaration by executive order by the 
President. The answering jurisdiction is the Fish and Wildlife 
Service, am I correct?
    Ms. Clark. It was a transfer from Department of Energy.
    Mr. Nethercutt. Was it accomplished through an executive 
order?
    Ms. Clark. No, just through transfer documents between 
Department of Energy and Department of Interior.
    Mr. Nethercutt. Have you anything in your 2001 budget which 
covers the operations or maintenance of Hanford through your 
agency?
    Mr. Ashe. We have a request of $356,000, for an increase to 
support operations at Hanford, at north slope.
    Mr. Nethercutt. That would do it as far as you are 
concerned, that number, or will you use existing funds?
    Mr. Ashe. We have an existing facility, Saddle Mountain 
National Wildlife Refuge, and so the 54,000 acres from the 
Wahluke slope will be added to Saddle Mountain. So that 
$356,000 will then be in addition to our existing operation 
capacity at Saddle Mountain.
    Mr. Nethercutt. Has the Fish and Wildlife Service put 
together a plan to deal with the issues such as the sloughing 
of the white bluffs and the water from the wasteways? Do you 
have any plans in that regard?
    Mr. Ashe. The plan in that regard is to protect that 
stretch of land. And we believe that if we protect that stretch 
of land that is, first and foremost, the best way we can 
mitigate against additional sloughing and problems associated 
with sloughing into the Columbia River. So that was the first 
step, was protection, and certainly we are going to take any 
management steps.
    We are in the process of developing a comprehensive plan 
for that refuge, working with the communities in the area, and 
certainly that will be one of the major management challenges 
facing that refuge, will be to identify the appropriate land 
management to put in place fire control, weed control, water 
management to help ensure that that doesn't continue or 
accelerate.
    Mr. Nethercutt. You say protection. That is synonymous for 
your having jurisdiction over it; is that correct?
    Mr. Ashe. We believe we can and will protect that land.
    Mr. Nethercutt. And no one else could, is that your 
conclusion? Or that is just you are willing to under the 
circumstances?
    Mr. Ashe. That is not my conclusion.
    Mr. Nethercutt. That is all I have, Mr. Chairman.

                  advance notice of land acquisitions

    Mr. Regula. Would it hamper you in any way if you were 
required to give a 60- or 90-day notice to at least the two 
subcommittees of jurisdiction in the Congress before you make 
any additional land acquisitions? Because it does have an O&M 
impact, and we end up with it in the bill. So we could at least 
raise some issues. Would that be unreasonable?
    Ms. Clark. No, I don't think it would be unreasonable, but 
clearly we have been able to take advantage of the 
flexibilities associated with donations and land transfers.
    Mr. Regula. But we end up with O&M costs.
    Ms. Clark. We, we--I don't want you to think you are by 
yourself.
    Mr. Regula. I understand. You don't appropriate the money. 
Of that I am aware.
    Ms. Clark. No, I don't.
    Mr. Regula. And nor does the Migratory Bird Commission. 
They have a right of what, a veto on any purchases with their 
fund. Am I correct?
    Ms. Clark. They do have to approve the project.
    Mr. Regula. They have to approve it, but they don't pay the 
O&M costs.
    Ms. Clark. They do not.
    Mr. Regula. Mr. Hinchey.

      relative priorities--land acquisition and maintenance needs

    Mr. Hinchey. Thank you, Mr. Chairman.
    This is, as usual, a fascinating discussion on this 
committee, and I have been made even more sensitive to the 
dilemma that you apparently face in choosing the way you are 
going to spend the limited budget that you have. Are you going 
to use it for operations and maintenance or are you going to go 
out and buy some property or take advantage of an offer, a gift 
or an opportunity that presents itself for a very valuable 
piece of refuge that, if you don't accept it or move to acquire 
it now, may not be available at some point in the future, and 
then may be a very severe loss? That opportunity may represent 
a very severe loss in terms of the objective of your agency, 
and that is to provide refuge, provide habitat for the fish and 
wildlife of this country. So I recognize the dilemma.
    The chairman just has also sensitized all of us to this 
dire problem of operations and maintenance. The more you 
acquire, obviously, the greater your operations and maintenance 
budget; and he is so right in pointing that out. It is a very 
critical part of the sense of responsibility that he feels on 
this committee, and it is very appropriate for him indeed. So 
this is a kind of a tough issue. I really appreciate how 
difficult it is for you to wrestle with these problems.
    The questions of operation, and maintenance backlog, there 
is a history to that, and this agency is almost a hundred years 
old, or will be very soon. Naturally, the more you acquire, the 
larger your operations and maintenance budget becomes. But I 
have a sense that that is not a linear situation, that if you 
plotted those two things on a graph they wouldn't parallel each 
other. In other words, as you purchase land, the backlog in 
operations and maintenance follows parallel, like railroad 
tracks. I think that it probably looks different.
    I would assume that the operations and maintenance budget 
has gone up much more sharply than the acquisition of land has, 
is that correct?
    Mr. Dicks. Wouldn't it be the other way around?
    Ms. Clark. Well, it really depends. You can't equate one 
2,000 acre acquisition with another because it depends on what 
is happening to the land when we purchase it. You also have 
different infrastructure requirements, different staffing 
requirements. And some lands, our most important management 
priority might be to restore the land, deal with invasive 
species, deal with fire management or water management. So it 
is really difficult, but the lines don't go the same, for sure.
    Mr. Hinchey. So the operations and maintenance portion of 
your budget is a separate line item in your budget, and it is 
separately appropriated by the Congress?
    Ms. Clark. Yes.
    Mr. Hinchey. How has that appropriation looked over the 
course of the last couple of decades, the operations and 
maintenance portion of the budget? Has it gone up 
proportionately or has it not done so?
    Ms. Clark. It has ebbed and flowed. But certainly in the 
past few years this committee has been very generous with the 
refuge system in both operations and maintenance.
    Mr. Ashe. I think there was a period back in the 1980s 
where the budget was basically flat for a long time.
    Mr. Hinchey. That is what I suspected, and I was hoping 
that you would answer it that way. That is my recollection with 
regard to this agency and others, that there was a period of 
time back in the 1980s when there wasn't anymoney coming in and 
so, consequently, the gap got wider and wider. Now the chairman here is 
faced with the serious problem of trying to attack that problem and 
catch up with it, and he is doing so vigorously and attentively and 
with the best conscience possible, I think.
    Mr. Ashe. I think we have had a good marriage over the last 
6 or 8 years where this administration has supported increased 
requests for operation and maintenance, and I think in almost 
every case this committee has either called our bet or raised 
it, and that has been a good relationship.

                   operations and maintenance backlog

    Mr. Dicks. But has the backlog been reduced in that period? 
It hasn't. It is still expanding.
    Mr. Ashe. The backlog has gone up. The rate in increase in 
the maintenance backlog in particular has gone down, but some 
of the rate of increase and I would say the majority of the 
rate of increase in the backlog is not due to the establishment 
of new refuges, but it is due to the fact that we are being 
much more aggressive about identifying our needs and doing 
effective cost estimates. In the past, refuge managers were 
notorious for making things work on bubble gum and bailing 
wire. Or farmers, if you go out and ask them how much is it 
going to take to fix this tractor, they would give you the 
$1.99 Kmart approach, rather than saying what I really need is 
a new $70,000 tractor. And so now we are asking our people to 
be more honest about what are the real costs of managing the 
land.

                    wetlands acreage and duck counts

    Mr. Hinchey. It is like I am reminded of the old line by 
Will Rogers: Invest in land or buy land; they are not making 
any more of it. It is the kind of thing you face on a daily 
basis.
    You know, when you talk about, for example, just take the 
idea of birds, ducks, Mr. Kingston brought that issue up, and 
it is a very important one. This particular wildlife, when your 
agency was founded, benefited from the fact that there were 
large amounts of undeveloped wetlands in this country. The 
number of wetlands in private hands left undeveloped in the 
country has diminished very substantially.
    If you, for example, were to look at the acreage in 
wetlands in this country in 1934 when the fund was established, 
compare it to 1964 when the Land and Water Conservation Fund 
was established, I will bet you will find a very serious 
decline in that acreage. And if you were to transfer that up to 
1994, yet another 30 years, you will find an even more dramatic 
decline in the acreage of wetlands available for that 
particular kind of wildlife, birds generally.
    And so, consequently, if we are going to have birds flying 
free, we have to make up for the loss of wetlands in private 
hands by establishing these refuges. I don't see any other way 
to do it.
    Ms. Clark. I agree with you, Congressman. Our Migratory 
Bird Conservation Fund, at least in the 5 years of this study 
and as far as I can remember, is not acquiring and establishing 
new refuges. It is rounding out existing refuges like Forsythe, 
Savannah, and Blackwater on the Eastern Shore of Maryland, and 
it is clearly for migratory bird habitat to address, as you 
mentioned, declining wetlands Nationwide, and it has really 
shored up the system across the country.
    I am concerned though, Congressman Kingston, about the duck 
numbers, because, actually, we are excited to report that the 
waterfowl numbers are up. Back in the early '90s we were about 
at 53 million, and now there are a hundred million plus.
    Mr. Kingston. Of the Atlantic Flyway?
    Ms. Clark. They are. I think we need to find you new 
hunting spots.
    Mr. Kingston. Let me ask you this, do you duck hunt?
    Ms. Clark. I do not.
    Mr. Kingston. Have you talked to anybody who duck hunts in 
that area?
    Mr. Ashe. I duck hunt in Maryland.
    Mr. Kingston. Where do you duck hunt in the Atlantic 
Flyway?
    Mr. Ashe. I duck hunt in Maryland.
    Mr. Kingston. Where you do it in the southern part?
    Mr. Ashe. I don't hunt there.
    Mr. Kingston. When was the last time you talked to somebody 
who does?
    Mr. Ashe. It was in Memphis, Tennessee, last week. I talked 
to people down there who said it was----
    Mr. Kingston. Memphis is not the Atlantic Flyway.
    Mr. Ashe. Well it depends on what part of Tennessee you are 
talking about. People I was talking to were from Reelfoot Lake.
    Mr. Kingston. My point is that you are not down there 
hunting. I mean, Memphis isn't anywhere near where we are 
talking about.
    Mr. Ashe. I chair the Service Regulations Committee.
    Mr. Regula. Why don't you submit for the record the duck 
count in Georgia?
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                          Duck Hunting Season

    Mr. Kingston. I will tell you this. I will take you down 
there, and we will do it.
    I want to say maybe one of the problems is also that the 
numbers--as you know, one of the big pushes is to change the 
duck season. Because of weather patterns, they are flying later 
in the year. And I would suspect up in Maryland you are getting 
ducks during the season, whereas in the south we don't get them 
in the season. But I am going to bring you down there because I 
want you to experience walking out in the 20 degree weather to 
sit there and watch the beautiful sun rise without pulling the 
trigger.
    Mr. Regula. No ducks.
    Mr. Wamp.

                          Relative Priorities

    Mr. Wamp. Y'all said we have had some successes together 
and that we have responded to your needs, and I want you to 
know that it is because this subcommittee is very reasonable 
and we are very bipartisan, and that is somewhat rare around 
here. And that is why you should take our concerns today to 
heart and really work hard to do something about it. Because we 
are not partisan, and this is not about anything other than 
being more accountable and being able to account for what you 
are doing when you are doing it.
    Help me, Director Clark, understand a little bit better why 
you do what you do. I talked about endangered species. You 
mentioned invasive species. There are a host of reasons,but if 
I made a family decision not to put a new roof on the house, knowing 
that it is going to leak, something would have to be really important 
for me to make that decision. Education would be that important for my 
children.
    But in terms of priorities, when they ask you what you are 
doing without in this $1.8 billion backlog budget it sounds to 
me like kind of the bread and butter issues that you need to be 
doing. And if you are willing to set those aside, what are the 
primary drivers for why you are doing what you are doing? What 
is the crisis most of the time? Why do we have to do this?
    You mentioned salmon. That is a big-ticket item. I think 
they eat too much of it personally, but we spend a lot of time 
eating salmon together. So that is kind of an inside joke. But 
if it is a snail darter instead of a salmon, is that important 
enough to not do these other things?
    And I just ask. I know that is a tough call in your setting 
of priorities, but what really are the primary drivers to take 
these lands and knowing that you are not going to be able to 
pay for the upkeep?
    Ms. Clark. That is a great question, and it is a challenge 
that our refuge managers and our program administrators face 
every day. What are they going to do? Are they going to deal 
with a staffing backlog? Are they going to deal with invasive 
species? Are they going to implement their prescribed fire 
program? Are they going to buy a new tractor? That has to be 
balanced, and it is balanced. And tough decisions on do we 
protect some of the last great places or do we tee up 
operational dollars? And there is not a good answer to that 
question. It is priorities that I think we are all faced with 
having to reconcile every day.
    I have had lots of conversations with refuge managers or 
other program folks in our agency that is bigger than the 
refuge system. You have to make priority decisions every day. 
And it is a tough decision to turn down an area that we know if 
we got now, whether it is a donation or a land transfer from 
the military, and there are plenty of those, or if we used Land 
and Water Conservation Funds to buy before the price went up 
because land is not getting cheaper anywhere, it does come 
oftentimes at the expense of other priorities in the budget.
    But that is a long-winded way of really not answering your 
question, because I don't think there is an easy answer to that 
question. It is just one that we are struggling with.
    Mr. Wamp. Well, do us a favor and make sure this is not 
just one hearing and one day, that you take all these concerns 
with you and you concentrate on coming up with a solution so we 
can all be held accountable.
    Ms. Clark. Absolutely. We are very interested with 
continuing to work with this committee. You have been 
incredibly supportive of the Fish and Wildlife Service and 
especially on the operations and maintenance deficit area. We 
are all committed to making sure that we have great places out 
there for wildlife and for the public, and we need to balance 
that.
    Mr. Wamp. In countless talks over the last several years, I 
always say we fund the good guys, and I always mention you as 
the Fish and Wildlife. So don't let us down.
    Mr. Regula. Mr. Peterson, you have a great challenge there.

                  Advance Notice of Land Acquisitions

    Mr. Peterson. Ms. Clark, did you answer the chairman's 
question that he asked just a few moments ago? You asked her if 
she had a--do you have the question there? I think you read it, 
but do you have it? The issue was, would you be willing or 
would you have any problems with 60-day notice?
    Mr. Regula. That was not a written question.
    Mr. Peterson. But you hesitated a long time, and I guess 
that bothered me. Did you answer it? I wasn't sure you answered 
it.
    Ms. Clark. I am not sure how I answered it, but I will 
answer it again. I am absolutely committed to working with the 
chairman and this committee to ensure that we are more open, 
more forthcoming and communicative with our land program. 
Whether it is 60-days, whether it is 90 days, whether it is ask 
for permission, whether it is coordination, that was my 
hesitation, because I don't know what the most efficient way 
is, but we are certainly willing to engage in those discussions 
and find the most appropriate way to put this committee at ease 
and continue with the acquisition of important wildlife 
habitat.
    Mr. Peterson. Maybe I read you wrong, but I guess I felt 
you were hesitating in saying that you would give 60-days 
notice to the chairman of the Interior Subcommittee, and that 
bothered me. I mean, he didn't ask for permission. He asked for 
notice. And if that was the hesitancy, I think you need to do 
some soul searching.
    Ms. Clark. It was clearly not a hesitancy for the reason 
that I believe you perceived.
    Mr. Peterson. Okay.
    Mr. Regula. If I could amend your remarks, along with that 
would be a statement as to the, say, the 10-year O&M cost of 
that particular piece of land.

                     Cost Estimates of New Refuges

    Mr. Peterson. If I could follow up on that, it says the GAO 
reports that you hope in 3 to 4 years to be able to provide 
Congress with estimates of future operations and maintenance 
costs for new refuges. I mean, I don't find that acceptable.
    Let me just share with you, I don't know how computerized 
you are, but I mean if you had your current refuge operations 
properly computerized, I mean there are programs that could 
spit out any kind of a refuge it was going to be and what the 
estimate cost would be. It can be done very quickly. That is 
how business operates today, boom, with computer records and 
the ability of computers to generate information and estimates. 
I mean, it shouldn't take three or 4 months.
    Do you want to respond to that?
    Mr. Ashe. I think you make a good comment. I think it is a 
little oversimplified. I mean, we have 521 refuges at latest 
count. It is a daunting workload for managers on the ground to 
computerize maintenance records since we don't have a lot of 
people. We are already overstimulating our people as it is in 
terms of the amount of data they have to enter to maintain 
these things, and these are not necessarily computer friendly 
people. They got into the business to be out and working the 
land. And so we are already I think overtaxing our people in 
that regard, which is not to say that we don't need to do 
better.
    We have worked with the committee for the last several 
years to improve our recordkeeping refuge operating needs 
maintenance management system. We are bringing those systems 
into the 20th century at this point andtrying to make continual 
improvements in our ability to predict reliably what our operation and 
maintenance needs are.
    I am not quite sure where the GAO report said 3 or 4 years. 
We are making these improvements now.
    The LAPS revision--I know it is in there, but I am not 
quite sure where it came from. The LAPS revisions are being 
implemented for the 2002 budget cycle, which means immediately, 
because we start that budget cycle in a couple of months.
    Our improvements to the RONS and MMS systems are ongoing. 
We have been working with the committee to establish a tiering 
system within the RONS database. So it is not $1 billion 
lumped, but it is prioritized operations needs, and I think 
that those improvements are expected to be in place during the 
next year.
    So, again, for the 2002 budget cycle it would be our hope 
to be in a position of implementing those changes.
    The land acquisition reengineering and the decision-making 
process are in process; and we would hope to have implemented 
much of it by this spring. So certainly it is a continuum of 
change we are involved in, but it is not like we are saying, 
well, 3 years from now we will get to it or 4 years from now we 
will get to it. We are involved right now, and many of these 
changes in the next 12 to 18 months will be implemented, not 
just developed.
    Mr. Peterson. I would like to say this as positively as I 
could, because I think you are a very important agency, and as 
Representative Wamp said that you were the good guys in most 
people's eyes. But I do think you are on the verge in the 
public of losing trust of fiscal control, fiscal planning, good 
management.
    Now, I would look at your resume, and I don't know about 
your team, but you are a technical person. You are not a 
finance person. And it is always interesting to watch 
corporations. When an accountant takes over, I always get 
nervous, but they don't need to surround themselves with 
accountants and finance people because that is their strengths; 
and when a salesperson takes over he needs to surround himself 
with good finance and accountant people. That is not his 
strength, he is going to sell the world.
    I think you are like you are buying the world as fast as 
you can, and I mean that seriously. And you are, and you admit 
to that, but you really need to have people on your team who 
have the abilities to evaluate what you are obligating us to. I 
think you owe that to us, I think you owe it to Congress, and I 
think you owe it the public.
    Of course, I would never have given you the right to buy 
land without public approval. I mean, I just think it is wrong. 
I think it is fundamentally wrong in a democracy. That is my 
own personal view. But you need to really get the people under 
you or in your operation that can give this committee and the 
taxpayers a warm and fuzzy feeling that you are being well 
managed fiscally, and that is a struggle for government.
    I have been involved in government for 20 some years. It is 
a struggle for government to manage well because it has duties, 
it doesn't develop its own goals. It serves people, and it 
serves the public, and so that is flexible, but I think people 
today want their government to be fiscally sound and 
responsible and thoughtful of what the future obligations are.
    And maybe not enough land was purchased in the '80s. Maybe 
you are purchasing more now than we can ever afford to keep, 
and it ought to be more prioritized of what you are doing. I 
think every new refuge you open you must have some goals of how 
big you want it to be. It doesn't take rocket science to figure 
out how much it is going to cost, in my view.
    Mr. Regula. Thank you.
    Mr. Kingston.

                              Duck Hunting

    Mr. Kingston. Thank you.
    First of all, let me say that Daniel asked and I have 
worked this out here that he gets to pick the date. And if we 
kill three ducks each I will clean them, and I will buy lunch. 
Limit is five, so that is pretty reasonable.
    Ms. Clark. I know I shouldn't have brought this up.

                 Migratory Bird Conservation Commission

    Mr. Kingston. If I happen to miss, that is the way I always 
hunt. I am not trying to stack the deck.
    Let me also say that amongst your regional officers, Sam 
Hamilton and crowd do a very good job.
    I think one thing that is important to point out in the 
Fish and Wildlife is there is a high degree of professionalism 
in terms of being land stewards, and the professionalism leads 
to a balance, as opposed to some government agencies where 
there is a little more activism than there is professionalism. 
So I think you are rooted in, you know, a true wanting to do 
what is best for public policy.
    Now, you have this commission that kind of stamps the 
acquisition process from the duck stamps. I think Curt Weldon 
is a member; is that correct? How many people are on that in 
total? Do you know offhand?
    Ms. Clark. We have the Secretary of the Interior, the 
Administrator of the EPA, the Secretary of Agriculture, two 
Members of the House, two Members of the Senate.
    Mr. Kingston. As part of a possible solution of that, 
should we try to get, you know, a couple more Members of 
Congress on that to have a little more input?
    Reason why I say that, the NEA, which, as you know, is the 
National Endowment of the Arts, is always kind of under the 
gun, yet in recent years, they have actually--this committee 
also oversees their funding--but they have made--Members of 
Congress often who are critical of what they are doing on their 
board, and they have moved a little bit more in the direction 
of many of the constituencies. So just, you know, pile that on 
as something to think about.
    Now, the philosophical question here, which we can't really 
resolve today, but, as Mr. Wamp says, you know, we are trying 
to raise over and over again, under some of the drug laws now 
if a sheriff nabs a drug dealer, then he gets to keep some of 
the proceeds, and in some areas where they are on a hot drug 
pipeline, the sheriff is really buying police cars and buying 
computers and radios and then kind of building a great 
political following by giving some of that to the county 
police, giving it to little city hall or whatever. But it has 
become a huge political tool for some of the sheriffs, and yet, 
you know, they didn't go out and catch those criminals on their 
own. They are doing it in publicly funded cars, with publicly 
funded equipment, with publicly funded employees.
    And so I think that, you know, what we are having here is 
that even though say the duck stamp money comes to you because 
of a program you are managing, your ability to managethat is 
because of public funding, and it is the same sort of, you know, 
unfairness that just gets around to accountability. You are not 
elected. People can raise hell with me and do it routinely for, you 
know, Department of Interior type issues and many land-related issues. 
And I think that that is what is the concern of this committee and 
Congress, just goes to underscore accountability, accountability, 
accountability.

                      Growth of the Refuge System

    Mr. Chairman, I want to make one more question. It is a 
long question.
    Now, Mr. Wamp had mentioned Theodore Roosevelt or Mr. 
Nethercutt did, about if he had envisioned this would he have 
second thoughts on the Department of Interior. Is there any 
master plan about how many acres should we have in public 
trust, how many acres should be for habitat, for wildlife, how 
many acres should be recreational, how many acres should be 
for, you know, whatever purpose, wilderness versus 
nonwilderness land? Is there anything at all in the Department 
of Interior that is addressing that question?
    Ms. Clark. Not to my knowledge, though we are working on 
the criteria and the framework for strategic growth in the 
national wildlife refuge system. I won't speak for the 
parklands or the BLM, but, again, that is a tough discussion 
because it is really hard to predict what the future of this 
country is going to look at as we see fragmentation, as we see 
urban sprawl, as we see opportunities for protecting green 
spaces, as we see the challenges facing domestic fish, wildlife 
and plants, as we see the waterworks of the West. So I think we 
need to look at not necessarily an end point, if you will, but 
a process for more open communication, collaboration and 
accountability for how we go forward.
    Mr. Kingston. Well, Mr. Chairman, if I can have one more 
minute, one of the things, I do think that we have this archaic 
command and control, and actually I think both of you have said 
it earlier, you are not the only ones who can protect land, and 
yet the common belief is this land is in danger of being 
developed, and, therefore, we have got to do one of these 
brokerage deals through The Nature Conservancy so the 
government ends up with the land. And it would appear to me 
that we should look to other alternatives, changing the tax 
structure so that land can be preserved.
    Case in point, Mt. Vernon, Monticello, Williamsburg. They 
are all historical assets, treasures, but privately funded 
through the tax code. They are not going anywhere. They are 
safe and protected.
    I think there should be a way that if I own 5,000 acres on 
the Savannah River and I want to keep it in wildlife habitat 
that the tax structure could be encouraging me to keep it and 
not develop it rather than to either, A, develop it or, B, let 
go of it to the government.
    Ms. Clark. Absolutely. Conservation lands are conservation 
lands, and wildlife don't know who own them, but what is 
important is that we have a mosaic of lands conserved across 
this country for conservation.

                            Refuge Staffing

    Mr. Regula. Thank you.
    I have two quick questions. How many of the refuges are 
manned? Out of the 521 how many of them have your personnel on 
them?
    Mr. Ashe. I will have to get the exact number to you for 
the record, but I think we have about 289, 290 stations that 
are----
    Mr. Regula. Have personnel on them? And you just check in 
on the others now and then?
    Mr. Ashe. Correct.
    Mr. Regula. But they are off the tax rolls? You watch that 
they don't become a problem for adjoining landowners?
    Mr. Ashe. They may be small units that don't need to be 
staffed. So I mean in some cases we submitted to the committee 
last year our essential staffing needs report--and again, I am 
going to take a risk at guessing the number, but I will get you 
the exact number for the record--but I think there were about 
90 of the unstaffed stations which we anticipated remaining 
unstaffed. So I will need to get that number to you for the 
record.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                             Public Access

    Mr. Regula. The other question is about visitation. These 
lands belong to the people. In this committee we have been 
emphasizing recreation, access, education dimension of public 
lands, and I think some of the refuges are closed to the 
public. That is my understanding. What is your philosophy on 
the question of public access, and what are you doing to 
enhance that since this land does belong to the public?
    Ms. Clark. Well, working with volunteers, conservation 
education, and the local communities, it is certainly a 
priority to allow access. Visitation is up for the Fish and 
Wildlife Service, and it has been on a steady incline for the 
last numbers of years. The organic legislation that this 
Congress so overwhelmingly passed established this network of 
lands for wildlife, where wildlife comes first. So any public 
use has to be compatible with the purposes of the refuge, but 
we are really finding creative opportunities to increase 
public----
    Mr. Regula. You are telling me you are working at making 
them more accessible.
    Ms. Clark. It is happening. Making it more accessible, 
making it more public friendly and creating opportunities for 
not only conservation education but for wildlife-dependent 
recreation to occur on refuges.

                  Recreation Fee Demonstration Program

    Mr. Regula. Do you do anything with the fee program in any 
of your refuges?
    Ms. Clark. Yes, we do.
    Mr. Regula. And does it work?
    Mr. Ashe. It has been working for us. Of course, we have 
about 90 stations that are in the fee demonstration program 
now, generating over $3.0 million, I believe, and which is up 
from last year, but we won't get much more out of it than that 
because all of our stations which have large visitation are 
engaged in the program. But we are getting good results; and 
people, by and large, support the effort. They see the dollars 
going into the ground.
    Mr. Regula. They are staying right there.

                               Visitation

    Mr. Ashe. They are staying right there.
    And if I could elaborate on Director Clark's answer, our 
visitation is up; and particularly wildlife-dependent 
recreation like hunting and fishing and bird watching are the 
areas where we do a lot of----
    Mr. Regula. You have a lot of hunting and fishing on some 
of the refuges.
    Mr. Ashe. About 300 of them are open to hunting and 
fishing, and all of our Alaska refuges are open to hunting.
    Mr. Regula. You get good support from the sportsmen's 
groups, I assume?
    Mr. Ashe. Very strong support.

                       Accountability and Balance

    Mr. Regula. Well, I think the two words accountability and 
balance are coming out of thishearing, and it is our mission to 
try to work with you and make sure those get improved. I think you can 
tell from the questioning from the committee members that it is a 
constructive concern that they have expressed with their questions.
    Thank you very much for coming. It has been a worthwhile 
hearing. The subcommittee is adjourned.
    [Additional questions for the record and the GAO Report 
follow:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                      Wednesday, February 16, 2000.

                       GENERAL ACCOUNTING OFFICE

                               WITNESSES

BARRY T. HILL, ASSOCIATE DIRECTOR, ENERGY AND NATURAL RESOURCES 
    DIVISION, GAO
McCOY WILLIAMS, GAO
RYAN COLES, GAO

                        Del Davis'  Last Hearing

    Mr. Regula. We will get the hearing started.
    Before we start I want to announce that this is Del Davis' 
last hearing as the staff of this committee. He has been with 
us for 23 years. You would probably be able to write a book, 
Del. Are you thinking about it? He has had 28 years of Federal 
service. We will miss you, Del, and we enjoyed having you as 
part of our team.
    Mr. Dicks. If the chairman would yield, I want to also 
thank Del for the outstanding service that he has given to the 
committee. He has been here for 23 years. I have been here for 
24 years. How many years have you been here, Mr. Chairman?
    Mr. Regula. Twenty-eight.
    Mr. Dicks. So we are all about the same.
    Mr. Regula. You are not as gray as I am.
    Mr. Dicks. We wish Del the very best in his future 
activities, and I want to thank him for the very professional 
job he has done for the Appropriations Committee and 
particularly for the Democratic side, although the committee 
staff works for everyone. We wish him the very best in his 
future endeavors.

                           Chair's Statement

    Mr. Regula. We are happy to welcome all of you to today's 
hearing.
    I have a brief statement, simply to say that I think what 
we are talking about is an extremely important asset of the 
United States and really a great challenge for the future. We 
have 192 million acres of land in the lower 48 that is part of 
the Forest Service, and that is a valuable asset of all of the 
people of this Nation. It is an asset for wood fiber, for 
maintaining clean water in our streams. It is an asset for 
recreation.
    The Forest Service has the largest amount of visitor days, 
substantially larger than the other land agencies for 
recreation. It is vital to clean air because the trees are one 
of the greatest converters. When you evaluate what the forests 
and the land that they occupy means to the people of this 
Nation, it is enormously important.
    I think the challenge of this hearing is to see 
prospectively how we can manage these great assets for even 
more efficiencies and for better service to the people of this 
Nation. So that is our objective today, that we are going to 
hear from those who have taken an oversight look at the Forest 
Service and then the response of the agency as to what they see 
as their future role in developing these marvelous assets.
    Mr. Dicks.

                      RANKING MINORITY'S STATEMENT

    Mr. Dicks. Mr. Chairman, I, too, want to compliment you for 
your leadership on this issue.
    For the last 2 years, we have been trying to make a point 
of this, that we have to have a Forest Service with a financial 
system that leads to accountability so the American people and 
the Congress can know how the money is being spent and what, in 
fact, the Forest Service is accomplishing.
    I sat down with Jim Lyons and Mike Dombeck, and I am 
convinced that they are willing to make the changes necessary. 
But apparently there are still major shortfalls in important 
things like the feeder system, et cetera, and we are still 
falling below the goals that have been set.
    For example, in the fiscal year 1999 the timber program had 
a 50 percent shortfall in timber sold, according to our staff. 
Only 2.2 billion feet was sold, even though the Forest Service 
and the Congress had directed 3.6 billion board feet. If, in 
fact, that is true, that is a major failure in what they 
promised the Congress, they would get done.
    So I hope for the sake of the Forest Service that the 
efforts to put together a new financial system so we can have a 
clearer understanding of what is being accomplished and what is 
being spent. I hope today that we can ask questions to find out 
how long is it going to take to get this in place so they can 
be audited. And then I guess if they can have a clean financial 
audit, only then will the Defense Department be holding up the 
Federal Government. We will have to continue to work on that.
    I look forward to the witnesses here today.
    We appreciate very much the work that has been done by the 
GAO, by NAPA, by all of the people that have tried to help the 
Forest Service. But it appears to me, after reading the GAO 
report, we still have a lot of work yet to be done; and we have 
to keep the heat on the Forest Service and the Department of 
Agriculture and the administration to get this done. This has 
to be accomplished. I am not going to rest, I know the chairman 
is not going to rest, until we are convinced that we get the 
information that the American people deserve.
    Thank you.
    Mr. Regula. Thank you. Norm, you are 100 percent right.
    I see that we have a quorum call, so we will suspend, and 
go take care of that before we get started.
    [Recess.]

                          Mr. Hill's Statement

    Mr. Regula. We will get started. Our first witness this 
morning will be from the General Accounting Office, Mr. Hill. 
If you will please give us your abbreviated statement. We will 
take questions from each agency, and then move on to the next 
witness.
    Mr. Hill. Thank you, Mr. Chairman.
    Before we begin, allow me to introduce my colleagues. With 
me today on my right is McCoy Williams, who led our work on the 
Forest Service's efforts to achieve financial accountability. 
On my left, Ryan Coles, who led our work on the agency's 
operational performance management issues.
    It is certainly a pleasure for me to once again appear 
before the subcommittee and discuss the status of efforts of 
the Forest Service to improve its accountability for its 
finances and performance. Our comments today are based 
primarily on two of our recent reports that cap over a decade 
of work in over 50 GAO products in the Forest Service.
    Today, the Forest Service is here to ask for a new budget 
structure that it believes will assist it in conducting its 
work. In exchange, the agency promises to achieve greater 
accountability for taxpayers' funds and for what it 
accomplishes with them.
    As we said in the past, we believe a new budget structure 
is warranted. We also believe, however, that any revision to 
the budget structure should coincide with needed improvements 
to the agency's performance and financial accountability. 
Therefore, my summary remarks today will be directed at three 
issues regarding the agency's efforts to achieve financial and 
performance accountability: first, the progress that the 
Service has made to date; second, the remaining hurdles to 
continued progress; and, third, the strategies that the agency 
is developing to address these hurdles.
    Let me start by discussing the actions the agency has 
taken.

              Forest Service Financial Management Actions

    The Forest Service is taking actions to address known 
problems with its financial management and reporting as well as 
with its performance-related data, measurement, and reporting. 
For example, the agency implemented its new accounting system, 
the Foundation Financial Information System, agency-wide last 
October, as scheduled, and has made significant progress in 
completing a physical inventory of its real and personal 
property as well as developing a methodology for evaluating its 
road assets.
    Next, the agency has begun to implement a results-based 
performance accountability system to improve the effectiveness 
and efficiency of its programs. As part of this effort, the 
Forest Service is revising its strategic plan that it prepared 
under the Government Performance and Results Act to better 
focus on outcomes to be achieved over time. Such outcomes 
include the health of the land, the quality of the water, and 
the satisfaction of customers. In addition to goals and 
objectives, the revised strategic plan sets out performance 
measures and milestones as indicators of progress.
    The budget structure the agency is proposing today reflects 
significant changes. As we have previously recommended, these 
changes are intended to better link its largest discretionary 
appropriation, the National Forest System, with the goals and 
objectives of its strategic plan and with the integrated way 
that work activities are conducted in the field.
    Despite these efforts, major hurdles to achieving financial 
and performance accountability remain. For instance, according 
to Agriculture's Office of Inspector General and a consultant 
for the Department, computer systems that preprocess data 
entered in the Forest Service's new accounting system are often 
deficient. These deficiencies reduce assurance that the new 
accounting system will provide timely, accurate, reliable and 
consistent financial information. In addition, preliminary 
audit results of the Forest Service's fiscal year 1999 
financial statements indicate that significant accounting 
deficiencies still exist.
    In terms of performance, the Forest Service's proposed 
fiscal year 2001 budget justification continues to rely on 
annual performance measures that do not always adequately gauge 
progress towards the agency's strategic objectives. The agency 
also has not devised an alternative process for allocating 
funds to its regions and forests based on its strategic goals 
and objectives.
    The proposed budget structure would create larger pools of 
money, giving greater discretion to field and program managers 
in deciding where to spend the funds. However, until the agency 
better links annual performance measures and budget allocation 
criteria to its strategic goals and objectives and corrects 
deficiencies in its financial management reporting systems, the 
agency will not be able to provide the Congress or the public 
with a clear understanding of how many taxpayer dollars are 
being spent on each of the agency's strategic goals and 
objectives and what is being accomplished with that money.
    To address the remaining hurdles to attaining financial 
accountability, the Forest Service has devised a strategy with 
goals, objectives, time frames and measures and is redesigning 
the organizational structure of its financial management 
functions. The agency is also beginning to develop a strategy 
for improving the links between its strategic objectives and 
its annual performance measures and budget allocation criteria.
    While progress has been made to improve financial 
accountability, this represents the third time in 13 years that 
the Forest Service is promising greater accountability for its 
performance in exchange for greater discretion over larger 
pools of money. In the two previous instances, the agency did 
not fulfill its promises to improve its performance-related 
data, measurement and reporting.
    In conclusion, Mr. Chairman, we commend the Forest Service 
for the progress it has made to date and its commitment to 
overcoming the remaining hurdles to financial and performance 
accountability. While we believe that the proposed changes to 
the Forest Service's budget structure could facilitate the 
agency's management of the 155 national forests, we also 
believe that sustained oversight by the Congress should now be 
focused on ensuring that the agency continues to make progress 
on its financial management and follows through on its 
strategies to improve its performance accountability in a 
timely manner.
    This concludes my formal statement, and we would be more 
than happy to answer any questions that you or the other 
members may have.
    [The statement of Mr. Hill follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Regula. That stack of reports covers, what, 4 years?
    Mr. Hill. Probably closer to a decade, probably about 10 
years. We have been working pretty hard. That is quite a body 
of work. I know exactly what reports you have there, but we 
have been involved in this issue for a good 10 years.

                      IMPLEMENTING RECOMMENDATIONS

    Mr. Regula. What is your experience in terms of your 
recommendations getting implemented?
    Mr. Hill. I have to say that the track record of the Forest 
Service in the past has not been good. I am sure you are aware 
of that as well as the other members of the Committee.
    We have made lots of recommendations over the years. We 
have pointed out lots of problems. We have had lots of promises 
that they have given us. Unfortunately, many of those promises 
were not fulfilled.
    I must say, in all fairness, that we are encouraged, 
however, by the progress and dedication that the Forest Service 
has exhibited in the past year. We think that in the past year 
they have made some really nice strides towards solving some of 
the problems that they are dealing with. And, in fairness to 
them, the problems that are left are many. But it is an awesome 
task, and it will take them some time to deal with it. We 
really feel like they are focused on it now, and they are 
making some real progress for the first time.

                    CHANGING FOREST SERVICE MISSION

    Mr. Regula. Does part of this result from the fact that the 
mission of the Forest Service is changing? It used to be a wood 
fiber producer. I know in this subcommittee we were authorizing 
a 10 to 12 billion board feet cut annually. Now we are down to 
3 billion board feet. According to the chart that I have, and 
Mr. Dicks alluded to, we directed The Forest Service to offer 
over 3 billion board feet, and in the fiscal year 1999 only 2.6 
was offered. What do you think causes that shortfall, even 
though the number is already low, compared to the past?
    Mr. Hill. I cannot directly say what is causing the 
shortfall.
    I will answer the first part of your question in terms of 
why the problem here. I think the mission of the agency 
certainly has changed dramatically in the past 15 or 20 years. 
I think many of the systems and processes that the agency has 
had in place has been geared towards measuring timber 
production. As the timber production has fallen over the years 
and the Forest Service has been asked to focus on other 
matters, like recreation or habitat or wildlife preservation, I 
think some of the systems that they have had in place have not 
kept up in terms of what they are currently focusing on in 
terms of trying to manage to the mission and the functions that 
the Forest Service is dealing with today.
    Mr. Regula. Do you think it is possible to quantify the 
mission, i.e., habitat, et cetera, and the dollars that would 
be assigned to each? And would this be the proper way to 
approach their responsibilities prospectively?
    Mr. Hill. That is what I think they are trying to do now. 
That is what they should be doing now under the Results Act.
    What they have done is they are currently revising their 
strategic plan to better refine their goals and objectives to 
get it in reality in terms of where the agency is focusing its 
efforts now. They are trying to basically provide clear 
performance measures and milestones and, in some cases, 
strategies to lay out how they plan to get there.
    Obviously, they are making changes to their financial 
accountability systems to kind of get that in shape so they can 
start tracking the flow of dollars to see where the money is 
going, where it is being directed to in terms of fulfilling 
some of these broader goals and objectives, and holding people 
accountable for their performance both on an annual basis as 
well as a longer term basis.

                       APPROPRIATION INFORMATION

    Mr. Regula. Would it not be necessary that this 
subcommittee have that kind of information in determining, the 
appropriation level and also the breakdown within the macro-sum 
to do our job effectively?
    Mr. Hill. Absolutely. I do not know how you could be 
expected to do your job well and be held accountable to the 
taxpayers if you did not have that kind of information.
    Mr. Regula. Mr. Dicks.
    Mr. Dicks. You know, I am going back just looking at the 
record here. When we had this hearing--when was this hearing--
March of 1998, at that time another one of your examples is in 
reporting its fiscal year 1995 financial results, ``The Forest 
Service could not identify how it spent $215 million of its 
$3.4 billion in operating and program funds.'' Now, do we still 
have a problem like that?
    Mr. Williams. No. We have a situation now in which the 
agency is implementing new procedures in which, when fully 
implemented, it will be able to track its cost. We are not 
completely there yet, but the new system that we are talking 
about that was implemented on October 1 should be able to track 
those costs and identify with the new budget structure and all 
that is being put in place.
    Mr. Dicks. So we will be able to see how they spend the 
money?
    Mr. Williams. Yes.

                      PERFORMANCE ACCOMPLISHMENTS

    Mr. Dicks. Now the big problem then, I am told, is on the 
performance side. It is being able to tell what the money--we 
can tell how they spent it, but did they accomplish anything 
when they spent it? Is that still a problem?
    Mr. Hill. That is still a problem. That is somethingthey 
say they are working on it, but it is a rather large task, and they 
seem to be focused on it.

                           TREASURY ACCOUNTS

    Mr. Dicks. In your report, if you would give me a second 
here to find it, there was one thing about the bank account 
over at the Treasury. It says here, ``Also, the Office of 
Inspector General's audit discloses that the Forest Service's 
internal controls over its fund balance with Treasury account 
were not sufficient to ensure that these assets were adequately 
safeguarded. This account, which is similar in nature to a 
checking account with U.S. Treasury, contained $2.6 billion as 
of December 30, 1999. Since internal controls over fund balance 
with Treasury accounts is also a departmentwide problem, 
Agriculture formed a task force consisting of members 
representing the Forest Service, NFC, the Department's Office 
of the Chief Financial Officer, and an outside consultant, 
Pricewaterhouse Coopers, LLB, to resolve this issue. The task 
force anticipates the problem will be corrected sometime next 
month.''.
    What is the problem? Can they not identify what that money 
is supposed to be used for?
    Mr. Williams. It is not identifying what it is supposed to 
be used for. It is identifying from the supporting records. It 
is, what did I spend this money on exactly----
    Mr. Dicks. They have not spent it yet, right?
    Mr. Williams. These are amounts that have been spent. They 
are looking at the supporting records to see exactly what took 
place. It is the detailed support behind the records, that you 
are trying to identify exactly what is taking place. Because 
various transactions outside of these particular accounts are 
impacted by activity that takes place in this particular 
account. So it is a matter of doing the research and 
identifying exactly what took place and having adequate support 
so you can properly record that activity in your accounting 
records.
    Mr. Dicks. I still do not get it. It says here, ``This 
account, which is similar in nature to a checking account with 
the U.S. Treasury, contained $2.6 billion as of September 30, 
1999.''
    If it is still there, that must mean they have not spent 
it?
    Mr. Williams. Yes, that is correct. That is just the 
balance that was in----

                             ACCOUNT ACCESS

    Mr. Dicks. Do they know what the balance is for? Is it 
obligated? Can we get that $2.6 billion?
    And Mr. Regula this is like the NRO a couple years ago. We 
found out they had a $4 billion slush fund of money that they 
had for all of these about 80 programs, but when you add it all 
up it was $4 billion that was not yet obligated. We took that 
money and used it for something else. Can we take this $2.6 
billion and use it for the backlog on roads and other things? 
Or is the money obligated to something for the Forest Service 
and they just can't identify it?
    Mr. Williams. It could be a combination. It is just a 
matter of going through and identifying all of the activity and 
gaining assurance----
    Mr. Dicks. There is an account here. Can you help, Mr. 
Hill? It seems to me there is an account here that says you 
have got $2.6 billion. What is that for?
    Mr. Williams. Those are funds that have been appropriated 
to the Forest Service----
    Mr. Dicks. But not yet been spent----
    Mr. Williams. At that particular point in time.
    Mr. Dicks. Are they obligated?
    Mr. Williams. They could be obligated. It is just that the 
money has not been spent.
    Mr. Dicks. But we do not know?
    Mr. Williams. Not at this point in time.
    Mr. Dicks. Mr. Dombeck, I hope that you are ready to tell 
us. For you and your Chief Financial Officer, that is going to 
be a very important question we are going to ask here.

                             FEEDER SYSTEMS

    Now, let me ask you this. This feeder system that is 
supposed to get data, this is supposed to come from the Regions 
back into Washington, D.C.?
    Mr. Williams. This is information about various activities 
that are taking place within the Forest Service.
    Mr. Dicks. That still is a mess, right?
    Mr. Williams. That is what they need to take a look at. 
Because there have been problems identified with that 
information that is----
    Mr. Dicks. It is garbage in, garbage out. In other words, 
if you do not have good data, the financial reports that you 
are producing with this FFIS aren't going to be reliable; isn't 
that correct?
    Mr. Williams. That is correct. The system, FFIS, will only 
produce what you put in into it or feed into it, that is 
correct.
    Mr. Dicks. And the problem is that the transactions and the 
information going through the feeder systems are not done 
accurately; is that right?
    Mr. Williams. The information in there needs to be looked 
at to make sure that the system is processing the data 
correctly, to make sure that the data is accurate----
    Mr. Dicks. But it is not right now. The report says that 
isn't right?
    Mr. Williams. That is right. There are some problems with 
those systems that the agency is trying to work out.
    Mr. Regula. This issue is the subject of this hearing.
    Mr. Dicks. Is that information coming from the Regional 
Offices through the feeder systems? Is it a lack of training? 
Has the Forest Service gone out and trained its people who are 
supposed to put the information into the feeder system to come 
to the FFIS? Have they trained these people? Has there been an 
effort to train then?

                         TRAINING AND EQUIPMENT

    Mr. Williams. They have been training over the years. I 
think it is more of a problem of some of these systems just 
need to be re-engineered to process the information----
    Mr. Dicks. Are they going to buy the equipment? Do they 
have the budget to buy the new equipment for the feeder system 
so that it will work?
    Mr. Williams. I do not have the answer to whether they have 
the money in the budget or not, but we could get you----
    Mr. Dicks. Do they need new systems?
    Mr. Williams. They need the money to take care of this 
particular project because this is----
    Mr. Dicks. Did you tell us in your report what they need?
    Mr. Williams. We have not.
    Mr. Dicks. Could you go back and look at this and find out 
what the Forest Service needs to get this job done so you can 
tell the Congress and maybe we could appropriate the money?
    Mr. Williams. We could look at that process and see exactly 
what would be required in the various systems as far as making 
sure it is producing the reliable data that needs to be 
produced.
    Mr. Regula. Mr. Dicks, [I think] Mr. Dombeck is going to 
answer those questions.
    Mr. Dicks. He is going to have a great day today.
    Mr. Regula. Mr. Taylor.

                         Mr. Taylor's Statement

    Mr. Taylor. Mr. Chairman, first, I would like to 
congratulate the appointment of Randy Phillips who was the 
North Carolina supervisor. Our office in North Carolina 
appreciated the work that he did in North Carolina as national 
supervisor. We welcome him here and congratulate the 
appointment.
    Mr. Chairman, because I am in conflict with my subcommittee 
and will leave a little later, I am going to go probably beyond 
a couple of things and make a statement; and those who can 
answer it, do. If it laps over to the Forest Service, please 
do.
    The report is talking about putting together a budget 
desired for pooling more funds--the President is totally 
against that--and meeting certain levels. The chairman pointed 
out that the harvest levels have just gone down to nothing. In 
fact, I think the account says that you were to produce 36 
billion board feet of timber and it got to be barely half of 
that. In western North Carolina they are meeting only 5 
percent, in some places, of the targets thatwere set.
    What troubles me is the recommendation by the President who 
wants to eliminate the salvage fund, the K-V fund, the 
reforestation funds, and put that money into a variety of other 
things.
    We have had this conversation before, and it is depressing, 
Mr. Chairman, because it does not--you have a basic structure 
of science, a scientific silviculture in our best universities, 
in the Experiment Stations that are conducted by the U.S. 
Forest Service. We spend tax dollars in that area. Private 
forestry and timber companies augment that and certainly 
comply.
    There is no great difference in our collective universities 
from Yale, Duke, who have forestry schools on down. We have no 
great difference with our experimental stations. We have no 
great difference in the State forestry experimental stations 
and the private forestry experimental stations.
    Yet this Administration ignores all of that scientific 
knowledge and panders to an agenda-based organization in fairy 
tales which is basically a special interest. It is veering off 
to pander, and we are destroying that natural resource and the 
100 years of real scientific efforts that we had to have to 
produce the health of a scientific-based forest which we try 
to--if we were disease control or anything else, we would go to 
our best science to try to do that.
    Now, can you tell me--I will put that out--is there any 
effort in your audit finding that we are going to not only do 
accounting but base the Forest Service on a realistic, 
scientific-based leadership or are we just going to muddle and 
pander?
    You mentioned, Mr. Chairman, why the dollars were going 
down and why the Service is so muddled, in a way. I think it 
has been gored to death for the last 8 years. We have got to 
see that it has not only a business-like basis, it has an 
objective that is reality, not fairy tales but reality. Because 
the health of the forest is going to depend on scientific 
management, not ouija boards or demonstrations or anything 
else. It is going to be based on scientific management.
    I do not know whether you gentlemen can answer that or if 
it is properly put to the Forest Service, but I would like for 
you to respond sometime during this process, one or the other, 
Mr. Chairman.
    Mr. Hill. I can provide some commentary. That is certainly 
an excellent question to direct to the Forest Service as well.
    Certainly science has a role in what is going on here. 
There is an effort in the agency that is funded to certainly 
gather science and have that input into the process.

                     STRATEGIC GOALS AND OBJECTIVES

    What you are talking about here are two words that deal 
with certainty and predictability in terms of this process has 
to be laid out in a way where the agency is clearly 
articulating what its strategic goals and objectives are in 
terms of managing these national forests, what products and 
services you can expect to get out of each forest, the extent 
to which we are going to have recreation, conservation, protect 
wildlife. These to be clearly laid out at the top in terms of 
what are the overall objectives and goals that this agency is 
trying to achieve, and then it has to be cascaded down through 
strategies to the forest plans, down to the individual forest 
level. It has to be done in such a way that you can hold people 
accountable by having sound, reasonable performance measures 
that people at Washington, as well as down to the forest level, 
can clearly see what is expected of them, what they are going 
to be held accountable for.
    Then it also has to factor into the budget and 
appropriations process in terms of what is the Congress paying 
for? When you decide the appropriation you are going to give 
the agency, what do you want to fund? When you fund $100 
million to do something, to reduce fuel in order to deal with 
the wildfire situation, what are you going to get back? What is 
that $100 million going to buy you in terms of a year from now, 
5 years from now? How much progress can you expect to make in 
this so that you can make the proper trade-offs at this level 
in terms of how much money and how much funding can we provide 
for this or that?
    Then they can come back and tell you what progress they 
have made.
    Mr. Taylor. Is it going to be necessary to micromanage the 
funds? In other words, you have your scientific Stations that 
will tell you, for instance, in wildlife that harvest is 
important to wildlife, yet it is being ignored. Does this 
committee have to micromanage everything the Forest Service 
does to get deliverance from the plan to--and we have put the 
money in and see it ignored and our own scientific valuations 
are ignored? Is that the kind of steps that we are going to 
have to take?
    Mr. Hill. Timber harvesting and forest health are certainly 
key issues that everyone has to keep an eye on and certainly 
should be addressed in all of these plans and strategies that 
they are developing. When the Forest Service comes up and asks 
for appropriated money, it is a fair question to ask how much 
of this money is being directed to these important objectives 
as well as others.
    Mr. Regula. I understand, Mr. Taylor, that you have another 
hearing.
    Mr. Dombeck, would you insert a response to his question in 
the record at this point because of our time constraints? But I 
think it is an excellent question and deserves a response from 
you, and we will see that you get a copy of that, Mr. Taylor.
    [The information follows:]

    We agree that land management decisions must be based on 
the best available science. Our Forest Service staff base their 
decisions on the best science, and state-of-the art management 
options, available to them. We also agree with you that our 
research stations provide valuable information, for example, 
regarding the interrelationships between wildlife habitat and 
timber harvest. It is this information that staff on our 
National Forests use.
    Our land managers work within the framework of the laws of 
the land, for example, NFMA, NEPA, and GPRA; they are all 
critical to our decision-making. These laws have helped guide 
us in the preparation of land management plans. Which help 
frame decisions made on individual national forests. With the 
Forest Service strategic plan now being prepared in accordance 
with the ``Results Act,'' it will further frame our decision-
making. Also, with our move to a performance-based budget, you 
will be able to know what we have specifically accomplished in 
direct relation to short- and long-term objectives.

    Mr. Regula. Mr. Nethercutt.
    Mr. Nethercutt. Thank you, Mr. Chairman. Welcome, 
gentlemen.

                        Strategic Plan Viability

    As I look at your report and listen to the testimony, it 
strikes me that we are now into the year 2000. We have an 
election year. We know we will have a new president. We do not 
know which party will be in charge, but assuming that the 
Republican nominee is elected, I am interested in knowing to 
what extent you view the existing analysis plan objectives as 
being able to survive a new president? In other words, are 
these good for the agency for the long haul or is this likely 
to--assuming that there is a new president who is a Republican, 
who might have new people certainly in the agencies, is it 
going to survive a new presidency? Could you come back here a 
year from now and say this is a good plan no matter who the 
president is, who the Chief is, who the Secretaries are, and so 
forth?
    Mr. Hill. Well, regardless of the outcome of the election 
or who is directing the administration next year, I think what 
we have here is a solid framework or structure by which this 
agency can be managed and held accountable for. Obviously, 
things change, policies are interjected that would perhaps 
steer the ship into a slightly different direction or maybe a 
totally different direction. That remains to be seen. But I 
think what you have here in the strategic plan and objectives 
and a whole Results Act framework that is a good framework and 
process for managing the agency and having the agency manage 
itself and the Congress holding it accountable for what it is 
achieving based on the dollars they have been given.
    Mr. Nethercutt. This is the third time, I am informed, in 
13 years that the agency has stated it will change its 
financial accountability system. Does that comport with your 
findings?
    Mr. Hill. That is correct.
    Mr. Nethercutt. So that gives me pause, frankly, to be 
certain that this one is the right one. Not that it is not, and 
I hope that it is, but this has been a moving effort, it sounds 
like. So let's hope. My concern, though, is that this one is a 
good one, objectively speaking.
    In the event that you had to come in and analyze what needs 
to be done, not just this plan but any options, are you 
comfortable in your position that this is a valid plan for the 
agency regardless of the leadership that might follow?
    Mr. Hill. What we are saying is we are comfortable in the 
direction they are going. I think there is still a lot of work 
that needs to be done in terms of refining the plan, objectives 
and goals. Certainly there are lots of strategies that need to 
be developed that is going to tell you how you get from this 
broad objective or goal down to specific performance measures 
and milestones that can be carried out in the forests. I think 
there is still a lot of work that needs to be done, but what we 
are seeing here is concerted effort and progress on their part.
    Mr. Nethercutt. The goal is to finish it by October of this 
year, is that correct, the implementation of the plan?
    Mr. Coles. That is correct, Congressman.
    Mr. Nethercutt. At this point the Service has not developed 
criteria for allocating funds to the Regions and the Forests 
based on strategic objectives and performance measures; that is 
your finding?
    Mr. Hill. That is correct.
    Mr. Nethercutt. Are you able to advise the subcommittee 
what kind of guidelines that should be implemented on a 
regional level to ensure that the funding is not just a 
distribution of money, a transfer of funds without 
accountability? That is question number one.
    Question number two is, have you found Regions throughout 
the country that are more susceptible to accountability than 
others, that need more accountability, and should these--the 
use of this money be implemented Region by Region as opposed to 
Service Wide? How would you view that whole question?
    Mr. Coles. Let me address the first question.

                   Allocations To Regions And Forests

    I think the important thing to recognize is when it gets to 
allocating money to the Regions and also the Forests within the 
Regions is that a consistent methodology is used across the 
agency. Yes, conditions may be different in the Pacific 
Northwest than they are in the South, but that should not be a 
reason for one Region to be doing something counter to what 
another Region is doing.
    With the framework that has been put in place, the Forest 
Service should be able to take a look at their agency-Wide 
strategic goals and objectives and pass the money down to the 
Regions based on each Region's ability to accomplish each one 
of those goals and objectives. The Region should be doing the 
same thing at the Forest level, taking a look at the goals and 
objectives that apply to that Region and distributing money to 
their Forests based on each Forest's ability to accomplish that 
goal and objective.
    We think that the strategies to achieve those goals and 
objectives is the perfect place to take a look at the 
allocation of criteria, determine how much money a Region or 
Forest needs to accomplish the strategy that would further the 
agency's goals and objectives.
    As far as your second question is concerned, we have not 
really taken a look on a Region-by-Region basis as far as which 
Regions would need greater help in this than others. But we 
would have a difficult time seeing one Region doing something 
counter to the way that the another Region should be. This 
agency should be pulling on the same rope.
    Mr. Nethercutt. Thank you, Mr. Chairman.
    Mr. Regula. Mr. Kolbe.
    Mr. Kolbe. Mr. Chairman, I will wait until the Forest 
Service to ask my questions.
    Mr. Regula. Mr. Peterson, I think you were next.

                       Congressional Requirements

    Mr. Peterson. As we deal with this issue of accountability 
and the Forest Service, hopefully, to manage its funds and 
resources and give good data and make good information 
available, should Congress rethink the requirements? It is 
imposed on this agency. It seems to me that this and other 
agencies are almost strangled with the requirements we have put 
upon them. It seems to me they have to go through a maze of 
paperwork to do anything. It makes it very costly for them to 
do things that other parts of government do quite routinely. 
Have we over-involved ourselves in putting a stranglehold of 
paperwork on this that prevents them from managing?
    Mr. Hill. That is hard to say. I think what we are all 
trying to achieve here is good government and accountability to 
the taxpayers in terms of where their money is going and what 
they are getting for that. How much paper and requirements are 
associated with that, it is really hard to say. But I guess we 
have to live with the past history where there has been a lot 
of problems in these areas and Congress has tried to take an 
active hand in trying to improve some ofthe problems that we 
have noted, and in time they have had to kind of direct that certain 
things be done so that information would be provided to you so you 
could make some rational decisions.
    Hopefully, with this framework in place and once it is 
operating fairly well, we could look in terms of what is held 
over from the past in terms of reporting requirements that are 
no longer needed. This should really make it a lot cleaner.
    I think if you had a pretty clear understanding as to what 
the objectives are and the budget structure and the 
organizational structure are going to align with those budget 
items and that, from a performance standpoint, you can see 
exactly what you are going to expect with the money you give 
them and then a year later they come back and tell you they 
have either accomplished it or not accomplished it, it should 
be a lot cleaner.
    But, unfortunately, they are not there yet. No agency is 
there yet, and we still have part of the past history of the 
reporting requirements that we are carrying as we are 
implementing this new framework.
    Mr. Peterson. But you do see some light at the end of the 
tunnel?
    Mr. Hill. I hope.
    Mr. Peterson. Okay----
    Mr. Hill. In all fairness, this is a difficult task. The 
Results Act, when it was passed, obviously, it is a fine act, 
and it has some wonderful objectives. But when you take it down 
to the agency level this is very difficult for any agency to do 
and do well. I think the further we are getting into this, the 
more experience we are getting implementing the act, I think we 
are seeing how it can be done and, hopefully, be done rather 
effectively and efficiently.
    Mr. Peterson. I always use the example in Pennsylvania of 
our general services that built all of our building and managed 
all of our properties. When a State university gave them the 
money to build a new building or put a new roof on it, it took 
them 5 years to break ground. Five years, the paperwork. It was 
all done to protect the taxpayer, just layers and layers. On an 
average it took 5 years to build a building, to break ground to 
start to build the building. It was a 5-year process. That just 
shows you how trying to fix problems that need to be done in 
the management system by Congress or State legislature can 
complicate the process, maybe not fix it, because we are not 
managers. I just wonder if we were part of the problem. I have 
a sense that we might be, that all of the requirements that we 
require----
    Mr. Regula. Was that a yes or no? Are we part of the 
problem?
    Mr. Peterson. Tell us.
    Mr. Hill. I purposely did not give a yes or no.
    Mr. Regula. I was listening for it.
    Mr. Hill. It is a complex question concerning a complex 
issue.
    Mr. Kolbe. The answer is yes.
    Mr. Peterson. Mr. Kolbe said the answer is yes.
    Mr. Skeen. The gentlemen has the right attitude.
    Mr. Peterson. I guess I would like to see recommendations 
of how we could get out of the way, too, if you wanted to do 
that. I am very serious.

                         Agency Success At GPRA

    Mr. Dicks. If the gentleman would yield, you said is there 
any agency that does this well. Is there anybody that does this 
well?
    Mr. Hill. Well, does what? Its mission or the GPRA or----
    Mr. Dicks. I am talking about this whole notion of 
accountability and results. You are talking about the Results 
Act. You said this is stressful for almost all agencies to do 
this well. Is anybody doing it well? Is there any good example 
of somebody where we can really see how the money is being 
spent and what the results are?
    Mr. Hill. I think the agencies are just getting there at 
this point. This year is the first year where they are going to 
have their first performance reports. I think we are going to 
start seeing some data coming in terms of did the measures they 
set up to be held accountable, were they any good? Now that we 
have got performance reports, does it really tell you about 
their performance or the objectives they are trying to achieve? 
So I think this is still unfolding. Obviously, there are a lot 
of agencies and a lot of different experiences going on out 
there.
    Mr. Dicks. So you say basically you do not have an answer 
for me.
    Mr. Hill. Well, GAO has done the work----

                  Comparison Of Forest Service To BLM

    Mr. Dicks. You have looked at BLM, for example, which is 
very comparable to the Forest Service. Mr. Dombeck told us that 
he used to run the BLM and that he got it straightened out 
financially. Can we compare the two? That might be a good 
exercise to look at another resource agency, see how they are 
doing it, see if they are doing it any better. Let's see if he 
really fixed it or did he just leave and come to the Forest 
Service.

                       Using Available Technology

    Mr. Peterson. If I could reclaim my time. You are doing 
well, but I just wanted to make one comment. Having spent 19 
years at the State and my 4th year here, one of my biggest 
fears of government today is in the world of technology we have 
almost been left behind. The ability to manage today--the 
corporations that do well today use technology. They have more 
information to make their decisions with quicker. It is cross-
referenced. And government, the process of computerizing 
government and keeping up its technology is so complicated they 
are going to be further and further behind in the technology 
world if we do not somehow change that.
    There is no reason with today's computers and software that 
we cannot know what every department is doing on a muchmore 
timely basis than we do. There is no reason if they are using this 
technology that they cannot manage a whole lot better. That is what is 
changing the world itself, the economic world. Government is just way 
behind in this curve of using technology and information.
    Mr. Regula. Mr. Dombeck, you will have a little time to get 
ready to respond to that question.
    Mr. Williams. I would just like to add on to the financial 
management side that I think the Congress has helped in the 
passage of certain legislation that is requiring the financial 
audits, and it is forcing the agencies to produce better 
information which is needed in the decision-making process. So 
from that side I think the Congress has been a great help.
    Mr. Peterson. I do not give Congress high grades on 
oversight myself compared to State government. The State 
government I came from did a lot better in oversight than we 
do.
    Mr. Regula. Mr. Kolbe, you did not use your time. Would you 
like to comment on that since your subcommittee deals with this 
is sue?
    Mr. Kolbe. Right. Through the CFO, the requirement for the 
audit is one of those things that is required. Absolutely, I 
think you are right. The agencies doing these audits are giving 
us a lot better information. I think it is also instructive for 
us to look at how wildly different these audits are and how 
some of them are very good and very thorough and others are--
you cannot audit their accounts at all. That itself gives us 
information. Thank you.
    Mr. Regula. Mr. Cramer.
    Mr. Cramer. Thank you, Mr. Chairman. Most of my questions 
have been asked and in some cases not necessarily answered, but 
at least they put the issues on the table. In your report, or 
your testimony, written testimony, you said that the agency is 
revising the strategic plan? Not that it has revised, but that 
it is revising the strategic plan?
    Mr. Hill. That is right.

                 Forest Health Performance Measurements

    Mr. Cramer. You are very critical of performance 
measurements. Are you at all optimistic that performance 
measurements can be developed that relate more directly to 
forest health?
    Mr. Hill. We are hoping that there are better performance 
measures. Some of the performance measures are not going to be 
very useful in terms of actually measuring results or outcomes. 
They are more geared toward output, and I think there needs to 
be some refinements done there to position the agency better to 
actually assess their performance. In order to do that they 
really need to establish a link between the overall goals and 
objectives and these performance measurements by having some 
really good strategies or tactical plans in terms of how they 
are going to carry out this work so that everybody is kind of 
singing off the same song sheet.

                       Hurdles to Accountability

    Mr. Cramer. What other hurdles other than performance 
measurements remain to achieving financial and performance 
accountability?
    Mr. Coles. In terms of performance accountability, what we 
are really looking at are three main issues: first of all, as 
we mentioned just a moment ago, an improved link between 
performance measures and these long-term goals and objectives. 
The second thing we are really looking at is a mechanism to 
allocate funding from the national level to the Regions and to 
the Forests that are consistent with the goals and objectives 
of the organization. The third thing we are really looking at 
is some way of being able to tell the agency strategies for 
achieving their goals. The agency should be able to come to you 
and say, one of our objectives is to improve forest health. To 
improve forest health our strategy to do that is reduce 
wildfire risk to our national forests. As part of their 
strategy, they should be able to tell you with how much money 
we can accomplish so much in this many places. And until those 
three things are in place, we really do not have a results-
based accountability system. We have a lot of data, but not a 
lot of information.
    Mr. Cramer. Do you see progress being made?
    Mr. Coles. I think progress is certainly being made. They 
still have some steps to take. They have the framework; they 
just need the material to fill in the framework.
    Mr. Cramer. Thank you, Mr. Chairman.
    Mr. Regula. Mr. Hinchey.
    Mr. Hinchey. Thank you, Mr. Chairman. Thank you, gentlemen. 
You recommend that Congressional oversight should be focused on 
two areas, financial management and performance accountability, 
basically; is that right?
    Mr. Hill. That is correct.

                       Deficient Computer Systems

    Mr. Hinchey. You also point out that the computer systems 
of the agency are often deficient. Is there any correlation 
between that fact and your recommendations?
    Mr. Williams. As far as the oversight is concerned?
    Mr. Hinchey. Financial management particularly. The 
computer system feeds into the new accounting system?

                   Financial Accountability Oversight

    Mr. Williams. That is correct. We think this is one of the 
issues that the agency must address in order to get to the 
point where they can get a clean opinion and then take that 
next step to achieving what we call overall financial 
accountability, in which our basic position you can get a clean 
opinion but still not achieve financial accountability. What we 
are suggesting is that the congressional oversight needs to be 
there to make sure that there is no slippage along the way. 
That oversight is needed to make sure that the agency continues 
to make the progress that we have observed over the last year 
in order to get to that point where they can say, we have the 
data, we have the information that we need in order to make 
day-to-day decisions. We have the information that we need to 
provide to the Congress to make decisions about this 
organization.

                       Deficient Computer Systems

    Mr. Hinchey. Can you tell me a little bit more about the 
computer system and the deficiencies as it relates particularly 
to financial accountability and their new system?
    Mr. Williams. As far as the feeder systems are concerned, I 
will give you one example. There was one system that recorded--
I believe it was credit card transactions. The agency has been 
working or was working to make sure that that information was 
going to the new accounting system and being processed properly 
through the system. One of the things that I would like to 
point out in addition to that about this new system is that 
under the old system a lot of this information could make it 
into the system, and in some cases would remain in the system 
for years at a time without being corrected. But one of the 
advantages of this new system is that it would catch it right 
up front and would not allow it to be entered into the system. 
While you have this problem of errors or rejects, it is a good 
thing from the standpoint that you are catching it up front, 
you are notletting it stay in the system and stay there for 
years and years, which is part of the problem that erroneous data has 
been entered into the system over the years but continues to build up. 
But the new system is designed with edits and checks so that that data 
will not even get in there in the first place.

                       Deficient Computer Systems

    Mr. Hinchey. That is certainly good. What about the 
deficiencies that you observed in the computer system? Are they 
being corrected?
    Mr. Williams. The agency has informed us that they are 
looking at that now. I think we are in the early stages of them 
looking at the issue and coming up with an approach to address 
those. So it is very early in the ball game from what I have 
observed as far as correcting those problems. There has been an 
identification that this is a problem. There is a recognition 
that we have to do something. I will let the Forest Service 
expand on and USDA expand on how far they are on that 
particular process, but there has definitely been the 
recognition that this is a problem.
    Mr. Hinchey. Everybody recognizes that the system itself, 
the hardware, I suppose, is deficient and not up to the demands 
that are being made on it and are anticipated to be made on it 
in the future, but there is no plan that has either been 
recommended or begun to be put into place that would address 
that.
    Mr. Williams. There has been the recognition. I will let 
the Forest Service talk as to how far they have gone as far as 
putting procedures in place for having staff and organizational 
contractors to look at it to see what needs to be done and how 
far we need to go.
    Mr. Hinchey. Thank you.
    Mr. Regula. Mr. Skeen.
    Mr. Skeen. Thank you, Mr. Chairman. Welcome, folks. I am 
sorry I was not here at the outset. I assume that you have not 
had any battle, nobody got hurt?
    Mr. Regula. It all depends on how you define that.

                       Data Collection Equipment

    Mr. Skeen. Mr. Hinchey was working on a piece of 
information that I think is a sincere response to--what kind of 
data collection do you have? What is the state of your data 
collection equipment and so forth? Is it new, old, nonexistent 
or what?
    Mr. Williams. Well, from a financial management standpoint, 
the system that is used to report the financial data, the FFIS 
system, that is new technology. That system has been 
implemented at other agencies, and it is capable of producing 
your financial reports that we are talking about agencies are 
required to report under the CFO act.
    Mr. Skeen. So you have access to this kind of equipment.
    Mr. Williams. The agency is actually using it. It has been 
implemented on October 1 of this fiscal year. The system is 
actually processing fiscal year 2000 data. The issue 
surrounding that is you have the system up here that is 
producing these particular reports, but information is being 
fed into it from various, as we call it, feeder systems and 
that is the area that we are talking about that this particular 
action needs to take place.
    Mr. Skeen. It is always curious because a lot of agencies 
in the Federal Government are way behind the times in data 
collection. It is hard for to you do your job if you don't have 
the right equipment. So some of this problem lies right here, 
and so that is why I asked the question. Usually we are about a 
year behind on technology. ``We are from the government and we 
are here to help you.'' So I thank you and appreciate the work 
that you are doing and the assessments that you make on this 
thing, but we want to make sure that you have the right tools 
or at least when you come up here with a report it has some 
validity and we are going someplace with it. Thank you, Mr. 
Chairman.
    Mr. Regula. What I would like to do is suspend so that 
members can vote. Mr. Kolbe will be back soon, and he has a 
question for you, Mr. Dombeck. So when he comes back, I will 
let him go ahead and ask that question since he has a conflict. 
Then as soon as the rest of us get back, we will go to the 
testimony of the National Academy of Public Administration.
    Mr. Dicks. Mr. Chairman, is it your intention to go right 
through the lunch hour?
    Mr. Regula. Yes, I want to finish the hearing. We will go 
straight through. We will suspend until Mr. Kolbe comes back.
    [Recess.]
                                      Wednesday, February 16, 2000.

               NATIONAL ACADEMY OF PUBLIC ADMINISTRATION

                               WITNESSES

DALL FORSYTHE, FELLOW AND PANEL CHAIR
CAROLE NEVES
    Mr. Regula. We will get started here. We next have the 
panel from the National Academy of Public Administration, Mr. 
Forsythe, accompanied by Ms. Neves. First of all, 
congratulations on your new assignment, Carole. I have mixed 
feelings about it.
    Mr. Dicks. You have your name thing around backwards. It is 
us that need to know who you are. You know who you are.
    Mr. Forsythe. The expensive ones have it on both sides.
    Mr. Regula. This is a cheap committee here. We try to save 
the money to take care of the national forests. But we have 
appreciated your great work, and we look forward to your 
service to the Smithsonian. I know you have a few interesting 
challenges there. Okay. Mr. Forsythe, we will put your full 
statement in the record and welcome your abbreviated summary of 
the report.

                        Mr. Forsythe's Statement

    Mr. Forsythe. Let me speak quickly if I can because I know 
your time is being compressed. Our study was in response to 
persistent complaints about managerial weaknesses and financial 
accounting problems. It was submitted last August. And our 
original focus was on the implementation of FFIS and on the 
review of its budget structure and process, but we did get into 
questions about strategic planning, performance management, 
organizational structure and leadership. If I could just 
briefly take down those summary categories, I will mention what 
those findings were.
    The financial system was--implementation had just begun and 
there was some worry about whether it was the right thing to 
do. We believed it was the right thing to do. We recommended 
that it proceed and the new CFO has done a fine job of getting 
it implemented on schedule. We pointed out in the study and you 
all seemed to realize that simply implementing the new 
financial management system does not resolve all of the 
managerial accountability issues by a long shot, but it is a 
big help.
    On budget structure, it seems that everybody agrees, the 
GAO and others agree that the structure is too complex. Some of 
the problems that you have heard about data from the field 
reflect that complexity. Our study indicated that a forest 
might have, for example, 15 projects with 40 budget line--
extended budget line items. That would mean 600 different 
categories in which they were trying to account for cost. That 
is a lot and it makes a mess of your financial accounts.
    I think a simple budget structure is in order. We 
recommended changes basically in the National Forest System 
appropriation suggesting five budget line items including the 
elimination of the Wildland Fire Management appropriation and 
transfer of that into the National Forest System appropriation. 
Those were the main changes that we proposed. To make up for 
the detail that you lose for oversight purposes, we suggested 
that the agency put together an operating plan for its budget 
with whatever detail you thought was necessary and put that 
forward 30 days after passage and review that with you as the 
year goes on. We hope that that might provide you with the 
accountability----

                  Simplified Summary of Budget Impacts

    Mr. Regula. I think you are saying it would make it easier 
for us to make policy judgments if you have a simplified 
summary of the budget impacts on their operations.
    Mr. Forsythe. Exactly. And that, indeed, I think we were 
also saying that you were not getting the accountability what 
you thought you were getting through this budget structure. You 
were not getting what you hoped you would get by the detail. 
Perhaps--well, in a second, if I can, I will move to that. We 
think that the Forest Service can develop useful performance 
measures based on and related to these budget line items. We 
think that will turn out to be the core of your accountability 
mechanisms in the future. That is what the Results Act suggest, 
and that is what I think this discussion this morning has been 
about: What is the right way to do that? How do we get there? 
Can we do it successfully? I think you can. In some ways the 
Forest Service is easier than some other agencies because they 
do real things on the ground that can be tracked as opposed to, 
say, an agency that is organizing research or something like 
that.

                            Field Priorities

    The Forest Service also needs a budget process that reaches 
further down into the field offices for advice, for proposals, 
that brings those up, that thinks about those in a more policy-
oriented way and proposes them to you in a structure that gives 
you more chance to think about program and policy issues, and 
then gives the money back to the field offices in a way that 
reflects those priorities.
    There are some good things to be said, as GAO said, about 
the allocation methodology. The formula at least provides 
equity, but we think it can be more project specific, more 
related to the specific initiatives and policies that flow out 
of the overall plan. To implement these ideas and get the most 
benefit from the financial management structure and the new 
financial management system and the budget process, we think 
the Forest Service should change its organizational structure. 
We made a number of recommendations about that. Most of them 
having to do with the CFO's office which we would like to see 
report to the Chief and to a new Deputy Chief who would have 
principle operating responsibilities for day-to-day activities.

                       Program Analysis Emphasis

    We do think that the new budget office needs an independent 
program analysis capacity. They agree. It seems everybody 
agrees, and the new CFO is moving to hire people to do that.
    The strategic planning and performance measurement issue 
has arisen several times today. Again, I think in some ways 
that is the answer to your longer-term question, which is, how 
do we do our oversight work, how do we keep track of what the 
Forest Service does? If we are not going to do it by dividing 
up the money in these little buckets, is there another way to 
do it? I actually think in terms of the resource-specific 
concerns that some of the Members of the Committee have 
mentioned, I think that performance measurement is going to 
turn out to be the way to track those kinds of issues and those 
kinds of questions to focus on, to use the current jargon, the 
results. I think that will work.
    It sounds like the GAO thinks that the new strategic plan 
is a substantial step forward. I do think that in addition to 
worrying about outcomes, which would be a sort of broad 
results, I think that you and some of your members will want to 
focus on outputs. I do not think that should be discarded. I 
think the actual activities that the Forest Service does year 
by year, even if they are not directed towards--even if they 
are not couched in terms of ecosystem health are important. I 
think you want to track those and understand those. So I do not 
think--I guess my only quarrel with the GAO would be that 
perhaps they focus too much perhaps on the outcome measures, 
and I think that you will also be worryingabout outputs, and 
the agency will, too, as they put this mechanism together, this 
performance management system that the GPRA requires.
    To put it in another way, the strategic plan is not 
supposed to be just big ideas and a big vision. It is also 
supposed to be a framework in which everybody can understand 
what people in the agency are doing, what the foresters are 
doing, what the people in the Regional Offices are doing, where 
the project all fits together. If you cannot relate it down to 
that level, if you cannot make it understandable in those 
levels, then it is not----
    Mr. Regula. Would that make it easier for us to do 
budgeting?
    Mr. Forsythe. I think it would be. I think it would change 
the conversation that you have with the agency to a discussion 
about those projects and those results instead of how much 
money goes into the little buckets that because of the nature 
of the work they do not necessarily get spent precisely for 
those purposes. All of that I think requires, and the agency 
has begun to show, I think, substantial leadership to prove its 
overall managerial accountability systems. The work that has 
been done in the last year on the financial side has been 
impressive. I thought--from the GAO reports that I have read, I 
thought this was almost a rave review this morning. I am not 
sure they would agree.
    Mr. Regula. In contrast to what has preceded it.
    Mr. Forsythe. I come without the history that you all have 
about the agency. I do not have the sort of long history of 
disappointment that many of you have and that many of you--that 
apparently they have earned. But I do think in the time we have 
been involved in this, the program has been impressive and that 
work has been done.

                             Feeder Systems

    Mr. Dicks. What about these feeder systems that are 
supposedly deficient?
    Mr. Forsythe. Some of feeder systems relate to things like 
the real property system which is something that everybody has 
been focused on and trying to improve. Those are systems that 
do not traditionally run off the basic general ledger system. 
So it is not just the--I was talking to the CFO during the 
break. She said the fundamental activities, the general ledger 
activities, accounts receivable, accounts payable and the 
budgeting are all up and running and running throughout the 
agency. She will give you a much better account of this than I 
would. But there are still places where data is coming in for 
the real property of the agency, the roads, the fixed assets of 
the agency that need to be cleaned up and improved.
    Mr. Dicks. When you say that, is that because the regional 
people are given the wrong information or inaccurate 
information or not sufficient information?
    Mr. Forsythe. These were older systems that ran on their 
own that were not in compliance with the new accounting 
standards that the government is now trying to work with. I 
think appropriately the agency's first step in trying to solve 
its financial accountability system was to deal with the 
fundamental basic system, the fundamentals of the general 
ledger. They have not finished doing the other. Again, I think 
you will get a good report from them on their schedule for 
trying to do that.
    Mr. Regula. Does that complete your testimony?
    Mr. Forsythe. Yes.
    [The statement of Mr. Forsythe follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Regula. Ms. Neves, would you like to add anything?

                   Personnel for Financial Management

    Ms. Neves. I would like to receive questions along with 
Dall, if you have any questions. The only other thing I would 
like to talk about is I know that the Forest Service is going 
to request more people than we recommended for the financial 
management system and for financial management in general. We 
had recommended about 120-some and they recommended 153. We 
think they can get the job done with less.
    And right now if there is a problem with reconciling 
systems, I think they would be better off contracting out some 
of that work for a short period of time and getting the job 
done. But we had two chief financial officers working on this 
who have considerable experience. Most of the differences were 
in the financial records and statements arena, in the CFO's 
office itself, and also in the FFIS financial system staff. But 
we stand by our 120, not 153.

                     Comparison to Similar Agencies

    Mr. Regula. How does the Forest Service management and 
accountability system compare with similar agencies in the 
Federal Government, since you have looked at a lot of them?
    Ms. Neves. A lot of them are broken and a lot of them are 
in difficult shape and going through identical transformations 
that the Forest Service system is going through. Others have 
had better systems over a period of time. But I am sure they 
are not a minority of one.

               Federal Financial Data Management Systems

    Mr. Regula. I do not quite understand why the Federal 
agencies seem to have trouble getting good systems when the 
private sector is seemingly far ahead in their use of data 
bases and computers and managing their functions. I heard Mr. 
Greenspan say that one of the reasons that our economy is so 
strong in this country is that we in the private sector have 
utilized information systems and computers to manage production 
so much more efficiently than most of the other nations. I 
heard a columnist say the same thing. Why can't we do it in 
government?
    Mr. Forsythe. I come from State government. I spent most of 
my working career in State and local government. I was 
surprised to discover that the financial management systems in 
State government are much better than they are in the Federal 
Government. I think the requirement for auditability has been 
very important. I think that now when you are really seriously 
forcing Federal agencies to come into conformance with a single 
set of standards--it used to be that they did not--and to be 
able to provide data for independent audit, I think that you 
will see substantial progress in that audit.
    Mr. Regula. So we are just behind, but we are moving?
    Mr. Forsythe. Yes, I think that is right.
    Mr. Dicks. How long will it take?
    Mr. Forsythe. It has taken quite awhile already. Ithink it 
is going well. I was surprised and impressed with the progress that was 
made in the last few years.
    Mr. Regula. Mr. Dicks, any questions?
    Mr. Dicks. Do you have any sense? Is this a 5-year problem, 
a 3-year problem?
    Mr. Forsythe. On the audibility, I would guess 3 to 5 we 
will probably get it done.
    Mr. Dicks. When you talk about these feeder systems, do 
they need more money for equipment? Is there a lack of 
equipment, modern equipment, that they need to be able to do 
that?
    Mr. Forsythe. I think that you will need to wait for the 
Forest Service folks. We did not address that problem.
    Mr. Peterson. If the gentleman would yield, I guess the 
chairman and I will talk on the way over to the floor. This is 
my observation. You come from State government and I come from 
State government. State government is ahead of the Federal 
Government, in my view, in accountability. But they do not 
compare with the private sector either.
    I guess my question would be, maybe, Carole, can we ever 
compete? The problem we have in this country is we have a huge 
shortage of technical people who know how to use systems, 
systems people. Government cannot get the best ones. We are not 
getting the A plus. We are getting the B minus or the C plus 
people because there is not enough for the marketplace. So 
there is a huge shortage of systems people. Would not we be 
smart to start looking at contracting those services out to 
companies who specialize in information? Then you are using the 
latest technology unknowingly. I think in the long run we would 
save money.
    Ms. Neves. I think we have contracted out a lot already. I 
think the easy stuff has been contracted out. But financial 
systems are considered a very hot property item within the 
Federal Government for a whole series of reasons. I think if 
you want accountability, you want to have control over some of 
those systems. I think that is why within the government all of 
the agencies maintain those systems. As far as information 
management specialists, the National Academy has done a lot on 
deficiencies in terms of human resources. You are absolutely 
right, that is one of the areas where the Federal Government 
does not have the skilled capabilities that the private sector 
would have.
    Mr. Peterson. Well, the private sector is having to train 
their own because our educational system is not meeting this 
need. And then they are stealing from each other. Once you 
train a person and he or she is really good, he or she is 
really marketable and get huge increases in salary. I think 
this whole curve is just beginning. This is going to get more 
difficult because the systems they are developing are so much 
more powerful and give us so much more information. I yield 
back the balance of my time.
    Mr. Regula. Mr. Dicks, do you have additional questions?

                          Audit Accountability

    Mr. Dicks. From your perspective, Carole, you mentioned 
keeping this at 120. To me I am not as worried about the number 
of people as how long is it going to take us to get this done 
so that they can audit accountability. How long do you think? 
Is it going to be 3 to 5 years, too? Do you agree with that?
    Ms. Neves. In the Forest Service, they are much closer to 
getting this to work. But our point is you can have the best 
system in the world, but if you do not hold the managers 
accountable--and we are suggesting a change in that you would 
hold them accountable through projects and through an operating 
plan that would be presented to you initially at the start of 
the year and then during the middle of the year. But there has 
got to be a hierarchy of measures. You would hold them 
accountable through performance plans, milestones, performance 
measures, that type of thing from the lowest levels up. In 
other words, the project--the Forest Service does not operate 
now off projects in a traditional sense. We are trying to hold 
them accountable by the amount of money they are spending, and 
that is a pseudo-control at best.
    Mr. Regula. I think the GAO says in essence the same thing. 
We will, of course, hear from the Forest Service. Go ahead.
    Mr. Dicks. The question is what the performance is, what 
are they getting done with the money spent? That is where the 
weakness is.

                     Secretary's Management Actions

    Mr. Forsythe. Just to reinforce what Carole said, Secretary 
Glickman sent in December a proposed set of management actions 
and a timetable. You should think about that and discuss that 
and see whether they meet your needs. But as one element of 
accountability in the short term, just making sure that the 
agency does what it says it does in terms of implementing these 
management steps would be important.
    The second level would be performance measures. Some of 
them, again, not big broad outcome measures, but specifically 
relating to the issues and resource concerns that you have. 
Then the third level of accountability is this broader 
strategic plan and outcome level. But I think in terms of the 
first two, you ought to be able to make some real progress this 
year in that regard. That coupled with an operating plan for 
the budget ought to make you feel that you have some comfort if 
you decide to go ahead with changes in the budget structure.

                            Budget Structure

    Mr. Dicks. One idea is making us have three line items. You 
said five line items. They want to go to three. These are $100, 
$200, $300 million accounts. We are just supposed to trust them 
that they are going to take this $300 million and spread it all 
across the country and spend it on what we told them to?
    Mr. Forsythe. I think the worry is that when you get to the 
operating level, foresters in action in the field, they are 
doing a variety of different things every day. That forester 
doesn't--doesn't usually, sometimes they do, but doesn't 
usually wear something that says I do fish, I do fowl, I do 
timber, I do range----
    Mr. Dicks. Ecosystems restorations.
    Mr. Forsythe. Exactly. And to the extent that that is what 
they really do and that is the kind of work they really do, 
dividing the money up into little pots does not necessarily get 
you your objective. You need to get your objective, which is a 
fair one, knowing what they do in a different way by getting 
measures of what they do. Not measures of where you think the 
money should go, but measures of what they actually do, what 
their activities are, what they do during the cost of the year. 
That is what we are urging you to shift your sights towards. I 
think that will end up being much more effective oversight than 
dividing the dollars into pots that do not realistically get 
spent the way you hope they did anyway.
    Mr. Dicks. We just do not know how they are spending the 
money. That is the bottom line, right?
    Mr. Forsythe. You know in the broad sense--but, no, Ithink 
that is right. When somebody charges one project to 40 different 
extended budget line items, you do not really know what that project 
was doing.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Regula. Mr. Nethercutt.

                           CLARITY OF MISSION

    Mr. Nethercutt. Thank you, Mr. Chairman. Thank you both for 
being here. I think the hardest determination that has to be 
made here is what is the mission of the Forest Service. I think 
it is an obtuse mission. It is saddled with legal mandates 
galore. So how do you calculate whether they have performed 
adequately on meeting the regulatory flexibility act or the 
ecosystem management requirements, all of that sort of thing? 
It is such an obtuse definition. It seems like a nightmare. It 
seems that is what has been chronicled here by the GAO and by 
you and others. It is this lack of clarity of their mission and 
their specific objectives.
    If you are a Microsoft or a Boeing, you have specific 
objectives, I should say, that you can meet and seek to meet. 
But it seems like it is sort of an amorphous mission that the 
Forest Service has, the requirements of laws that Congress 
passes, but also policy definitions that are so broad that they 
almost defy definition. For example, ecosystem management or 
restoration. How in the world do you determine whether you have 
made that or not?
    Mr. Forsythe. I think that is right on point. That leads to 
the broader question that Mr. Peterson raised about the 
difference between government and the private sector in 
accountability. It is pretty easy. I have worked about 8 years 
in the private sector. It was pretty easy to achieve 
accountability there. We knew we were trying to make as much 
money as we could. That was clear. It was not real complicated.
    The Forest Service not only has a complex set of missions, 
but they have missions that are directly conflicting. We saw 
some of that in your earlier questions and discussions. Some of 
those involved whether to harvest resources or conserve 
resources for the longer term and how do you do that. The more 
that you clarify those objectives, the worse those 
disagreements get. And to some degree what Congress has done 
over a longer period of time, this mechanism of the budget 
structure has helped you avoid sort of coming to final grips 
with those questions. I think in some ways this new regimen is 
trying to seek to force the agency and Congress and others to 
clarify those questions and come to grips with them, even when 
they are going to add to the contentious nature of policy-
making.
    Mr. Nethercutt. Speaking personally, I would rather see the 
Forest Service go back and look at its original mission, and 
that is management of the forest, so that we have healthy 
forests. If you compare it to the State systems, and many of 
the States around this country have State forestlands, they 
have a bottom line. They have schools to pay for in many 
instances. The Forest Service does not seem to have that bottom 
line requirement that is easily identified. And so when you 
compare the State-run systems to the Federal-run system, I 
think the Federal system by comparison pales.
    Mr. Forsythe. We have the wonderful--we have the 
Adirondacks Forest System and Wilderness Area. We have exactly 
the same battles that you have here, about whether to cut or 
not cut, open to the lands or not, how much should be for 
recreation and resource management. Those questions are always 
going to be with you, I am afraid.
    Mr. Nethercutt. I guess they are always going to be with 
you, but somebody at the leadership level needs to make a 
determination and a policy decision, and that is the policy of 
the administration, and then go forward for better or worse 
rather than be muddling along doing nothing.
    Mr. Forsythe. I agree. That is your job, sir.
    Mr. Regula. You have a few minutes left, Mr. Peterson.
    Mr. Peterson. I think that I have asked my question.
    Mr. Regula. Mr. Kingston.
    Mr. Kingston. In your experience, how much of this is going 
to change with the Administration, in your judgment?
    Mr. Dicks. With the new Administration, you mean?
    Mr. Forsythe. Some of those are questions that Mr. 
Nethercutt was asking, which is if you have people with 
different views about what the agency's objectives are, how 
much will change. Frankly, I do not think that what the agency 
does on the ground will change all that much in most instances, 
although you may have--you will certainly have difference of 
emphases.

                       POSSIBILITY OF REAL CHANGE

    Mr. Kingston. The reason that I brought that up: Bill 
Bennett has this illustration when he was the chairman of the 
Department of Education. He said he was working down the hall 
and everybody treated him well. He was coming up with policy 
statements and bold visions and all of that good management 
stuff. He said that one day it occurred to him that he was kind 
of in the wheelhouse of the ship turning the wheel and that the 
lines to the rudder were disconnected. It seems that 
bureaucracies have their own--kind of a brain of their own, not 
necessarily deliberate but it is just there. And it might not 
matter who the Secretary is or who the President is. And so----
    Mr. Forsythe. There is a nicer way to put the same point, 
which is that the Forest Service has a very strong professional 
ethic of what forestry is. They think they know that, they 
think they are doing it well, and they want to continue to do 
it. And so within that framework they will certainly shift, as 
Congress and elected officials ask them to, but they do believe 
that there is a professional body of activity they ought to be 
carrying out no matter who is running the country.
    Mr. Kingston. Well, in your experience, cultural change in 
an organization, private or public, is very difficult to 
achieve. Do you think it can happen if there is a will for it 
to happen, or are there really barriers that have to be 
answered legislatively, or addressed legislatively?
    Mr. Forsythe. In terms of the issues that we addressed, the 
managerial accountability issues, those can definitely be 
addressed. And strong leadership and strong management can 
definitely force managerial accountability through an 
organization's culture no matter how strong it is. I believe 
that. Do you agree, Carole?
    Ms. Neves. Yes, I agree. In cultural change, the most 
important element is strong leadership. That involves personal 
leadership of the head of the agency and getting everybody else 
on board. It is not an easy task. You can not delegate it to 
others.
    Mr. Dicks. If the gentleman would yield, do you see that at 
the Forest Service? Is there a strong leadership there? Is the 
Chief dedicated to this proposition?
    Mr. Regula. Take the fifth.
    Mr. Dicks. You are going to the Smithsonian. You can tell 
the truth.
    Ms. Neves. I think there has been a change. I think that 
there is a perception that they have got to change. I think we 
see evidence in this in terms of the financial management 
arena. We have not been looking at the Forest Service closely 
since we turned in the study in August, and so I do not have a 
yardstick to measure Mr. Dombeck's commitment or his 
interactions on a day-to-day basis.
    Mr. Dicks. What about the CFO?
    Ms. Neves. The CFO is committed to change.
                                      Wednesday, February 16, 2000.

                          U.S. FOREST SERVICE

                               WITNESSES

MIKE DOMBECK, CHIEF
PHIL JANIK, CHIEF OPERATING OFFICER
VINCETTE GOERL, CHIEF FINANCIAL OFFICER
RANDLE PHILLIPS, DEPUTY CHIEF FOR PROGRAMS AND LEGISLATION
JIM FURNISH, DEPUTY CHIEF, NATIONAL FOREST SYSTEM
    Mr. Regula. This sets the stage perfectly for the next 
panel, and Mr. Dombeck, we are going to give you equal time 
here. I hope that you can also stay until we finish because if 
we have any questions you can answer, we will try to keep this 
moving. Mr. Dombeck, we are happy to welcome you. You have 
heard some rather interesting comments about your agency so we 
look forward to your testimony.

                       Chief Dombeck's Statement

    Mr. Dombeck. Thank you, Mr. Chairman. I am not sure that I 
have been in a situation where I have had the appropriations 
committee in front of me and the regulators behind me. But as 
long as they continue to stay behind us, we will continue to 
get the job done.
    Mr. Regula. I think it is important that we get behind you, 
too.
    Mr. Dombeck. I think it is important to acknowledge the 
people that have helped because it is my belief that progress 
has been made. The Secretary and his staff have been solidly 
behind us. You are--the authorizing committees have pushed us 
hard on this issue. The General Accounting Office, the 
Inspector General, and I particularly want to thank the Academy 
for what they have done.
    I want to reaffirm some things that I said at other 
hearings on this issue. I think, although I have been Chief now 
a little over 3 years and most Chiefs have had a lot longer 
tenure than I have, none has had more hearings on this issue 
nor spent more time on this issue than I have. I want to 
acknowledge to everyone that we acknowledge the problem and we 
have the message. You have our commitment. In fact, this past 
year the priorities that I set for the agency were, one, 
protection of life and property, and that was to deal with 
fire; and, two, was to get on top of the accountability issue. 
I am proud that we achieved the real property inventory. It is 
not perfect, but it is the first one we have and they will 
continue to improve.
    A couple of historical things are important here. This is a 
problem that developed over time. I sort of view it as the 
cumulative effects. We talk about cumulative effects of 
ecosystems, but that is also true of agencies and 
organizations. I think the stack of GAO reports you see there--
my staff tells me that if I add the IG reports to that we have 
had somewhere in the neighborhood of 300 audits in the past 10 
years. I think we all agree that this accountability issue has 
to be fixed. We really do not have a choice. It is not going to 
be an easy task. It is going to take time, commitment, backbone 
of all of us in the room here and those that are not here.
    I want to point out a few needs. We need general agreement 
on resource priorities. I think that has been brought out 
several times. We still lack that. That is a difficult thing to 
achieve. We need to simplify the budget structure. We need to 
simplify processes. In fact, we have mastered the art of 
complexity over time, and that complexity is now literally 
killing us. We need performance-based accountability. We need 
the congressional support to realign our budget as we move to a 
new, streamlined, simplified approach. We need accurate 
information systems and data in place. We need the links to 
plans, to budgets, to performance measures. We need to monitor 
results and then make adjustments as we go. And we need 
properly trained employees.

                        FOREST SERVICE PROGRESS

    I want to talk a little bit about progress. The NAPA 
study--and again I want to thank the Academy. That was really 
the first organizational, budgetary, and programmatic focus on 
reforms. Typically, you get the criticisms, but the 
recommendations in an integrated way were very helpful. We are 
moving swiftly on many of those.
    The proposed simplified budget structure, I thank them for 
assistance in that. The linkage to the Natural Resource Agenda, 
the proposed strategic plan, the outcome-based performance 
measures. We have instituted the Primary Purpose Principle 
which Vincette will talk about if you wish. Implemented FFIS. 
We have the first real property inventory. We strengthened 
leadership on natural resource issues. The planning regs, many 
things are in progress there.
    On the organizational side of what we have done, we have 
for the first time completely filled our leadership positions. 
We had years in the Forest Service where many leadership 
positions had gone vacant for extended periods of time. We have 
the first-ever Chief Financial Officer and a very capable one 
in Vincette Goerl seated to my right.
    We have reduced the number of direct reports to the Chief 
from 35 to seven. We have conducted business management 
training for literally hundreds of employees and made 
accountability a top priority in the agency.
    Now, we are talking about some things here that are not 
very pleasant, but one of the things that I do want to 
acknowledge is, in the United States we have the best resource 
managers in the world, the best science, the best wildland 
firefighters. This has been true for the generations in the 
United States with really the first science-based forest 
management over time. And over time these employees have done 
what was expected of them.

                        ELEVATING ACCOUNTABILITY

    Now, what we are doing is elevating the need for 
accountability. I also think that it is important to realize 
the value of forests is increasing and will probably be much 
higher as we look at fragmentation and the needs people have to 
recreate, to hunt, to fish, to hike, to bike. The need for 
fiber and other commodities will continue to escalate.
    We have got to stay the course, and that is my questionto 
the committee here. We are on a path. We have had good advice. We are 
going to make adjustments, and we have got to stay the course. Because 
as we flip-flop, if we look at why we did not--in 13 years this has 
been proposed three times, what went wrong with the other two? I think 
you have seen alterations in courses; you have seen only pieces of this 
work at one time. I will say it does not matter what our resource 
philosophy is, that a goal that we share is: everybody wants a Forest 
Service that is effective, that is efficient, that is based upon the 
best modern systems and management principles of the day. We have got 
to be quick and nimble and able to adjust as society changes, as 
demands change, and as technologies change.
    With that, I will be happy--it sounds like we have an 
endless number of topics we could talk about here this morning 
and afternoon.
    I want to introduce Randy Phillips, Deputy Chief for 
Programs and Legislation. In fact, this is Randy's first 
hearing in that job. Vincette Goerl is our Chief Financial 
Officer. Also in the room is our Chief Operating Officer, Phil 
Janik is back there as well as Jim Furnish, the Deputy Chief 
for the National Forest System. So between all of us we should 
be able to cover most of the bases here.
    [The statement of Mr. Dombeck follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

            Hurdles To Implementing Abundant Recommendations

    Mr. Regula. Do you have any comments that either of you 
would like to add before we go to questions?
    Based on all of these reports, including the GAO's, it 
seems that you have had an abundance of recommendations. It 
does not seem as if they get consummated. I think by your own 
admission that has been a problem. Do you think we are over 
that hurdle?
    Mr. Dombeck. Yes. As I said, I made accountability a number 
one priority. What I would like to do is I would just like to 
highlight the role of the Chief Operating Officer, which at the 
time those changes were made we were looking at a private 
sector model. The thing that we wanted to do is elevate 
business management to the plane of resource management. In the 
past, the resource management took priority because forest 
management was the job and the business management side 
languished.
    I have in front of me my expectations of the Chief 
Operating Officer. I stated that ``The business side of the 
Forest Service is your top priority, first and foremost. There 
will be a strong tendency for the organization to migrate back 
to the old way. We must staunchly guard against that. I expect 
business management to be of equal stature to natural resources 
management.'' And then I list a series of----
    Mr. Regula. That encompasses recreation, I assume? When you 
say business management, are you including recreation, forest 
health, impacts on the environment?
    Mr. Dombeck. The business management side of that, yes. The 
resource, the technical, scientific, resource, ecological side 
of that----
    Mr. Regula. As opposed to the production of fiber?
    Mr. Dombeck. Yes, and we have an Associate Chief for 
Natural Resources that oversees the natural resources side of 
the program.

                         Timber Production Drop

    Mr. Regula. You will note from chart that the sales of 
fiber have dramatically dropped in the last 10 years. We 
directed 3.5 billion board feet for 1999 and you only sold 
about 2.6.
    Mr. Dicks. 2.2.
    Mr. Regula. Okay, right, 2.2. Why is that?
    Mr. Dombeck. I think there are a lot of reasons. Randy may 
offer some comments as well. This issue of general agreement on 
resource priorities really comes into play here because we have 
Members of Congress and constituencies, some want to cut more, 
some want to cut less. As we move forward, it is not as simple 
as putting an aircraft out of Boeing. It is an area where the 
public debate is occurring as the process moves forward. The 
Forest Service is really the agency that is the wrestling mat 
upon which this public debate occurs.
    Mr. Regula. You are talking about lawsuits, injunctions, et 
cetera?
    Mr. Dombeck. The lawsuits and the complexity associated 
with all of this. There is something about democracy that 
citizens want the ability to question government.
    Mr. Dicks. Mr. Chairman, if you would yield, have you seen 
this chart? Congress has provided the money and the direction 
to do a certain level here. It is dramatically below what we 
used to do. Yet the Administration has failed every single year 
to get even close to the objective. I think 1997 is your 
closest year. From 1995, 1996, 1997, things were moving up. But 
now we see a definite drop. Now, I thought when Congress said, 
here is the money and here is what you are supposed to do, you 
are supposed to do that. You do not have any discretion to say 
we are not going to do it. That is what it sounds like you are 
saying.
    Mr. Dombeck. Well, we have appeals and injunctions----
    Mr. Dicks. I know you may have a lot of excuses, but you 
are not saying if we disagree with what Congress tells us to do 
just because this is controversial that we are not going to do 
it? Or not attempt to do it?
    Mr. Dombeck. I think we attempted to do it.
    Mr. Dicks. Is Randy back there? Now, are you trying to do 
this, or is the Administration just intentionally low balling 
this because of constituency pressures?

                        Barriers To Timber Sales

    Mr. Phillips. In my experience, the administration of the 
Forest Service takes those commitments seriously. Now, 
implementing what Congress tells us to do, there are some 
things that are beyond our control. We can prepare the timber 
sales and offer them. Sometimes they are not even sold. There 
are a lot of things that affect that. Sometimes weather. The 
lawsuits and appeals are one factor. We had a major lawsuit in 
the Pacific Northwest that put a lot of that volume on hold. I 
think some of that has been resolved. I will bring to your 
attention also that Congress helped us in the 2000 
appropriation with some extra money to get on top of survey and 
manage. We also directed the Region to use some of their own 
carryover dollars to supplement that and try to get some of 
that volume out on the street for sale.
    Mr. Dicks. Could you give us a report on this? I would like 
to know why, in the Forest Service's opinion, we have had this 
gap in what we gave you the money to do and what you actually 
did.
    Mr. Regula. If you would submit that for the record.
    Mr. Kolbe. If the gentleman would yield, where does the 
money go that we have appropriated for this that you obviously 
have not used because you have not been doing it? Is this 
unobligated balance coming back to us?
    Mr. Dombeck. In most cases, much of the work hasbeen--if 
the sale has not sold, all of the prep work and the bidding process and 
all of that has been moved forward. We do not have control over whether 
they sell or not. Then, of course, we have the whole issue of appeals 
and that sort of thing. This kind of gets into the larger question of 
this agreement on resource priorities. My view is the more that we 
focus on things like board feet, the more we invite debate of those 
that want to cut and those that do not. The more we can focus on the 
outcome-based performance, that, in fact, many have recommended, to 
focus on what it is we want on the land, what do we want the land to 
look like, and then we apply the science and move forward. I think that 
will--I think we are moving that way and we have been moving that way. 
The process has been slow as the debate moves forward, but the whole 
idea of focusing on the outcome-based performance I think will help 
this significantly.

                     Reconciling Treasury Accounts

    Mr. Dicks. I have a couple of questions. I would like to 
hear from the Chief Financial Officer. Tell me about this $2.7 
billion--whatever the number was--at Treasury? What is that all 
approximately about? Do you understand that?
    Ms. Goerl. Yes, I do.
    Mr. Dicks. Could you explain it to us?
    Ms. Goerl. It was $2.9 or something like that. When you go 
back to it, it is very much like reconciling with your bank and 
your checking accounts and your multiple checking accounts. In 
this particular case, the bank is Treasury. In our process of 
moving to a new system and to correct audit findings which 
determined that we had not been reconciling our checkbook in 
our bank for many years, we have a large amount of that to 
reconcile and go through. These are activities that have 
occurred. These are obligations and these are payments. But 
because we have had multiple different systems playing into 
that, we have not sat down and said these are the differences 
and we make the corrections in either the bank or the 
subsidiary systems to reconcile to the penny.
    In the new financial system, we can do that daily, and we 
intend to do that. Probably we will get to the reconciliation 
of those amounts by later this summer. We hope to be 
reconciling daily by October 1. In that respect we will have 
reconciled all of those differences, and we are in the process 
of identifying those. We are working with the Department 
because it is also the older systems that we were using this 
past year that contribute to that.
    Mr. Dicks. What does it mean when--is there a $2.6 billion 
amount in the account that is sitting there in the Treasury?
    Ms. Goerl. No. It is the combination of differences between 
the different accounts--they are numerous, up to 100 different 
Treasury accounts--and the balances that we have in the agency. 
We have to reconcile that. We have to make sure that we 
understand where we make adjustments so they net out to zero. 
So the amount----
    Mr. Dicks. It says here contains $2.6 billion as of 
September 30, 1999, in the total amount in the Treasury in this 
account.
    Ms. Goerl. That are unreconciled. They are not balanced. 
There is a net amount that is a difference that we must 
reconcile with. There is a difference--it is $10 in the bank 
but it is $12 here, or it is $24 in the bank and $20 here. And 
those combinations of those $4 and those $2 amount to $2.7 
billion.
    Mr. Dicks. That seems like a lot of money to have 
unreconciled, with all due respect. How long is it going to 
take you to get this done?
    Ms. Goerl. We have been working since last summer.
    Mr. Dicks. How much was this account then?
    Ms. Goerl. This was at the end of the fiscal year. We were 
looking at multi-billions. We are looking at hundreds of 
millions now, and we expect to have it reconciled by the end of 
the summer. We expect most of it to be done by June, and we 
have plans with the Department on that.
    Mr. Dicks. It also says here in the GAO report that there 
is $100 million in unreconciled or unsupported transactions 
remaining from its old accounting system that it lacks enough 
information on to transfer to FFIS.
    Ms. Goerl. That is right.

                         Transaction Validation

    Mr. Dicks. It says the agency faces a major effort in 
trying to document and validate these transactions so they can 
be transferred to FFIS or to reach an agreement with the Office 
of Inspector General on a policy to write off or otherwise 
resolve the differences.
    Ms. Goerl. That is right. When we moved from an old system, 
the CAS system, the Central Accounting System, and from another 
pilot system, we transferred open items, many of them millions 
of transactions worth of items, into a new system. We started 
that conversion last July. We had a process we worked out with 
the Department and the IG on how we would accomplish that to 
move it into the new system. And we at, the close of December, 
we had about $100 million is what we estimate. Of those that we 
are simply going to work through, we expect those to be 
reconciled by the first of April. We have a process to work 
through and reports where we will go back and validate the 
documentation to support those actions.
    Mr. Dicks. What did you say about the $2.6 billion? When 
are we going to have that done?
    Ms. Goerl. We expect that to be done by June, at the latest 
by October 1 to have cash-reconciling daily. We are doing that 
with the Department. The cash reconciliation is a joint effort.

                             Feeder Systems

    Mr. Dicks. This much-discussed feeder system, what are 
feeder systems?
    Ms. Goerl. Let me give you an example. You have particular 
systems that you feed transactions and such. If you are going 
to procure a computer or if you are going to procure equipment, 
that is a purchase system. These are very old stovepipe systems 
that the agency with the Department have had a number of years. 
They have not been upgraded to meet newer financial accounting 
standards in place now and also to take care of better 
technology and require a lot of manual support. They can be 
purchased, they can be property, they can be real property. 
There are ways to feed a type of document into an accounting 
system.
    Mr. Dicks. Into the FFIS. And until you have a good feeder 
system, then there is a question about the reliability of the 
data that FFIS produces, right?
    Ms. Goerl. Right. You have to put in lots of internal 
controls and reconciliation processes to ensure yourself of the 
validity of that data. At the same time you should be replacing 
them.
    Mr. Dicks. That is the question that I want to get to. What 
is in the budget? This is the big problem, these inadequate 
feeder systems that need to be replaced. What is in the budget 
for it this year? And is there a plan to provide you with the 
equipment that you need to do this job?
    Ms. Goerl. Well, first of all, I should say that we had 
invested in the hardware which is the PCs, the 
telecommunications, those kinds of things very successfully the 
past 3 or 4 years. We have a good infrastructure, architecture, 
to support new applications. We then needed to replace the most 
important application, which is the general ledger. That we did 
October 1. With the Department--this is with the Department 
that we are doing this with.
    Mr. Dicks. The Department of Agriculture.
    Ms. Goerl. The Department of Agriculture has a long-term 
integration and administration strategic plan to replace those 
other feeder systems that we share with them to some extent, 
some of which are our own which we have plans to either revise 
or update to improve. And the next one that is in discussions 
with the Department right now, a very important one, is the 
purchase system because it purchases everything from equipment 
to everything on the ground to others. We are looking at that, 
and at the same time we are making changes to our internal 
infrastructure system, which is the real property system to 
make it meet standards. And that is--we are doing that this 
year.
    Mr. Dicks. I understand. Let me just finish this, Mr. 
Chairman, this one point. So what you are saying is thatthere 
isn't a plan yet? There isn't money in the budget this year for these 
feeder systems, to improve them?

                             Feeder Systems

    Ms. Goerl. There is money in the system to improve the 
infrastructure which is our internal feeder system. And there 
are funds that would support the data warehouse to pull this 
data in even its probably not perfect state; but we can then 
through controls and reconciliation make the data auditable and 
supportable. And with the Department probably in 2001, which we 
do have some base money, we are going to work with the 
Department, who has a separate request for replacing the 
procurement system and plans for the next couple of years for 
other systems. We will have to work with them on that. There is 
still, because of the reports that came back this year, with 
the Department that we worked with that decision to replace 
those feeder systems is something that the Department is 
working on a strategy. Obviously, we are working with them as 
well.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Kolbe. [presiding]. We will have time for another round 
if you wish. Mr. Nethercutt.

                    Conflicting Mission Definitions

    Mr. Nethercutt. Thank you, Mr. Chairman. I think one of the 
great problems you face is the broadness of your definitions. I 
listened to your opening statements. I wrote down that you said 
that the Forest Service has shown leadership on natural 
resource issues and you are seeking wise resource management. I 
do not quarrel with that, but what does it mean? It does not 
mean much. What I think it means is that as you focus on 
outcomes, your outcome is going to result in lower timber sales 
and your failure to meet the objectives that Congress set forth 
for you with respect to board feet harvested in the forests. 
You can have outcomes that are going to impact the mission, the 
specific mission that you have as directed by Congress in a 
negative way. I think that is part of the problem.
    You have a road moratorium that you have now instituted. 
How does that fit into the issue of outcomes and meet the 
direct requirement that you are to harvest more than you did 
and to try to have more timber sales? I think it has an impact 
on it. If you have a wilderness policy, 40 million acres now 
that the President is going to set aside, that has an impact on 
your outcomes. I think it feeds those outcomes.
    So I am not easily persuaded that it is just a matter of 
lawsuits and weather and that sort of thing. I think it is a 
policy that the Administration has employed that it does not 
want to harvest timber in this country. Coming from the West, I 
think the desire of some in the agencies of this Administration 
is to build a big fence around it and just let it sit there and 
not deal with it. Whether it has an impact on the recreational 
use that people--I hear in my district, the east side of the 
State of Washington, people say, I can not go out in the 
forests anymore and walk in the forests. The gates are down on 
some of the roads. I can't go out with my wife and walk in the 
forests or gather firewood like I used to. Somehow this is all 
within the outcome definition it seems that you are 
identifying. It is like outcome-based education. It is great to 
have an outcome that says I want a child to be able to read, 
but then you get back to the decision of how is the child going 
to read, whole language or teach phonics? I think your 
objective ought to be to teach phonics. And if we do--if that 
is your preference--then we are going to have kids who can 
read. The same is true here.
    I think your definitions are so broad about how you decide 
how you are going to allocate money and how you determine 
significant progress to occur in the operation of your Forest 
Service that it sort of defies the definition, and that is why 
we have all of these uncertainties in what you are doing.

                          Multiple-Use Mandate

    Mr. Dombeck. The multiple-use mandate is certainly one of 
the most broad mandates one could have. I look at some of my 
counterpart agency heads and am very envious because it is 
fairly narrow, simple, and straightforward. The debate today is 
about the balances of how much and then into where. It gets 
right down into the specifics on the ground as to where that 
occurs. And the increasing recreation demands, they will 
continue. The projections are that that will continue to 
escalate. The Forest Service provides more recreation, 
visitors, than any other Federal entity. We sort of have a 
budget structure and a performance system that we are moving 
away from that is based more narrowly on a larger timber 
program that evolved from World War II into the 1960s, 1970s, 
and 1980s, and then we had the changing social dynamics and all 
of the things we are dealing with, the spotted owl issue and 
other things like that.
    So we talk about water quality, recreation, and the need to 
produce fiber. I am concerned about the debate on forest health 
and things like that because we always seem to end up into the 
narrow debate about how much is it that you are cutting. Then 
it turns into a cut versus no-cut debate. Somehow we have got 
to be able to extract ourselves from that debate and talk about 
long-term goals and then turn that into the performance 
measures, request the budgets, and then make sure that the 
agency delivers.
    Mr. Nethercutt. The constituencies that seem to drive this 
are of a no-cut mentality. I think--at least we have seen in 
some respects in our part of the State, the Forest Service 
really cowering from a threat of a lawsuit or threat of 
political objection by somebody who may say we do not want 
you--it is horrible to cut a tree when, in fact, it helps 
forest health to cut a tree in many respects. I know you have a 
tough job, but I just think that when you--I think you are so 
defensive, you in the broad sense, the agency is so defensive 
and so unclear that this is the best policy, this idea that you 
could have a multiple-use and truly ought to have a multiple 
rather than just say you want a multiple-use. I think that is 
the ultimate solution. Thank you.
    Mr. Kolbe. I will hold my questions until the end. Mr. 
Peterson.

                         Timber Production Drop

    Mr. Peterson. Good morning, Mike. I guess this chart 
surprised me. I do not know why, but I was taken aback when I 
really started looking at the significance of that. I guess 
that most of us that believe cutting should be a part of 
multiple use and be a part of good management and thinning of 
the forest. I have a couple of woodlots. When I thin them, they 
get in a better--I mean, they are stronger, more healthy, more 
wildlife there. There is not really a loss that I can see, or a 
downside. But we thought we had lost the argument when we got 
down to a 3 to 4 billion figure from 12. Well, we thought, 
well, we have lost that argument. We are going to discontinue 
cutting at that rate. The data is really devastating. When you 
look at 1997 Congress said 4.2 billion is what they wanted to 
cut, and you missed it by 13 percent. In 1998 Congress said 3.8 
billion, they regressed a little bit, and you missed it by 21 
percent and got just a little less than 3 billion. Last year 
theCongress's goal, they retrenched a little bit, 3.6, and you 
missed it by 40 percent. If our goal is 3 next year, I guess we will be 
at 1.5.
    You talked about the debate. We thought we had lost the 
debate. But I have to think in fairness to you that we have an 
Administration above you, way above you, your pay grade, who is 
saying the hell with Congress. We do not care what they say; we 
are going to go to a no-cut policy, go to zero. We are going to 
fastly approach that. I guess the numbers the last 3 years or 
that trendline, if that continues, we are going to shut the 
forests down. That argument is going to be over. I was just 
surprised when I looked at these numbers and saw the 
percentages and that trendline. Do you want to comment on that 
line at all?
    Mr. Dombeck. Our policy is certainly not--I agree with the 
proponents of zero cut. We have got----
    Mr. Peterson. You agree?
    Mr. Dombeck. I disagree.
    Mr. Kolbe. You said ``agree.''
    Mr. Dicks. Freudian slip.
    Mr. Dombeck. Fiber use in the United States goes up about 1 
percent a year on the average. We are using about five times 
the paper per capita today than we did in 1950. So the demand 
continues to increase. There has been progress made. The 
efficiency in the use of material has increased significantly. 
The fiberboards, the paper processing technologies, and the 
work that our Forest Products Lab that you also fund has been 
just absolutely phenomenal.
    We have got to get beyond the cut and no-cut policy debate. 
I believe that the way we get beyond that is to focus on the 
desired future. Nobody wants a forest--not many people want to 
look at clearcuts. We do very little of that. They also do not 
want to look at forest health problems and they don't want to 
look at a forest that has been destroyed by a fire. We need to 
work more for the utilization of the utility woods that are out 
there, the literal dog hair stands in the Intermountain West 
that are forest health fire problems, the urban/wildland 
interface, and all of these issues. I believe we will get there 
by focusing on setting goals because the debate over how much 
we cut or do not cut, I think the trendline shows us that 
social debate has not gotten us anywhere.
    Mr. Peterson. Do you see this trendline continuing?
    Mr. Dombeck. No.
    Mr. Peterson. You do not see it continuing going down?
    Mr. Dombeck. No.
    Mr. Peterson. I do not remember you predicting it last 
year.
    Mr. Dombeck. Things like increased investments and things 
like forest inventory and analysis. In fact, I just signed an 
agreement yesterday with the National Association of State 
Foresters to really focus on the broadest inventory needs of 
the 700 million acres of forests in the United States that will 
help private landowners, Forest Supervisors, District Rangers 
as we take a look at the interplay. Because when we reduced 
harvest in the Pacific Northwest to respond to the issues there 
a decade ago, that demand did not go away. That demand was just 
placed somewhere else. We as a society, as a Nation with the 
best science in the world have got to be able to apply that in 
a way that we can move forward. We have got to also make 
investments. That kind of gets into the incentive systems on 
what drives an agency and things like that. But I think we have 
got to do better.
    Mr. Peterson. I hope in the future years there is less 
interference and you can run your department as a scientist, 
would be my hope for you.

                       MANAGEMENT ACCOUNTABILITY

    Back to the management thing which we are really here to 
talk about today. I did not really intend to talk about that. 
You have spoken strongly about holding managers accountable. I 
guess my having worked in government for a long time, do you 
really have the ability to hold them accountable? Do you feel 
as a manager you have the ability? Because in the private 
sector when results are not there, somebody gets fired. That is 
what happens. In the government that does not happen very 
often. That is not easy to do. That makes the most lasting 
impression, when people know that their job is on the line if 
they don't reach this goal. Do you have the adequate ability 
to--I know you are capable, personally--but do you have the 
ability in this structure to manage that way?
    Mr. Dombeck. My view is--and I spend a lot of time talking 
to private sectors CEOs as we work through this--there are two 
significant differences with government. One is we do not have 
the ability to spin off our losers, if you will. In a typical 
private sector firm, a CEO would tell me a leveraged buyout 
generally results in a 25 percent savings. You restructure, you 
spin off things that are not your core mission or that have 
been nonprofitable, and you keep moving forward. That is one 
important point. We do keep on adding things to the plate of 
the government employee, the Forest Service employee; and, in 
fact, the Forest Service is 12,000 employees smaller today than 
it was in the early 1990s. In this area of financial management 
we are talking about here, the agency reduced 1,300 employees. 
So it seems to me that adding 150 or so to pick up the slack 
even for a period of time to get a clean opinion and off the 
high-risk list is probably a pretty good investment.
    We do not have the ability to incentivize. The dialogue 
that occurred here earlier about the competition with the 
private sector and high tech, we cannot pay--I talk to my 
nieces and nephews, and they tell me what their starting wage 
was, and I am just absolutely amazed. That is a challenge. Even 
when I move managers as Chief or the Deputy Chiefs who talk 
about moving managers, I get questioned by Congress, I get 
questioned by constituency groups. It is a very complex dynamic 
that is designed to be slow and is.

                            SYSTEMS ADEQUACY

    Mr. Peterson. Can you purchase system service? Where maybe 
you cannot in your structure get to where you want to be for 
information systems, can you purchase some of that interimly or 
ongoingly so that you can have people furnishing you with the 
kind of data that you need to manage? Do you have the ability 
to do that?
    Mr. Dombeck. Yes. We feel on the system side of things we 
are in good shape with the hardware side of things. The other 
part of this that is important to realize, especially with 
response to some of the dialogue between Mr. Dicks and 
Vincette, 3 years ago we had 800 data entry points, 40 systems 
unconnected and we do somewhere in the neighborhood of 75 
million to 100 million transactions a month. What we need to do 
is bring all of that together so that we have the adequate 
information to make business-based decisions. It took Jack 
Wells 10 years at GE. And that was not as complex.
    Mr. Peterson. My only advice is you have got to be tough. 
It is not easy.
    Mr. Kolbe. Thank you, Mr. Peterson. Mr. Kingston.

                      AGREEMENT WITH STUDY REPORT

    Mr. Kingston. In terms of the accounting report, youhave 
seen it in its entirety. How much of it do you agree with on a scale of 
one to 10, 70 percent, 100 percent, 3 percent?
    Mr. Dombeck. The Academy report? I would say most of it. 
The piece that I think there are some differences on is on the 
organizational structure. I am reluctant to throw too much of 
the organizational puzzle in the air because of the distraction 
that would occur. For example, we had a Coopers and Lybrand 
study about 3 years ago, now PriceWaterhouseCoopers. They 
recommended that we move closer to a private sector model, put 
business management and resource management on an equal plane. 
We established the first-ever Chief Operating Officer position 
to deal with the business side of this, to be the Chief's alter 
ego and drive this issue with a high level of priority and 
focus on accountability, because the resource controversies 
have sapped so much of the energy out of the organization that 
oftentimes the business side went unattended while we were 
dealing with the forest fires or the debates over endangered 
species or other things that would occur.
    My view is we ought to stay that course at minimum until we 
are off the high-risk list. I think to do anything to diminish, 
to signal the diminishment of the importance of accountability 
and business management might not be helpful at this time.
    Mr. Kingston. I am not exactly sure what that means, all of 
that; but I guess my question is, you agree with most of the 
report which is very important----
    Mr. Dombeck. Yes, very much so. In fact, we are very 
pleased.

                 TIMELINE TO IMPLEMENT RECOMMENDATIONS

    Mr. Kingston. How soon do you think you can implement the 
recommendations, and do you have a timeline for that? Do you 
have a management plan to say, okay, of the 10 suggestions we 
are going to have this many done by June, this many done by 
December?
    Mr. Dombeck. Yes. As a matter of fact, you might have that 
in your background, if not, we will provide this to you, our 
response in the timetable to the academy study. We need to move 
as quickly as we can because we did something that--there was 
some consternation within the agency over that, and that is to 
move toward the implementation of a Primary Purpose Principle. 
In other words, what is the purpose of a project? One of the 
reasons that we--that greatly simplified some of the accounting 
systems to be able to do that. Let me just--Hank, do you have 
the chart? I would like to--this is an important example. This 
is an example of a project on the Willamette National Forest. 
The total cost of it was about $97,000. When we looked at the 
old system and the means of accounting for one employee, we 
have payroll processing charges. We charge it to various 
programmatic functions. We have to do deductions for salary, 
life insurance, health benefits, retirement, Social Security, 
and for hospital insurance. You charge that to 15 line items, 
that is 90 transactions. There are 30,000 employees in the 
agency, and we have got 26 pay periods. To somehow streamline 
that accounting procedure and tie the accountability to 
performance measures is the way to simplify the system to talk 
about the outcomes.
    This is the kind of position that I expect the Forest 
Service to be in. This is the level of customer service I 
expect. It was mind-boggling to me when I came into this job 
that we could possibly have 100 million transactions a month 
until people sat down and explained to me how that could 
possibly be. We have to fix it.
    Mr. Kingston. I am glad you are doing that. I think that is 
the right approach. I also think that this committee would 
appreciate periodic updates about what you are doing. You do 
seem sincere about wanting to change things and get it on the 
right track, and we are glad that you have that attitude rather 
than the bunker mentality.
    One other thing. I was channel surfing this morning. 
Petroleum prices are at a high, a huge increase. Secretary 
Richardson is running out to grandstand on it--excuse me, to 
make some important announcement. Lost in the shuffle is the 
fact that this time last year petroleum prices were at an all-
time low. If you look at it in comparison to other products, 
almost in any product over 20 years, they are really almost 
flat.
    I am not carrying any water for petroleum, but the press 
will not report that. In your business they won't ever report 
why cutting down trees is good for trees and why thinning out 
forests or salvage is important. Yet we know--and I do not have 
a tree farm, but my family has a tree farm on my wife's side. I 
just thought I would point that out if she was here. But the 
point is that I do not know that I see you guys out there 
fighting back in the PR war. I see you, as Mr. Peterson said, 
doing a little more cowering than we would like. I do think you 
are fighting at that legalistically, but you are not doing 
the--here is an example of a forest fire that took place 
needlessly because we were not allowed to be good stewards of 
the land.
    What I would love to see you do is put a portion of your 
budget into that kind of educational process because you do 
know the business and you do have a lot of professionalism. I 
think that that could kind of sell the public, but it is an 
important communication, education priority. So that is just my 
two cents.

                         Conservation Education

    Mr. Dombeck. I would like to respond on one point that I 
know Mr. Peterson and the chairman have talked about a lot and 
that is this question of education. The Federal programs had 
reasonable education programs in conservation-building. Those 
were, in the last couple of decades, in the 1980s, reduced. So 
if we ask ourselves then how is it that a society makes their 
decisions and what are their perceptions when they see things, 
where do they get that information from, who tells them, who 
helps them establish that? Our capability with regard to 
education is not even close to what it should be because the 
fact is we have the best science in the world.
    Mr. Kingston. You have science and you have credibility. I 
think that you really should be more proactive on it. I will 
yield.
    Mr. Peterson. I guess I would question whether you would be 
allowed to argue sound science when it comes to forestry. Maybe 
I am wrong, but I think the powers above you would have your 
head.
    Mr. Dicks. No. I would respectfully disagree with that. I 
think--if the gentleman would yield, they are trying to make a 
science-based decision about what is best for the ecosystem. 
And that is a little different. Out in the Northwest, when the 
decisions really came down to it, it had to bescientifically 
credible and legally defensible, in my judgment.
    Mr. Phillips. I would just like to add that I think every 
national forest in the system has a conservation education 
program, an active one. As you probably know, the news media 
likes to report on controversial things. We do the best we can 
in getting the message out. In Congressman Taylor's district 
where we have to create a little forestry, I think they are 
doing a wonderful job in trying to get that message out not 
only there but creating the learning needs and teaching tools 
that other national forests and other schools can use.
    Mr. Kingston. But let me give you an example. The average 
person has no idea why, particularly in the East, why you log 
in national forests in the West because they think they are 
synonymous with national parks. I would say on a macro-level we 
in Congress, we in society, you as an agency, we are not 
getting that out as well as we need to.
    Mr. Chairman.
    Mr. Kolbe. Thank you. Let me get in a couple of things that 
I have not had a chance to talk about here. First of all, I am 
pleased to hear your commitment to acceptance of some of the 
reforms that are suggested by the GAO and by the NAPA studies. 
Your embracing it I think is very good. Certainly, it needs to 
be done. You have got a NAPA study that starts off with the 
sentence that says, ``The U.S. Forest Service has lost 
credibility because of persistent management weaknesses, 
financial and accounting deficiencies, problems with the 
relevance and veracity of its data, and the poor quality of its 
strategic planning.'' That is a pretty damning indictment, and 
I appreciate the fact that you have embraced making some 
changes.

                     Assurance to Implement Change

    My first question is what can you say to me that will give 
me some assurance--this goes to what Mr. Peterson was saying 
earlier when the GAO was testifying--that this just is not 
going to get swept away with the change of administration, that 
these changes you are talking about are going to be filtered 
down, inculcated into the fabric of the Forest Service, that 
they are going to continue?
    A new Administration might have a different approach to 
resource management, but it should not be a difference with 
regards to these kinds of administrative financial data and 
protections safeguards. It should not have any effect on these 
kinds of things. Can you give me an assurance that this is not 
going to get swept aside by another new administration?
    Mr. Dombeck. I think the assurance is to inculcate and 
integrate the changes that are needed within the agency itself. 
We have literally trained hundreds of managers in business 
practices. We are routinely preparing business management plans 
like this one for our projects to ensure that a thought process 
associated with the business side of this is moved forward with 
that. We have got the FFIS, the hardware in place, the general 
ledger in place, the real property inventory, a chief financial 
officer that came to us from the Customs Service that managed a 
$22 billion program there, a variety of things. I could go on. 
The performance measures will for the most part remain in 
place. What could change are the balances and the resource 
philosophy. Those I view--the way they would impact on the 
accountability management side would be very, very minimal.

                       Financial Statement Audits

    Ms. Goerl. Could I add something? I think one of the good 
things about the financial reform, especially the CFO act, is 
they require financial statement audits. That is a reason why a 
lot of these problems have come to the table in many agencies 
is that we were not having an annual review of that data and 
systems and internal controls. With that came the first adverse 
and disclaimers in many agencies. They had to go back and 
improve. I think the discipline of that every year is going to 
bring it to the table very publicly once a year as to whether 
or not you have maintained that fiscal attention to that side 
of the house.
    Mr. Kolbe. I appreciate that. I certainly hope you are 
right. I am going to remain skeptical and one of the reasons is 
what I see in the field and on the ground. You in your opening 
statement refer to the need for the Forest Service to be quick 
and nimble, but let me give you an example of where I think it 
is very unquick and very unnimble.

                             Sabino Canyon

    The forest that I represent is one that is heavily into--we 
do not have timber cutting at all, but heavily into recreation. 
We have an area as you know right at the edge of Tucson called 
Sabino Canyon, where I think close to a million visitors a year 
come to visit Sabino Canyon, really a wonderful place. We have 
tremendous difficulties, as you know, with the problem of the 
sale of T-shirts by outside groups in the parking lot there at 
Sabino Canyon. You have an organization that supports your 
objectives by the Friends of Sabino Canyon, which raises money 
in the visitor center; but they are being undercut by these 
other organizations that set up tables and sell goods, all 
kinds of goods, T-shirts and other things out there.
    Now, we have suggested that you ought to put a stop to 
this. Congress has given you the authority to regulate, quote, 
``Occupancy and use of the National Forests.'' You have your 
own regulation; I think it is section 261.10 that prohibits, 
quote, ``Selling or offering for sale any merchandise and 
commercial distribution of printed material,'' unquote, without 
authorization. And the courts of course have said that that 
time, place, manner, regulations of expressive conduct of 
speech are permissible. So you have legislative, executive, 
judicial branches all saying you can regulate this. But all we 
hear from the Forest Service is why it cannot be done.
    Now, here on the Mall this ought to be the place of all 
places where free speech would prevail. The Park Service is 
quite able to regulate these sales on the Mall and have done so 
over the objections of some people, and I think have done it 
appropriately. Yet we keep hearing from you why for speech 
reasons you cannot get it done. So we are still faced with this 
thing. I would just like to know, do you have any plans to have 
a regulation that is going to be written in this area and how 
quick and nimble are you going to be about this?
    Mr. Dombeck. I am not intimately familiar with the issue 
and the legal ramifications of it, but what I will do is have 
an analysis of that done and get back to you, I would say 
within 2 weeks.
    Mr. Kolbe. The Forest Service has obviously asked for this, 
your superintendent has asked for this and told, of course, 
by--that Washington is holding it up or they cannot do it or 
they cannot figure it out or they cannot do it because of free 
speech, even though you have a clear regulation that permits 
you to do it. It suggests to me that quick and nimble is what I 
am not seeing from the Forest Service.
    Mr. Dombeck. And I would agree with that.

                          ETHNOGRAPHIC STUDIES

    Mr. Kolbe. Switching topics here in terms of something of 
vital interest to us in Arizona and this is--I am sorry Mr. 
Regula is not here--still vitally interested in telescopes on 
Mount Graham and the LBT we are hoping to build up there. You 
have an--I think you call it an ethnographic study that is 
being done of that forest. I guess my questions along those 
lines are what is the purpose of this study and is it being 
done Forest Service-wide, nationwide? Do you know what we are 
talking about, these ethnographic studies?
    Mr. Dombeck. I do not. Let me ask staff if they are 
familiar with the issue. I am familiar with Mount Graham. It 
has been in the news for a lot of years. If not, we will 
provide--again, we will dig into that and get back to you.
    Mr. Kolbe. I am not trying to catch you; I am just 
surprised. Mr. Phillips, can you not----
    Mr. Phillips. I am not aware that we are doing anything 
nationally.
    Mr. Kolbe. Staff has just suggested you may know it by the 
term the Native American study? That doesn't help either?
    Mr. Dombeck. No.
    Mr. Kolbe. You say it is not being done nationwide?
    Mr. Phillips. I do not know that it is.
    Mr. Kolbe. Now I am getting curiouser and curiouser as to 
why we are doing the study on the Coronado. The superintendent 
says it is being done for the entire forest but he is starting 
with Mount Graham. I guess he has told us that it is based--
well, there is an executive order, 13007 from 1996, May 1996, 
that refers to protection of cultural and Native American 
assets on public lands. You can't tell me whether this is the 
authority that you are using to do this study?
    Mr. Phillips. As part of our regular program we do surveys 
across our units to gather better information on locations of 
Native American sites. That may be what they are doing. I will 
have to ask the Forest and see what it is in relation to.
    Mr. Kolbe. Let me just give you some of the questions 
that--I will submit them for the record, but I will just tell 
you here that I would like to know what is the authority you 
are using to proceed with this. Is it being done nationwide? 
What is the purpose of the study? Do you have regulations to 
implement this once it is done? Or once it gets implemented, 
what do you do with the information once you have it? I would 
like to know how many sites are being studied across the 
country and what local input do you get into these studies. 
There is a grave concern in the community that is most affected 
by this that they are not going to be consulted at all on this 
study that is being done. So those are some of the questions 
that I would like to get some answers to.
    Mr. Dombeck. We will be happy to take care of that.
    Mr. Kolbe. Thank you. Mr. Dicks.

                     INFORMATION SYSTEMS TECHNOLOGY

    Mr. Dicks. Let me just ask you a question in your budget on 
14-43. It talks about information systems technology 
modernization. Then it goes through various areas, part 1 data 
on information technology systems by mission area, develop 
modernization enhancement on page 14-43A, $000; but then it 
says ``Steady State, SS.'' It says $12.2 million, $9.4 million, 
$9.6 million.
    Can you explain that? What is that all about?
    Mr. Dombeck. I will ask the staff.
    Ms. Goerl. I would rather go. I can speculate that that is 
the maintenance and--operation and maintenance for the----
    Mr. Dicks. It says mission area of one, financial 
management, major information technology, thin cast, buds 
ledge, part of central accounting system; and then it says 
subtotal information technology cost, and then there are these 
totals. Then it goes-you see there, next it goes appropriation, 
funding source; and then it goes through brush disposal, 
cooperative work, forests--all of various categories.
    Ms. Goerl. That is the distribution of those funds to 
support that against those particular total IT costs. That is 
how we allocate----
    Mr. Dicks. But Steady State, does that mean the amount of 
money just to pay for the systems that are there?
    Ms. Goerl. Yes. It is a combination of how we provide funds 
to the Department for some of these systems for operation in 
the past and the current system budget where part of the old 
accounting system that we still payed for in fiscal year 1999. 
We will still pay for a portion of those feeder systems that 
feed into that for the future, and that goes to the USDA for 
those particular activities, as part of those costs we provide 
to the Department where they provide those services at the 
National Finance Center. They manage the central accounting 
system.
    Mr. Dicks. Then you have then, FFIS, Foundation Financial 
Information System, which we have been talking about, 
development modernization enhancement, $16.3 million, $10.8 
million, $11.88. And then Steady State, $5.25, $11.89, $12.58.
    Ms. Goerl. That is a combination where we shift from the 
older system and we move into the new system that is partly for 
development of additional modules, which we are still 
implementing, financial system which includes some of the 
issues that I talked to you earlier about and as well pays for 
the operation and maintenance cost both in the agency and at 
the Department.
    Mr. Dicks. When you add this all up, Steady State in 1999 
is $158.08 million; 2000, $167.2 million; 2001, $168.1 million. 
And it says, total all information, IT cost of--you have got 
development and modernization enhancement which is $144.2, 
$143.2, $139.8, but the totals are for fiscal year 1999, $302 
million; fiscal year 2000, $310 million; and fiscal year 2001, 
$307 million.
    Ms. Goerl. That is for all systems, not just financial. 
Those are for all systems in the agency.
    Mr. Dicks. It sounds like this is just information 
technology.
    Ms. Goerl. For information technology and data systems, 
which would be everything from hardware, software, 
telecommunications, all of those particular activities.

                             FEEDER SYSTEMS

    Mr. Dicks. I guess the point--and I will bring this to a 
merciful end--I mean, that seems to me like a lot of money. And 
you are still saying that it isn't enough to do the job, that 
there is still additional things to take care of the feeder 
systems that are not included in these numbers? Is that how I 
understood your previous testimony?
    Ms. Goerl. I would say in the future years. I said we have 
the funds for what we had planned to do in our budget for 2001.
    Mr. Dicks. I know, but if it doesn't take care of replacing 
these feeder systems that are providing inaccurate information 
that make the whole result questionable, then you haven't got 
what you need to do the job now.
    Ms. Goerl. We have what we need to do for this fiscal year 
and next. As we develop the 2002 budget, we will look at 
whether we have to shift funds and to--or to ask for more funds 
to provide for those activities in 2002. When we looked at the 
budget here, we believed there is enough there for the planned 
activities that we have agreed to for 2000 and 2001. And they 
include things that I suggested, like the infrasystem and 
making adjustments to that to make it stand a general ledger--
to meet those requirements. That is in our budget. Actually, we 
are going to do that in 2000.
    Mr. Dicks. Could you then submit for the record a memo 
which outlines what additional needs you have that are not 
budgeted for?
    Ms. Goerl. We can certainly provide that for the record.
    Mr. Dicks. Thank you. Thank you, Mr. Chairman, for your 
patience.
    Mr. Kolbe. Thank you very much, Mr. Dombeck, Ms. Goerl, Mr. 
Phillips.
    Mr. Dombeck. Thank you. I appreciate that. BLM got a clean 
financial audit in 1997, 1998, and 1999.
    Mr. Dicks. Good, but that does not mean much, is what we 
have heard. You can still have a clean financial audit and 
still not have your performance things in place, right? I do 
not want them to look that much better than the Forest Service.
    Mr. Kolbe. The subcommittee stands adjourned.
    [Additional questions for the record and the NAPA report 
follow:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Tuesday, March 28, 2000.

             U.S. FOREST SERVICE, RESEARCH AND DEVELOPMENT



                               WITNESSES

KEN ARNEY, TENNESSEE STATE FORESTER, NATIONAL ASSOCIATION OF STATE 
    FORESTERS
WILLIAM H. BANZHAF, EXECUTIVE VICE-PRESIDENT, SOCIETY OF AMERICAN 
    FORESTERS
DR. LINDSAY R. BORING, DIRECTOR, JOSEPH W. JONES ECOLOGICAL RESEARCH 
    CENTER AT ICHAWAY, GEORGIA
DR. PERRY BROWN, DEAN, UNIVERSITY OF MONTANA SCHOOL OF FORESTRY AND 
    PRESIDENT, NATIONAL ASSOCIATION OF PROFESSIONAL FORESTRY SCHOOLS 
    AND COLLEGES
MITCH DUBENSKY, DIRECTOR OF FOREST RESEARCH, AMERICAN FOREST AND PAPER 
    ASSOCIATION
DR. ROBERT L. LEWIS, DEPUTY CHIEF, FOREST SERVICE
DR. BARBARA WEBER, ASSOCIATE DEPUTY CHIEF
 DR. THOMAS J. MILLS, STATION DIRECTOR, PACIFIC NORTHWEST RESEARCH 
    STATION
DR. PETER J. ROUSSOPOULOS, SOUTHERN RESEARCH STATION DIRECTOR

                      Mr. Regula's Opening Remarks

    Mr. Regula. We will get our hearing started. I think we 
have a very interesting topic today. Certainly science is much 
in the forefront, whether it is on medicine or elsewhere. I 
think for the Forest Service, it is probably something we need 
to focus on more. Considering the fact the Forest Service has 
about 192 million acres. I was interested watching TV this 
morning when in Alaska they are having a real problem with some 
type of insect. A beetle, I believe, has destroyed three 
million acres according to the story, and again it illustrates 
the vital role that science can play. We probably don't get 
into the human dimensions of scientific effort, but then those 
people in Alaska are out of jobs, and as the story pointed out, 
all of the dead forests are enormous fire hazards. It is 
important that we focus on that, and the role science can play.
    We have today very capable people representing many 
different facets of the forest industry to share with us their 
outlook on the use of science in the Forest Service, and we 
very much appreciate your coming and look forward to your 
testimony.
    Mr. Dicks.
    Mr. Dicks. I have no comment except to say that I want to 
welcome the panel, and I think this is going to be a very 
interesting hearing, and I look forward to hearing from all the 
witnesses. Thank you.
    Mr. Regula. Our first witness today is Mr. Arney, the 
Tennessee State Forester, representing the National Association 
of State Foresters. Congressman Wamp contacted me this morning, 
and he wanted me to let you know that he is detained in his 
district and to give you a warm welcome and apologize for his 
not being here this morning. There are issues you must take 
care of back home and that always comes number one.
    So, Mr. Arney, we are happy to welcome you, and we look 
forward to your testimony. I thought if we could have about 
five minutes from each of you then we will go to questions, and 
we will put your full statement in the record. So however you 
want to summarize, we will welcome your comments.
    Mr. Arney.

                      Mr. Arney's Opening Remarks

    Mr. Arney. Mr. Chairman, members of the committee, I 
appreciate the opportunity to appear before you to talk about 
forest inventory and analysis in this country. As you said, I 
am the State Forester from Tennessee and serve in the capacity 
of Director of the Division of Forestry in our Department of 
Agriculture there in Tennessee, and we appreciate your 
oversight of the Forest Service budget and for your 
consideration of issues that we will put before you.

                     Forest Inventory and Analysis

    Specifically, I want to take this short committee testimony 
time to focus on the Forest Inventory and Analysis Program. 
This program is administered by the research branch of the 
Forest Service, as we know, and mostly funded by the research 
grants but also the National Forest System and the State and 
private branches contribute to the forest inventory program.
    I serve on the forest inventory and analysis executive team 
for the Forest Service. I am one of three State foresters on 
this executive team. This team makes recommendations to the 
Deputy Chief and Chief of the Forest Service on forest 
inventory issues nationwide. I also serve as chairman of the 
Southern Group of State Foresters currently, and this is the 
regional organization of the National Association of State 
Foresters.

                         Forest Sustainability

    In my region of the country there are concerns about water 
quality, impacts on timber harvest, over harvest of timber 
concerns, concerns about wildlife impacts from timber harvest, 
or to put it simply, forest sustainability. In our Tennessee 
legislature, for example, this year we had 14 bills relating to 
forestry. To say that forestry is on the minds of Tennesseans 
is putting it mildly. They are greatly interested in forest 
issues.

                       Southern Forest Assessment

    In the South, because of forest sustainability concerns in 
13 southeastern States, we now have underway a southern forest 
assessment. Information critical to this assessment is forest 
inventory and analysis data.
    FIA started in the South in the 1940s and information has 
been published on approximately an 8- to 10-year cycle since 
that time. This 8- to 10-year cycle is simply not adequate 
considering the rapid change to the forest landscape from 
harvest to conversion from other uses and so forth. Information 
on the forest resources is so critical that many of the 13 
southeastern States are starting to put State dollars into 
forest inventory and analysis. In Tennessee, for example, we 
have reprogrammed about $200,000 to finance nine full-time 
professional positions to work in forest inventory.
    FIA in the South has truly evolved into a State-Federal 
partnership, with the States collecting most of the field data 
and the Forest Service serving in the role of quality control, 
data processing and analysis, as well as publishingthe reports. 
State agencies in the South are contributing approximately $2 million 
to forest inventory and analysis, and also States in other regions of 
the country are contributing as well. For example, in the north, 
central and eastern regions in the country they are contributing 
approximately $1.2 million to FIA.

                      Memorandum of Understanding

    Recently, the Chief of the Forest Service and the President 
of the National Association of State Foresters, Stan Adams, who 
is also the State Forester from North Carolina, signed a 
memorandum of understanding, and we feel like this is a major 
step. We trust that the Forest Service will live up to the 
commitments in the MOU, and we look forward to implementing the 
MOU.

                             Budget Request

    The administration's budget request for FIA is strong, but 
we feel like that it is not strong enough to secure the total 
dollars needed that are in the business plan for Forest 
Inventory and Analysis from the Research Branch. I think there 
is $31.7 million in the budget. We feel like we need $39.7 
million--$31.7 in the budget. We need $39.7 to carry out the 
program.
    I know of no other Forest Service research program that 
enjoys such broad-base support in the forestry community and 
among other interest groups. With many States stepping up to 
the plate, what was once a 100-percent drain to the Federal 
treasury is now an evolving partnership that leverages many 
other dollars. For forest sustainability purposes, we must have 
accurate and timely information. FIA is that game and there is 
simply not another game in town that will provide uniform data 
across all landownerships and across all States.
    Your support of the Forest Service FIA of a $39.7 million 
funding level will be greatly appreciated. As more States come 
on line with annualized inventories, the dollars available for 
the Forest Service to partner will diminish, making the States 
carry a heavier financial burden down the road as more States 
get into the annualized inventory program. Also, additional 
dollars are needed to invest in new technologies thereby making 
forest inventories more accurate and effective, and I 
appreciate your time very much.
    [The statement of Mr. Arney follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                        Tennessee Forest Acreage

    Mr. Regula. Thank you. How many acres of forest do you have 
in Tennessee?
    Mr. Arney. About 13\1/2\ million acres of forest in 
Tennessee.
    Mr. Regula. And what percentage of the State's land does 
that represent?
    Mr. Arney. That is about 50 percent of the State's land.
    Mr. Regula. It is a major component then.
    Mr. Arney. It is, and most of it is privately owned. There 
is very little public ownership of forestland in the State.
    Mr. Regula. Our next witness is Mr. Banzhaf, is that right?
    Mr. Banzhaf. That is right.
    Mr. Regula. Mr. Banzhaf is Executive Vice President of the 
Society of American Foresters. We welcome you and look forward 
to your comments.

                     Mr. Banzhaf's Opening Remarks

    Mr. Banzhaf. Thank you, Mr. Chairman. It is a real pleasure 
to be here this morning. I have always enjoyed this rather 
intimate setting across the table. I think it lends itself to 
good discussion. I will just take a few minutes to summarize 
some of the key points we would like to make. You have a copy 
of our written testimony.

                           Long-Term Research

    In terms of setting research priorities, we believe that 
the Forest Service is particularly well positioned to focus on 
long-term research, research that is badly needed when you are 
looking at ecosystems that are very long lived. They are not 
necessarily constrained by the short-term economics that the 
private sector needs to be in responding to their stockholder 
needs.
    Additionally, the Forest Service is one of the few 
organizations that has both the trust and the credibility 
needed to address research on multi-ownerships, not only public 
but private, and in that industrial private forestland sector 
is a particular area where they have a great deal of 
credibility and opportunity.

                       Natinoal Research Council

    We see a key problem in the area of research reflected by 
the results of a study done with the Forest Service and the 
National Research Council, which pointed to the real lack of 
depth in terms of personnel and research. A rather tragic 
example of this is the recent death of Dr. Tom Birch, who spent 
his life, a short one at that, in researching industrial 
private forestland information, management attitudes and was 
very important in understanding that sector. In his passing, 
there really isn't anyone to take his place.

                         Collaborative Efforts

    A potential solution that we might look at, and I know will 
be discussed by other panelists this morning, is increased 
collaboration with universities, industry and other 
institutions. I think the Forest Service has a pretty good 
track record in that 13 to 15 percent of their current research 
budget is allocated to collaborative efforts, but in today's 
world where we are looking at research that crosses boundary 
lines, we believe that this could be increased quite a bit, at 
least perhaps another 5 percent.

                     Forest Inventory and Analysis

    The second point we would like to mention, the forest 
inventory and analysis, and Mr. Arney mentioned their support 
of it. We have been a strong partner with NASF and believe that 
it is truly our top funding priority for the fiscal year 2001. 
It truly is the census of the forest. To be able to manage our 
forests sustainably, we need to know the condition of those 
forests and the extent of those forests. It is the baseline 
information upon which all research and management decisions 
need to be based.

                      Memorandum of Understanding

    We are very encouraged by the collaboration between NASF 
and the Forest Service that led to the memorandum of 
understanding. We are very excited by the strategic plan that 
the Forest Service has developed that links the FIA to the 
forest health monitoring program and also proposes an 
additional $8 million annually for the next 3 years to 
implement the increased need for this information. 
Unfortunately we do not believe that this understanding or 
support in terms of emphasis lies with the administration. The 
President's budget basically continues the emphasis as it was 
over the last 2 years and does not reflect the need for 
increased information or for that matter the strategic plan 
developed by the Forest Service.

                          Restoration Research

    The third point of emphasis that we would like to talk 
about is restoration research. Mr. Chairman, you mentioned 
briefly this morning the condition of some of the forests in 
Alaska. We have some 40 million acres, according to Chief 
Dombeck, on the National Forest System that is in need of care. 
Much of this in terms of the risk from fire and insects can be 
addressed simply by removing small-diameter material, but this 
is a very expensive and costly operation, and what we are 
suggesting is that we need to have continued and increased 
research in utilization of small material. The Forest Products 
Lab in Wisconsin has done an outstanding job, but they need to 
do more.

                        Social Science Research

    Finally, one other note, I would like to comment on some of 
the recent criticisms the Forest Service has received with 
regard to allegedly paying too much attention to social science 
research. We strongly disagree with this. As long as the Forest 
Service describes the impacts of their decisions only in terms 
of the biological environment and does not include the effect 
those impacts will have on people, we are going to have bad 
decisions. We really believe that one might say that the lack 
of social science research has led to a disconnect between some 
Federal agencies and the communities they serve, and we hope 
you will address this.
    Finally, obviously we are talking about a very complex 
system, and we hope that your subcommittee will recommend an 
increase in the President's budget. Thank you.
    [The statement of Mr. Banzhaf follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                      Mr. Boring's Opening Remarks

    Mr. Regula. Thank you. Our next speaker is Dr. Boring, who 
is the Director of Joseph W. Jones Ecological Research Center 
at Ichaway, Georgia. We are happy to welcome you, Dr. Boring.
    Mr. Boring. Thank you, Mr. Regula.
    Mr. Regula. Excuse me, is this part of a campus, a college, 
a university or is it a stand-alone facility?
    Mr. Boring. We have a lot of affiliations with agencies, 
both State and Federal, and we have adjunct departments at 
universities, but we are independent. We are supported by the 
Robert W. Woodruff Foundation based in Atlanta. I believe our 
folks have done some work with you on the Chattahoochee River 
Corridor.
    Mr. Regula. That is correct.
    Mr. Boring. So we have a keen interest in all these 
resource-based issues. We are actually located on a 30,000-acre 
research site, which was a former shoot plantation of the late 
Robert Woodruff, who was the Coca-Cola chairman many years. So 
that is our core funding and we are located in southwest 
Georgia, and really our mission is to utilize the property and 
the funding for programs and research, educational and 
conservation programs related to good stewardship of forest, 
wildlife and watershed resources. So we are independent and 
self-contained but well affiliated.

                     Forest Service Research Niche

    One thing, we are sort of an unusual niche and I would like 
to address real briefly just the research niche of the U.S. 
Forest Service. I think it occupies a very unique niche in this 
country, and I would very strongly endorse some of things that 
Bill referred to about the importance of these programs and how 
we need to support those, especially some of the nonindustrial 
private sector work that they do. It is very unique from the 
traditional university-based research and very unique from a 
lot of the industrial and private sector research, which tends 
to be very niche focused. So a very important point.

                      Long-Term Funding Continuity

    And another point relative to that is we really can't 
overstate the importance of providing the long-term continuity 
of funding in support for all forest and watershed research, 
and when we define and manage forest research goals, to really 
get substantive answers and really rigorous science takes 
several years, through climate cycles and many different 
conditions. As complex as the forest is and as many years as it 
takes to grow, it has a lot of influences and environmental 
factors revolving around things we are looking at, whether it 
is water or productivity of the forest, and other research 
disciplines such as agriculture, which we all interact with a 
great deal, have to keep in mind that agricultural research is 
working with plants that grow during one season under much more 
controlled conditions. If we are looking at a forest that may 
be uneven-aged--if it is even-aged then that rotation length is 
going to span several decades. We have got to be mindful of the 
uniqueness of research approaches being long term.

                          Benefits of Research

    Some of the benefits of past Forest Service research, I 
couldn't even begin to enumerate. Even within a couple of 
programs I know well, I could expound upon for a couple of 
hours, and so I am not going to try to enter into that. I gave 
three or four good examples here in the testimony, but 
certainly as a southerner I recognize the key role that that 
research has played, not only in really restoring worn out 
farmland from Depression days but building a multibillion 
dollar forest industry throughout the South. At the same time, 
that forestry has really been a key environmental tool in 
watershed protection and wildlife habitat restoration, so we 
need to keep that overview.

                            Leadership Role

    One of the--again, coming back to the long-term themes is 
the Forest Service particularly had a great leadership role in 
research on forest watersheds and their protection, and this 
ensures water quality benefits many, many users, both urban and 
rural. And it has been a natural, given the Forest Service's 
history of managing mountainous national forest lands for 
multiple benefits and, given the location of urban centers, 
they are very dependent upon that watershed protection role.

                           EXPERIMENTAL SITES

    So that research has been very important, and I give 
examples of two or three here. The Coweeta, Hubbard Brook and 
H.J. Andrews programs represent a real broad geographic region, 
and those have been three of the not only finest Forest Service 
sites, but probably three of the finest research sites in the 
entire continent, both in their productivity, as well as their 
longevity. In fact, Coweeta has a 66-year record on hydrology 
that is spanning all kinds of land uses and climatic factors 
and is just an incalculable value to all of us.

                       PRIORITIZATION OF PROGRAMS

    I would like to shift to prioritization of programs. I 
think the Forest Service maintains a very highly credible 
system for determining priorities and working at descriptions. 
They include and regularly use peer review programs, quality 
Forest Service and external scientists. They also include 
extensive input from other cooperators and constituents who use 
their information and they receive that feedback not only in 
periodic reviews but on a very regular basis, day by day, and 
they have a technical advisory visit program which does a real 
fine job in fine-tuning objectives and approaches and working 
with constituents.
    In establishing priorities, I think a key factor is to 
maintain long-term continuity in completing program goals when 
projects are productive, and I would suggest that it would be 
really useful if in the funding process there was a means of 
having some percentage of research resources that could be 
regularly dedicated to serving new and emergent needs rather 
than using a sort of a stochastic redirection of resources from 
established long-term projects and priorities that are already 
there. Easier said than done, but I have a lot of concern that 
some of these programs that are out there could drop beneath 
their critical level of support, and we could lose 60 years of 
continuity of some of these programs.

                        MEASUREMENTS OF SUCCESS

    On measurements of success, there is a traditional metric 
of accountability that deals with publications within the 
research community, and the peer review process is very, very 
important. Forest Service does a pretty good job in that but 
they also realize communication needs to be achieved with a 
broader group than just with the scientific community. So the 
outreach publications are important, and we should also regard 
how well a project's results are linked with educational and 
public service effort as another metric.
    Finally, I would just like to state that in the long-term 
context we should be evaluating whether a program has provided 
visionary leadership toward problem-solving, not just doing 
research to do research, and we should evaluate how it has 
contributed to solving causes as opposed to effects of a 
problem.
    [The statement of Mr. Boring follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                      Mr. Brown's Opening Remarks

    Mr. Regula. Well, thank you very much. Our next panelist is 
Dr. Perry Brown, the Dean of the University of Montana School 
of Forestry and President of the National Association of 
Professional Forestry Schools and Colleges, therefore, you wear 
a couple of hats. We look forward to your testimony.
    Mr. Brown. Thank you, Mr. Chairman. I do represent the 67 
forestry schools and environmental natural resource schools in 
the country and many of our schools work very closely with the 
Forest Service on programs they administer and that we 
participate in.
    I want to talk about three things real briefly. The first 
one is the Forest Service research planning and priority-
setting; the second one, a little bit about non-Federal 
forestlands and research within that area; and final one, 
social science research within the Forest Service.

                           RESEARCH PLANNING

    Let me begin by saying the Forest Service really ought to 
be commended for driving much of its decision-making about 
research planning down to the individual station level. It is 
at that level where there is close contact with the States and 
people in the region, the people that actually manage the 
lands, and so a lot of their decisions are driven to that 
level, and I think that is really important within the Forest 
Service.
    Those regional and station needs get passed up through the 
system, and then they are combined with national needs that 
come from OSTP, from OMB, from various interests and agencies 
and organizations, from the Department of Agriculture, from 
things that come to them, and all of these things get put 
together of course, and then some of the things invariably that 
are station priorities are not in the budget and some things 
are because we certainly have to sort and work with a fairly 
limited amount of money.

                      PRIORITY-SETTING OF PROGRAMS

    One of our major concerns from NAPFSC's perspective has to 
do with this process of priority-setting and feeling that the 
universities often are left out of that, at least at the 
national level, and this is in the face of somewhere between 8 
and 15 percent of the Forest Service funds being spent at the 
universities for the research program, and yet when the 
priorities are set we are not sure that we are always there at 
the table and part of that process.
    We often find that the Forest Service research program then 
is not as coordinated with the research programs in the 
universities as it might be and that could be leading to some 
suboptimal allocation of resources at different times. If there 
is greater inclusion of university scientists and 
administrators in the forest research priority-setting process, 
then it would make it possible for us to be more supportive in 
a more timely way of some of the things I think that they are 
proposing and bringing forward to Congress and asking for 
funding for. Usually when we hear about the overall budget 
process, though, it is after the budget is released and it is 
too late then to engage in actually talking about priorities 
and sometimes a little bit late to really muster our resources 
to help them with their budget.
    Mr. Regula. It is one reason we have you here this morning.
    Mr. Brown. Right. So we are concerned about that and I want 
to make that point.

                    NON-FEDERAL FORESTLANDS RESEARCH

    The second point I want to make has to do with some things 
that are in the 1998 Farm Bill and various reports that have 
come from Congress with regard to issues confronting non-
Federal forestlands, and NAPFSC hosted along with the USDA a 
year ago a summit here in Washington, D.C., bringing over a 
hundred key forestry leaders from across the Nation to talk 
about non-Federal forestlands. Forest Service was a major 
partner in that particular activity, and that particular summit 
confirmed the need for increases in forestry research funding 
focused on these lands and for an increase in collaborative 
efforts between university-based research and the Forest 
Service. There is a lot of capacity we have to focus attention 
on these lands that are owned by over 10 million different 
individuals within the country, and those 10 million owners own 
approximately 60 percent of the forestland in the country.

                           COMPETITIVE GRANTS

    The Farm Bill also called for the Forest Service to set 
aside a portion of its research budget for the competitive 
grants program, and so we urge the subcommittee, I think, to 
work with the Forest Service and to help them fulfill these 
agenda items that are in the Farm Bill with regard to non--
Federal forestlands and the competitive research program that 
is out there.

                        SOCIAL SCIENCE RESEARCH

    Lastly, I just want to make a few comments about social 
science research and natural resources, and I appreciate Bill 
Banzhaf saying something about this as well. There are a lot of 
reasons to do social science research in the Forest Service. 
First, I would say management of our natural resources is 
inherently a set of social processes. People care about natural 
resources for all the different values that they provide. We 
care about them for income, for goods and services, for 
employment, for aesthetics and enhancement of the human spirit, 
for diversity of life and numerous other things.
    Since people make decisions about natural resources we need 
to know about their preferences and demands, about how 
perceptions of and behaviors towards natural resources vary 
from culture to culture and about behaviors associated with 
natural resources. I would say it is simply not enough to 
understand the physical and biological workings of a forest to 
understand how forests can be sustained for whom and for what. 
We have to address the questions who and what. So this suggests 
that we need research from economists, sociologists, 
psychologists, anthropologists, communication scientists and 
others to enhance our understanding of these natural resources 
and why they are important for people and how people use those 
things. If we are truly to provide benefits to people, then we 
need to understand the relationship of those people and the 
connections they have to the natural resources that we have out 
there.
    So finally let me just say I appreciate being here and 
having the opportunity to make a few comments here. NAPFSC 
stands ready to work collaboratively with the Forest Service 
and your subcommittee to make good things to enhance the 
opportunities for forestry research in the Nation.
    Thank you.
    [The Statement of Mr. Brown follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                     Mr. Dubensky's Opening Remarks

    Mr. Regula. Thank you. And our last witness this morning is 
Mitch Dubensky, the Director of Forest Research, American 
Forest and Paper Association. Happy to welcome you.
    Mr. Dubensky. Thank you. I will probably wind up repeating 
quite a bit of what the previous witnesses had to say but put a 
little bit of a different spin on it from a private landowner 
and representing some private landowners in the country. You 
know that AF&PA is the national association of the pulp, paper 
and forest products industry. We represent about 90 percent of 
the private industrial land in the country. We also have a 
sustainable forestry initiative. Out of the 13 objectives of 
the SFI, as well as 28 performance measures, we are committed 
to conducting forest research through collaborative efforts, 
through our environmental research arm, as well as through 
collaboration with our companies and with the Forest Service 
and other Federal agencies.
    The focus of the testimony today has been on FIA and on 
some productive and competitive grants and also the Forest 
Products Lab, and I want to talk a little bit about those 3 
years as well because they are critical to sort of documenting 
the sustainability of our forest resources around the country.

                            LEADERSHIP ROLE

    We do believe the Forest Service does have the unique 
capacity and capability to provide that leadership and to move 
forward and to do a lot of collaborative effort with the 
universities, with academia, with nongovernmental 
organizations, with AF&PA and with others and with member 
companies. We hope we can continue along that process.

                            FOREST ECONOMICS

    Unfortunately, we feel as if sometimes some of the research 
probably is devoted, a little bit oriented away from areas in 
which we can really maintain the industry's global 
competitiveness. A lot of this is economic driven. We are 
competing with the world in the supplying of food and fiber and 
forest products around the globe, and I will just turn to a 
couple of the statements that were made in some of the fundings 
by the Farm Bill back in 1998 where it talked about wood and 
paper producers in the U.S. are being challenged not only by 
shifts in Federal Government policies, but also by 
international competition from tropical countries where growth 
rates of trees far exceed those in the United States or 
uncertainty over the availability of U.S. timber supply, 
increasing regulatory burdens and the lack of wood and paper 
producers to move outside the United States to find reliable 
sources of wood supplies.

                              FOCUS AREAS

    So we are in a position here where we really need to invest 
some dollars within the U.S. and within the Forest Service to 
collaborate and to leverage our dollars to focus on some of 
this forest productivity. Areas include areas like forest 
biotechnology, soil productivity, remote sensing, those kinds 
of areas that are critically important for us to be able to 
compete in the world marketplace.

                         PRODUCTIVITY RESEARCH

    So as my predecessor Dr. Brown talked about the competitive 
grants program, and having a provision like that in the Farm 
Bill back in 1998 does provide that opportunity to really 
leverage and focus on some of the issues, and we agree that 
social science research is important and ecosystem research is 
important, but just the same, productivity research is 
important because we are facing a lot of global challenges.
    As others have indicated, the forest research advisory 
panel's council submitted a report to Secretary Glickman, and 
in that report it talked about the need for focusing forest 
research on emphasizing sustainability, productivity and 
environmental quality across all ownerships, and that is where 
we see a strong emphasis that needs to be placed as we move 
forward in the budgeting process.

                     FOREST INVENTORY AND ANALYSIS

    I will shift a little bit here to talk about the Forest 
Inventory and Analysis Program. Others have talked about it, 
but as Mr. Arney said, it is critical among all constituencies 
who own forestlands across the country, particularly important 
to AF&PA it documents sustainability, it documents criterion 
indicators. It documents acreages of forestland every few 
years, every 5 years. It provides basically the framework for 
estimating timber supply and demand in the United States. It 
provides the forest resources data that the Forest Service puts 
together a book called the Forest Resources Yellow Book, which 
is a compilation of the growth, yield, mortality, health, 
conditions, acreage, ownership, size of forestlands across the 
country.
    Mr. Regula. This is for the whole U.S.?
    Mr. Dubensky. Yes.
    Mr. Regula. Do you have that book with you?
    Mr. Dubensky. I do not but we can make sure you get it.
    Mr. Regula. I wish you would send us a few copies for the 
committee members. It would give you some more reading 
material, Mr. Dicks. That would be one less set of tennis.
    Mr. Dicks. Not for the staff though.

                      MEMORANDUM OF UNDERSTANDING

    Mr. Dubensky. But that is the type of information that is 
collected and it is absolutely critical that we see it be 
collected on a regular basis, on an annualized basis, and the 
one recommendation that we have is that we are fully supportive 
of the memorandum of understanding between the National 
Association of State Foresters and the Forest Service and we 
would certainly like to see that both funding levels be 
appropriated for this year.

                         STRATEGIC PLAN FOR FIA

    The one other thing that I would say before I conclude my 
remarks is that in order to make the annualized inventory 
system happen on the ground we are very supportive of the 
strategic plan and the direction in which it is headed, but in 
order to get that on the ground and to work with the State 
foresters it almost requires another plan. It almost requires 
that the research stations cooperate with the State foresters 
to begin that process of allocating the resources, allocating 
the time, figuring out how much money the Forest Service is 
going to devote to the annual inventory, how many people are 
they going to have devoted to the collection, how many people 
are going to analyze it, how the university is going to analyze 
the data. I think that is the next step that we need to take, 
and those conclude my remarks.
    [The statement of Mr. Dubensky follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                     STUDENT GROUP FROM NEW MEXICO

    Mr. Regula. I thank you. I see we have a group of students 
that just came in, and I understand they are from New Mexico. 
So would you like to welcome them, Mr. Skeen.
    Mr. Skeen. I want to welcome all of you. You are certainly 
a bright-looking group. We are pleased to have you here today. 
I hope you are enjoying your stay in Washington, D.C. I would 
like to take the opportunity to--I have already said hello to 
them. They are from Mayhill High School, Onate High School, Las 
Cruces, as well as the members from the New Mexico Military 
Institute in Roswell. Does that cover all of you? Good. You are 
a bright-looking group. Thank you for being here.
    Mr. Regula. They are from your district, are they not, Mr. 
Skeen?
    Mr. Skeen. They are all from my district. That is why they 
are so good looking.
    Mr. Regula. I want to know where the name Onate originated.
    Mr. Skeen. Onate, name of one of the discoverers. We have 
to send you one of our courses on New Mexico.
    Mr. Regula. We are happy to welcome you. Our witnesses this 
morning are experts on forest science and forest health, and 
you may think that is a mundane subject, but it is very 
important to almost 200 million acres of Federal ownership, 
plus 497 million acres of private and State ownership, so 
almost 700 million acres of American forest, and for you young 
people, it is a playground. You can go there and fish and hunt, 
camp, bird watch, or for many other uses. Moreover, probably 
all of you at some point or another will either buy or build a 
home that will be built from forest products.
    So this is very important to your future. You probably 
don't realize it, but we hear a lot about global warming, and 
one of the best converters of carbon dioxide into oxygen is a 
tree, and I think to reduce global warming trees become very 
important. So, we are happy you are here today. Did you fly in? 
It would be a long drive. We have been out to New Mexico to see 
the Baca Ranch, which we are going to acquire as part of the 
Federal ownership, and there are a lot of trees on that.

                        ENSURING QUALITY FORESTS

    I would like each of you to answer, and very briefly, the 
question that if you are sitting on this committee what would 
be your highest priority in terms of something we can do to 
ensure that these young people are going to have a quality 
forest 50 years from now and factoring in the issue of global 
warming.
    Mr. Arney.
    Mr. Arney. I think my response to that would be to have a 
good handle on the forest resources in this country so the 
scientists that manage those resources can make good, sound 
decisions based on good, up-to-date information.
    Mr. Regula. So you think the FIA program is very important?
    Mr. Arney. Yes, sir.
    Mr. Dicks. Can I ask a question, just to interrupt here.
    Mr. Regula. Certainly.

                     FOREST INVENTORY AND ANALYSIS

    Mr. Dicks. Why is it important? What is it that you get out 
of this information that is going to help you in deciding how 
to manage these forests, how to use adaptive management? We in 
the Northwest have the issue of some of the scientists saying 
just leave the old-growth alone, don't touch it; others saying 
we should do pruning and thinning to help grow bigger structure 
faster. What is it out of this that is going to be valuable to 
us?
    Mr. Arney. Well, I think we get information on the health 
of the forest. We get information on the forest as to how much 
of the forest is being harvested, how the forest is growing. We 
get the major parameters that we need to----
    Mr. Dicks. But do you get into technique about how these 
forests should be managed?
    Mr. Arney. Not with the forest inventory and analysis 
information. That is more regional and Statewide.
    Mr. Dicks. You get information about how it is being 
managed, but not on how it should be managed.
    Mr. Arney. Well, I think it would give you clues as to how 
it should be managed, but the forest inventory and analysis 
information is broad, Statewide, regional information that 
gives us a handle as to the health of the forest, the growth of 
the forest, the harvest of the forest, what is happening to the 
big picture in the forest, and then we can develop strategies 
and programs from that information to address specific needs 
and management needs.
    Mr. Dicks. Thank you.
    Mr. Regula. For you students, this is Mr. Dicks, who is 
from Seattle, Washington, so if he flew in here on a Boeing 
airplane he has some interest in that, and if you like salmon, 
he takes care of the salmon.
    Mr. Dicks. We have a lot of trees out there, too.
    Mr. Regula. Well, Mr. Banzhaf.
    Mr. Banzhaf. Well, I guess I would concur with Mr. Arney 
and perhaps add a couple of other things directed to Mr. Dicks' 
question. With regard to what are we gaining from an inventory, 
the FIA, it is really quite simple. In order to manage any 
commodity, any institution, any activity, you have to know what 
you have. Whether you are managing the Federal Government, and 
you need to know what is involved and what is in place in that 
Federal Government so that as Members of Congress you can 
allocate budgets, you need to know what is there, and that is 
what this is all about.
    We need know what is there, and the real dynamic part of 
FIA is that it measures change because it is continually 
remeasured. So you see change, and that is where we tie in to 
the students from New Mexico, because it is by monitoring 
change that we ensure sustainable conditions down the road so 
that they can enjoy themselves on the Federal forests in that 
part of the world.
    I have had a lot of experience in the tribal lands in New 
Mexico, Alcalde, Mescalero, the Pueblo Nation. So there are 
beautiful forests in New Mexico, and this kind of inventory is 
needed to maintain information about those.

                          PRUNING AND THINNING

    Mr. Dicks. Do you get into subjects like when you haven't 
done the pruning or when you haven't done the thinning, do you 
characterize the forestlands that haven't been treated?
    Mr. Banzhaf. What happens----
    Mr. Dicks. In the inventory.
    Mr. Banzhaf. Why it is so important is it doesn't measure 
whether or not something has been thinned, but it will measure 
the condition of the forest, the number of species, the 
diameter distribution, the volume, the understorage plants. 
Then you go back and overlay a map of whether or not that 
forest has had harvesting or thinning; you can begin to 
correlate management activities in terms of what results on the 
land.
    Mr. Regula. Dr. Boring.

                         Monitoring Information

    Mr. Boring. This kind of monitoring information is really 
valuable, especially when you couple it with research because 
as we go through climate cycles, warming, shifts in 
precipitation, we can do a lot of physiologically-based 
research with the trees. We can understand how individual trees 
might respond and understand cause and effect, but the problem 
is, is that being manifested out there on the landscape, and 
you need to corroborate some of this shorter-term, more high-
falutin research with some good nuts and bolts measurements out 
there on the ground, and in Georgia of course, we are concerned 
about all these management issues. We are also real concerned 
about whether we have those plots there the next time around as 
Atlanta continues growing and we continue losing trees.
    We need a science and information basis on which to base 
not only management but policies that affect land use and land 
change, and this has a very profound effect on economies in our 
State. If we are gobbling up a lot of land with asphalt and 
subdivisions, that does good things for the economy, but it can 
have negative repercussions in the forest economy.

                              Development

    Mr. Dicks. We have the same problems in Seattle. In the 
areas surrounding Seattle is some of the best timber growing 
areas in the world, and you know, development there can wipe 
out a lot of very high productive forestlands.
    Mr. Skeen. On the other hand, in a place like New Mexico 
you have a terrible situation because you are trying to give 
the forest the chance to grow and it has grown there, but we 
have a lack of moisture and it is a great challenge to see how 
the difference is attributable to different forestlands, and in 
that case, we are very careful with our management of them.
    We have also been in a terrible situation of trying to 
revamp the wolf population and use the forestlands on the 
Western slopes. It is all there. It is a very distinct science, 
but forestry is very important to us, and we don't get the 
moisture like we did. I used to live in Seattle. I am always 
amazed at the beautiful trees and the Douglas fir that went out 
of there where it was six feet across where they had been cut 
down, all on one truckload. You could take a half of the wood 
that we raise in New Mexico and fill the same truck up.
    Mr. Dicks. We are doing it a little differently now. We 
have a lot more of the small trees.
    Mr. Skeen. We have got 12-year-old kids who have never seen 
it rain.
    Mr. Dicks. Send them to Seattle, we will show them.
    Mr. Regula. Dr. Brown.

                       Forest Inventory Analysis

    Mr. Brown. It is a big question. It is tough to come down 
to one thing, but I have got to agree with my colleagues that 
if we have some good baseline information about what we have 
got, this is an extremely important thing, and then if you 
combine that with experimentation on different ways of managing 
the forest, of manipulating the vegetation and working with the 
forest, if you combine those two things, we are going to then 
leave something for future generations, and that ties into my 
comments about social things because those experiments that we 
try out there on how to do different things have got to meet 
some test of social acceptability where they won't continue. 
They also have to meet tests of ecological acceptability. So 
you have got to begin to put a lot of pieces together to make 
it happen.

                          Adaptive Management

    Mr. Dicks. Can they be done consistently? In other words, 
can you do adaptive management, and my belief has always been 
you can do adaptive management, grow bigger trees faster if you 
are looking for spotted owl habitat and yet be faithful to 
preserving the ecosystem. You don't have to destroy it.
    Mr. Brown. That is right, and part of what goes on at the 
places that Dr. Boring mentioned with regard to Coweeta and the 
Andrews experimental forest and things like that is designed 
exactly to learn how to do those kinds of things, so that we 
can do it, manipulate this, get the products we want without 
destroying the environment and actually working on global 
change problems and other kinds of things at the same time.
    Mr. Dicks. Do you think the Forest Service is doing an 
adequate job in that area?
    Mr. Brown. I don't think they are sufficiently funded to do 
a fully adequate job in that area, but they are certainly 
striving to do an adequate job, but they don't have the 
resources or the people to do it, and together with the 
universities we can make a lot of progress, but together we 
don't have the full resources for the vast amount of forestland 
that is in this country.
    Mr. Regula. Mr. Dubensky.

                     Forest Inventory and Analysis

    Mr. Dubensky. Getting back to what Mr. Banzhaf said and 
about the FIA and what are the two primary areas, I would call 
two primary areas that I talked to, FIA, forest inventory 
analysis program and productivity research, and I think it is 
important, productivity research, because it gets to a little 
bit of what Congressman Dicks talks about.
    But the FIA program, the question is what does the data 
provide. Well, as Mr. Banzhaf testified, he said it provides 
basically the species composition by age class. It tells you 
what species are out there on the landscape, what the age class 
is, what the flora looks like, what the herbs look like, what 
the brush looks like and gives growth mortality figures and 
gives indices of what the biodiversity is out there. So you 
interpret this data to draw a picture of what the landscape 
looks like, and that is why it is absolutely critical, and when 
people ask you, well, are there going to be trees left for the 
next generation, that is what this data tells you, there will 
be trees, there will be forest, there will be forest acreage 
out there, and it basically gives you a spectrum, a change of 
condition over, and this data has been collected since, I 
believe, somebody can correct me, by about 1920. So it has 
given an incredible perspective since 1920 on the changes in 
our landscape.

                             Climate Change

    The other area that I briefly mention is the climate change 
area, and this data provides basically the estimates and the 
information on what the carbon sequestration rates are, the 
carbon content of what is contained in our forests nationwide, 
both public and private lands, private industrial lands, 
private nonindustrial lands and public lands, and that is a 
critically important component, as everybody knows, as we begin 
to sort of get into that debate.
    So I think that those are critical reasons why the FIA 
program is significant.
    Mr. Regula. I was fascinated as I was watching the news 
this morning. They were able to pull a slice out of this rather 
large tree, that I think constituted maybe 50 or 75 years, and 
to show the growth each year, and of course from that, 
ascertain climatic conditions and so on.
    Mr. Skeen, do you have questions?

                       Forest Management Research

    Mr. Skeen. Yes. Let me ask Mr. Dubensky, the Forest Service 
research that is supporting professional managementand 
utilization of the Nation's renewable resources, is this a matter of 
fact?
    Mr. Dubensky. Supporting the renewable resources and 
sustainability?
    Mr. Skeen. Yeah.

                         PRODUCTIVITY RESEARCH

    Mr. Dubensky. I think as others have spoken here I would 
say that the Forest Service has the capacity and has the 
capabilities to do it, but I think what we do need is some more 
money to leverage it and to work with the universities and 
cooperative extension people and focus on areas where the trend 
is, where the vision is, where we want to take sustainable 
forest management, and one of the areas in which AF&PA would 
emphasize in addition to the FIA program is productivity 
research. We keep on talking about a lot of lands are being--
more lands are being reserved, more lands are inaccessible, 
more lands are becoming unproductive, and what we need to begin 
to do is perhaps focus our attention on some of the highly 
productive lands and do some research in those areas.
    Mr. Skeen. What you are saying is we are not funding it at 
adequate levels?
    Mr. Dubensky. That is correct, sir.

                        WILDLAND/URBAN INTERFACE

    Mr. Skeen. Can you give me an example of how social science 
research would relate to the high fire danger and the urban/
wildland interface that is posing such a threat to many Western 
communities?
    Mr. Dubensky. With regard to, you know, the urban 
interface, I mean obviously that is, as the population sort of 
expands out into those areas, wildfire and the lack of 
management has created an enormous buildup in potential for 
catastrophic events, and investigating, you know, how we manage 
our forests is particularly important.

                        WHITE PINE BLISTER RUST

    There was an interesting article that appeared in the 
Washington Post in the science section yesterday talking about 
white bark pine and how the lack of management has caused a lot 
of insect and disease due to pine blister rust and the fact 
that we are not managing these areas and as a result we are 
going to have some more catastrophic fires. So obviously more 
research in those areas is critically important.

                          RECREATION RESEARCH

    Mr. Skeen. Very well. Dr. Brown, I would ask this question. 
What kind of research is available and how much is being done 
on environmental impact on recreational activities in our 
Nation's forests, and is it enough given the priority placed on 
it by this administration?
    Mr. Brown. Well, if you look at the priority that is placed 
on it we are doing just a little smidgen of what is possible, 
but there are certainly a number of places where recreational 
research goes on within the Forest Service, in the Rocky 
Mountain Station and the Southern Station, and they have some 
national responsibilities. In the Pacific Northwest station 
they are doing work in this particular area. So there is work 
going on and certainly in some of the universities there is big 
capacity in this particular area and a lot of things going on, 
but the enormous priority that has been placed upon this 
administration would suggest that there is some disconnection 
between the President's budget, I think, and the statements 
about the importance of recreation within the agency because 
they certainly don't have that many scientists working on this 
particular set of problems.
    Mr. Skeen. It has always been curious to me to watch the 
difference in the way that we are handling the forests, and 
those forests in our State that belong to the Federal 
Government. The Mescalero Apaches over there have some of this. 
They go in there and practically broom clean their forests and 
the debris and so forth, and it shows a marked difference from 
the kind of growth that we are getting out of the Forest 
Service lands. This is a matter of technique, but I think it is 
very important with the research that you do, and in that case, 
Mr. Banzhaf, long-term research is suffering because of the 
allocation of research dollars in many cases goes to the issue 
of the day rather than to a long-range system of research 
projects.
    Is this a true statement?

                           LONG-TERM RESEARCH

    Mr. Banzhaf. Yes, I think it is, as a matter of fact, and 
it is totally contrary to the nature of research. Yes, you have 
to have the flexibility to address emerging issues, and Dr. 
Boring indicated the need to be aware of that, but you have to 
have the long-term commitment to the science you are 
performing.
    Getting back to something Mr. Dicks mentioned earlier in 
terms of the adaptive management in Pacific Northwest, there 
are studies that are being conducted, and this is sort of a 
combination of biological research and social science. There 
have been studies that have shown that one can manage both for 
spotted owl habitat and a fairly productive Doug fir stand, in 
a fairly predictive Doug fir stand. Now the biological science 
tells us that, but do we have the political will and the 
information from the social science to say, yes, it is all 
right with the people's land to go ahead and do that, and that 
is where I think we need to have this long-term research tied 
with social research so that we understand what the people who 
own our Federal lands want from those properties. The 
biological science is beginning to be developed. It is there. I 
think it is the other half where we are having some difficulty 
in terms of political will.
    Mr. Skeen. You certainly answered the rest of the questions 
I was going to ask. That is exactly the line I was taking. We 
have got the endangered species problems in the Forest Service, 
and the reallocation of research dollars has been going to some 
of the impacts on the endangered species and also the 
difference in how to propagate forest products or protect them. 
So I really appreciate the work that you folks do. The research 
that you do in keeping this thing going is important because in 
our part of the country the forests are very fragile.
    Thank you, Mr. Chairman.
    Mr. Regula. Mr. Dicks.

                          ADAPTIVE MANAGEMENT

    Mr. Dicks. Well, going back to that point on adaptive 
management, I think a big part of this is educating people. It 
isn't just to go out and do surveys of public opinion and let 
the poly sci department poll people on what they think. I mean 
most people don't know enough about the subject matter. I mean 
they need to have you all trying to explain to them that there 
is a way to do this that is compatible with the goals of the 
Endangered Species Act.
    I believe when you look at a landscape in the Northwest you 
realize that you have certain areas where you have reinitiated 
growth and if you don't go in there and thin, then that is 
going to exclude a lot of species. There is going to be certain 
species that are in an open area, deer, butterfly, other 
species in an open area. If you do the thinning in certain 
parts of the landscape, then you create bigger structure but 
you have some space between the trees,and there are other 
species that do well there.
    And so I think, my view has always been kind of a landscape 
management strategy that in every landscape you need some old-
growth, but you also need some of these other areas so that you 
do maintain biodiversity and can protect these species. The 
argument we have in the Northwest is that you have got a forest 
plan out there that says we are going to draw a circle around 
large areas and we are not going to allow anything to happen 
there. That may not be the wisest utilization of those lands, 
but it is the social scientists prevailing there. You are doing 
it based on the view that we just have to protect the old-
growth and doing anything in the old-growth areas would be 
politically incorrect, not necessarily whether it would be 
scientifically the right thing to do.

                      Politically Correct Research

    So I believe that you need to have a lot of different 
research being done, not just the politically correct research, 
and unfortunately, Dr. Brown, sometimes the universities get--I 
have seen the University of Washington where you have top 
people, you know, almost who won't even speak to each other 
because they have differing views on this, and so, you know, I 
noted your point about coming in with the forestry people and 
talking about what the priorities are, but you have got to get 
your own people to kind of decide what the priorities are at 
the university level.
    I am thinking of the University of Washington, my alma 
mater, when I speak of that because there are very different 
views which I think is good. I think there needs to be a lot of 
research done. I don't think it should be just the politically 
correct research.
    Now, what do you have to say about that?
    Mr. Brown. Well, some of us think a lot about the 
University of Washington also as one example of something in 
the country, and a fine institution, but there are some of 
those internal problems.
    Mr. Dicks. I like a little conflict. That is not all bad.
    Mr. Regula. I noticed that.
    Mr. Dicks. I think you need to have differing viewpoints 
aired and thought about.
    Mr. Skeen. Nice gentle fellow like you.
    Mr. Dicks. Yeah. I was in the social science part of the 
university by the way.
    Mr. Boring. Two of your University of Washington natural 
resource professors are on my scientific advisory committee so 
we use that to stir up all kinds of ideas.
    Mr. Dicks. I am sure they will.

                    Forest Management Prescriptions

    Mr. Brown. One of the things that I think is pretty clear 
is we have moved down a certain path, and you have described 
some of that path in terms of our decision-making about forests 
and some things we have got going on. Part of that has to do 
with a problem that we have had in the way that we have done 
things, and we are beginning to discover that there are other 
ways to do things that in fact do meet some tests of social 
acceptability, but we hadn't got into experiments of those kind 
very early.
    For a long, long time, starting probably in the 1950s for 
the most part, we adopted in the Northwest--I was at Oregon 
State for 15 years--we adopted one basic prescription for 
forest management in the Douglas fir type, and we have 
discovered because of the controversies that there are a lot of 
other possible prescriptions. Now we have to continue to learn 
what the consequences are of doing business in different ways 
might be, and we are finding that some of those other ways of 
doing things in certain locales where you can do them actually 
do get favorable comment and so that people allow those things 
to go on, and we get into productivity issues then or are able 
to think about what we can do differently than we have in the 
past.

                                Fire Use

    Mr. Dicks. The use of fire, for example, there was a 
professor at Berkeley, as I recall, who said you had to use 
fire and he was denounced by people, many people in the 
forestry research business, and now we realize that, hey, in 
certain instances, fire is very positive for maintaining the 
health of the forest stand.

                               Clearcuts

    Mr. Brown. If I may, let me just give you one little 
example from my own State because it talks about the 
adaptability issue and some of the ways of doing things, but we 
were on a prescription for our Ponderosa pine type that 
essentially said we were going to clearcut and then we were 
going to allow it to come back in after clearcutting there, and 
as we did that in a number of places, people started objecting 
and saying, hey, something is happening to our forest here, we 
don't like what is happening.

                         Uneven-Aged Management

    As we began to think about alternative ways of managing 
that forest we began to discover that that wasn't the only 
thing we needed to do in the forest. So we are doing a lot more 
multiple-age type and multiple species, but certainly multiple-
age type forestry out there now rather than single age as you 
would get in the clearcut. As we have done that and recreated, 
in a sense, stands of an open but a larger and more valuable 
type, we found out that the growth so far over about 20 years 
now exceeds what we were getting before. The acceptability of 
those forests from a visual standpoint and from a wildlife 
standpoint is higher than it was before. And so now we have the 
State, we have a number of companies and we have some other 
people using some of those uneven-aged management methods in 
our forest, and we have adapted this situation, and we are 
bringing more forests into production now than we had in the 
last few years because people had said ``I don't like what you 
are doing.'' Now they are beginning to accept some of things 
that are going on.
    That is where your education comes in the thing because we 
need to show these people, we need to demonstrate what the 
possibilities are and the fact that the forest is healthy and 
viable in these areas where we have tried these different 
techniques.

                        Social Science Research

    Mr. Banzhaf. If I could just make one comment, Congressman 
Dicks, on your issue of social science because we testified, 
certainly, in support of, perhaps, additional social science. I 
can certainly understand when you refer to some of the real 
frustrations and difficulties when one deals with political 
correctness. I think we need to differentiate, though, between 
social science and bringing one's own agenda to that social 
science and in interpreting it in a, quote, politically correct 
manner. What we are supporting is the need for information 
about attitudes. Some of that information may generate a 
program that would address what you are indicating and that is 
that there needs to be more information provided so that people 
realize, for instance, that we simply can't export our desire 
for the commodity, wood, to other countries and that we have to 
take a responsibility as a Nation to provide for our own needs 
in many areas, and people don't understand that. They think 
woodcomes from a lumberyard. They don't know that it comes from 
a forest.
    So what we are talking about in social science is not 
directing an outcome but getting information that then can be 
applied to recent decisions.

                        Multiple Landownerships

    Mr. Dicks. I have no problem with that, of course, but I do 
worry about, you know, the political correctness. I think you 
have stated it well. That is the way that it should proceed. 
Now, one of the things that we are talking a great deal about 
in the Northwest is protecting ecosystems and ecosystem 
restoration, and of course another point I would make for the 
committee is that we have a multiple ownership out there. We 
have a large amount of Forest Service timber, a large amount of 
State timber. We have a large amount of private industrial, and 
then as you all mentioned, a nonindustrial, small, private 
landowners who are a substantial part of the picture and having 
research done there. And because of these multiple ownerships, 
trying to do ecosystem restoration is a challenge because you 
have got to get the State people, the Federal people, the 
private people, the industrial private, the nonindustrial 
private all to cooperate and try to do it, basically, on a 
watershed basis and that is a challenge, especially when you 
don't have good road maintenance.

                       Road Maintenance Research

    And one of the things I would like to hear from you all 
about is the Forest Service admission that they are $8 to $10 
billion behind on the maintenance of roads in the Forest 
Service System. Now, that has to have an impact on the ability 
to do ecosystem restoration or to maintain high-quality 
forestlands if the road systems are crumbling. Is this a major 
problem? Does this deserve some attention in the research area, 
the consequences of not adequately dealing with this road 
problem? Is it a serious concern?

                            Roads Moratorium

    Mr. Banzhaf. Well, I will respond. Certainly we believe 
that this issue has been exacerbated by recent decisions of the 
administration, both the initial moratorium and then the 
executive decision because what it does, and this ties somewhat 
indirectly to research, and maybe my colleagues can more 
directly address that issue, but it takes the issue of the 
effects of road planning, road maintenance and road 
construction from the local level where conditions vary, and it 
puts it up at the national level into this broad cookie cutter 
approach, and as you know, the situation in the Pacific 
Northwest is very different than the Southeast, very different 
than the Southwest. So we have some real concerns that some of 
the administrative actions that have been taken over the last 
year with regard to the roads moratorium and executive order 
are really counter to planning and research at the local level 
where it needs to take place.
    Mr. Dicks. Anybody else?

                       Judiciary-Caused Problems

    Mr. Skeen. You also have a problem with the judicial 
system. The Ninth Judicial District over there has been making 
forest problems their venue, and I don't think that they have a 
background or the knowledge--it is a terrible situation.
    Mr. Banzhaf. Well, the Society of American Foresters 
accredits all forestry programs, and they have not applied yet 
for accreditation. I am sorry, I shouldn't be flippant.
    Mr. Skeen. You are allowed to express the point because 
that is what is going on in Arizona. The Ninth Judicial 
District over there is virtually in control of all the forestry 
that goes on.

                            Roads Moratorium

    Mr. Dubensky. I was just going to add one other comment, 
Congressman. When you don't maintain your roads very well, you 
get a lot of erosion and you get a lot of sedimentation, and it 
is critically important as we move forward on any clean water 
initiatives that things like that are invested in and we sort 
of make strides on their current policies, current programs, 
rather than just automatically putting a moratorium on road 
construction. Let us sort of figure out how to construct the 
road properly, let us maintain the current road systems and let 
us make sure that they are not contributing sediments into the 
streams.
    Mr. Dicks. That is one of the big challenges for this 
committee is to try to figure out how to deal with that 
backlog, and as you know, in the Pacific Northwest, as you 
mentioned, that sediment gets into these rivers and we have all 
the listings on salmon and steelhead, and that directly affects 
the ability of the anadromous fish to reproduce. So I think it 
is a very serious matter, and we as a committee have got to 
figure out some way to deal with this problem, but it isn't 
being dealt with by the Forest Service at this time in my 
judgment.

                          Road Design Research

    Mr. Boring. If I could make a brief comment. One of the 
areas of excellence I think in watershed research by the Forest 
Service has been research on road design and maintenance, and 
there is a tremendous information base that is there that we 
already know, and I would suggest that is really not a 
research-driven issue. It is really an issue of management and 
application within the different Forest Service regions.
    Mr. Dicks. But there are consequences when you don't manage 
and you don't put up the resources and you don't fix the road. 
We know how to do it, I agree with that, but we are not doing 
it, and then there is the consequence of not doing it that I 
worry about.
    Mr. Boring. And we do understand what some of those 
implications are in terms of sedimentation and erosion as well. 
So that is something that is sort of on the front burner, and I 
think getting the tech transfer in place and moving that out 
into the districts and perhaps some of the people that allocate 
the funding for the management of these tracts need to be more 
active.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Regula. Well, I see it is 10 after 11:00. There are a 
lot more questions and we will have a number for the record. 
However, we do have the Forest Service here to testify, and I 
would like to have them come up. If you gentlemen can stay, I 
think you may want to hear what they say in response to your 
comments, or if we have any additional questions and we have 
time, we may want to redirect them to you.
    So we have Dr. Lewis, Dr. Weber, Dr. Mills and Dr. 
Roussopoulos. Okay. We are happy to welcome all of you. Dr. 
Lewis, if you want to lead off, all of your statements will be 
made a part of the record, and any comments that you would like 
to make we will welcome.

                       Mr. Lewis' Opening Remarks

    Mr. Lewis. Thank you, Mr. Chairman, and I am really 
grateful to you for having us here this morning. We are very 
delighted to be able to come before your subcommittee and all 
of the members and to address the research issues that we have 
talked about and that we have heard a lot about from the panel 
earlier. I enjoyed the comments made by the panel members. In 
fact, they made some of the statements that I would make 
myself.
    I would like to point out that I have two people from the 
field with me today. I have from the Western U.S. Dr. Tom 
Mills. He is the Director of the Pacific Northwest Experiment 
Station, and there is a specific reason why I invited Dr. 
Mills. He is in a region that is heavily dominated by Federal 
lands. He has been dealing with a lot of the very visible 
issues that we have talked about in other testimony relating to 
the Forest Service. He has a primary set of clients that would 
be National Forests as well as the private industry.
    And I have Dr. Pete Roussopoulos. Pete is the Director of 
the Southern Experiment Station, which is headquartered in 
Asheville, North Carolina. He has the southern region of the 
USA, and his region of the country is predominantly private 
landowners.
    And I have to my immediate left Dr. Barbara Weber, who is 
the Associate Deputy Chief for Research. She is my alter ego, 
basically, and she also served as a Station Director in the 
Pacific Southwest.
    I could talk about research for a long time but I will make 
my comments very brief. I am a native of Mississippi, and I 
came up on a small farm. In that time, I had an opportunity to 
walk in the 12 acres of woods that we had. At that time, I did 
not realize the value of it, nor that I would enter a 
professional forestry career. I started out at Stoneville, 
Mississippi, in 1970. I have 35 years of service. I used to 
work in Dr. Roussopoulos' Station.
    And when I first came to this agency I looked at the 
research that we were doing at our lab, the Southern Hardwoods 
Laboratory, and as a young lad just out of college, I did not 
really appreciate the value of research because I worked as a 
technician. And over the time, I went back to school and became 
a plant pathologist at Texas A&M.
    Mr. Skeen. What university is that?
    Mr. Lewis. The Aggies, Texas A&M.
    Mr. Skeen. That is mine, too.
    Mr. Lewis. It is from that vantage point that I started my 
research career. I have been in research all of my career. I 
have seen, in the over the 30 years that I have been in this 
Agency, a major change in research and how we set priorities.
    When I worked as a researcher down at Stoneville, 
Mississippi, we worked in individual Research Work Units and 
many of our scientists across disciplines did not communicate 
with each other very well. I worked in the insect and disease 
area. But later I realized that that really was not the real 
world.

                       INTERDISCIPLINARY RESEARCH

    I went up to the Northeastern Station in 1986 as an 
Assistant Director. It is at that point that I realized that 
there was more to research than forest pathology. That is when 
I was introduced to a number of disciplines and also the 
concept that we needed to integrate across disciplines in order 
to have an effective program. I realized that the resources 
that we manage are treasures. They were here when we were born 
and they will be here when we die. Our stewardship depends on 
what legacy we leave for the people who follow us, not for the 
people we report to, but what we leave for the people who will 
be born long after we are gone.

                            RESEARCH MISSION

    And I know that the mission of our Agency, of the Research 
Branch in particular, is to provide the knowledge, the science, 
the information that will allow managers to be better stewards 
of the land. We believe that our responsibility--and, in fact, 
not only do we believe but we know that the law tells us--
transcends ownerships. The knowledge, the information we 
provide, if focused on sustainability and management of the 
resources on both public and private lands. The Research 
organization that we are a part of is very unique.
    You have heard a lot from the previous panel about Forest 
Inventory and Analysis and Forest Health Monitoring. We also 
have the Forest Products Lab, which is unique in the world. It 
is world renowned. When I go to housing sites and see some of 
the products--the beams that they are using instead of using a 
lot of wood, the very thin pieces, strandboard--I recognize the 
value and the impact of our research in places that people may 
not even be aware of.
    When I looked at the maps--the forest health maps that have 
been shown to a number of committees that we have appeared 
before, the Chief and I and others; you have a copy of it in 
your pack and we have one on display--the average person will 
not realize it, but this is one of the end products of 
research. It is the technology information that we generate 
that allowed us to develop those risk maps and identify the 40 
million acres.
    It is our Forest Science program that categorizes and 
characterizes the current conditions of the resources that we 
are trying to manage. Mr. Dicks, the issues that you raised are 
indicated here as well. The areas that have had a different 
fire regime over the last hundred years, and occurred naturally 
prior to that, led to setting up major forest health problems. 
It is research that points that out.

                        FOREST GENETICS RESEARCH

    I know that Mr. Dubensky talked about forest production. In 
Pete Roussopoulos' part of the country, we have large numbers 
of pine plantations. An indicator of how this research is being 
applied would be the hundreds of thousands of acres planted of 
genetically improved loblolly pine and the efforts to restore 
the longleaf pine as well in the southern part of the country. 
Pete Roussopoulos probably does not remember he told me this, 
but his Station once did a publication on the value of research 
in the Southern Station; it focused primarily on the value of 
fusiform research. That is just one aspect of the research at 
the Southern Station and the return on the investment was like 
25 dollars for every dollar invested as a result of planting 
pine trees on the proper site with the proper genetic makeup.

                        SOCIAL SCIENCE RESEARCH

    Social science research is also an important area. The 
previous panel talked about that. I know that that has been an 
issue that we have discussed in the past. A lot of people are 
very concerned about that. If we look at the management of the 
National Forests, and even private forests as well, we cannot 
possibly manage without bringing people into the equation. The 
human dimension is a very important part of it from a number of 
perspectives, including the ones that were mentioned earlier 
but also from another very important one.

                              CIVIL RIGHTS

    Secretary Dan Glickman in 1997 issued a report in USDA 
oncivil rights within the Agency, and he referred to USDA as ``the 
people's Department,'' the department created by President Abraham 
Lincoln. His goal was to serve all of the people. Part of our research, 
especially when it deals with Recreation Research, is aimed at 
understanding the diverse populations that we have in America that we 
must reach out to and serve. Therefore, we have been able to put into 
practice in California and Chicago, the Southern Station, and all over 
this country the end-result of our research as we understand the values 
held by people and what is keeping them from actually appreciating 
these wonderful resources that we have.

                        Forest Health Protection

    We also have a very important emphasis on forest health and 
protection. This country has been introduced to a number of 
non-native plants, insects, and diseases. Among them would be 
Dutch elm disease, chestnut blight, and the several other 
problems we are facing. We are currently facing a new beetle 
called the Asian longhorn beetle. This particular beetle feeds 
primarily on maple trees for their preserved food. They are 
sweeter, and that is producing a very important problem for us 
to address. Therefore, I want to conclude by explaining to you 
briefly some of the things that we consider when we set 
research priorities because I think it is important.

                        Research Prioritization

    The first thing we look at is the nature of the problem, 
the nature of the Asian longhorn beetle. It is an introduced 
pest. It is of limited distribution at this current time. We 
also look at the magnitude of the problem. Suppose the Asian 
longhorn beetle was only found in Chicago and New York. Well, 
it is small in terms of acreage that it might cover, but the 
anticipated problem is far greater.
    Mr. Regula. What does it feed on?
    Mr. Lewis. It feeds on mainly hardwood but the preferred 
host is maple. In China, for example, they plant maple trees as 
a trapping tree for the Asian longhorn beetle because it is one 
of the traditional methods of controlling pests by planting 
trees that they--plants that are of less economic value that 
these species might move to.
    We would be happy to get into the dialogue at this time and 
I have with me the full panel. They will not make statements, 
but we plan to fully participate in answering what you want us 
to talk about. Thank you.
    [The statement of Dr. Lewis follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                             Global Warming

    Mr. Regula. Well, let me just get your comment on global 
warming because the program I saw this morning was really 
directed at that by demonstrating the thinness of the years, 
the last 20 years, in terms of growth. Is this a real concern 
given the cycle of weather over, say, 500 years, and have you 
tried to emphasize research on that issue?
    Mr. Lewis. Yes, we have. The climate, as we know it, has 
changed for thousands of years. The concern we have currently 
is the amount of carbon dioxide in the atmosphere and the 
impact that that will have, not only on temperature but also on 
other factors, physical factors that affect tree growth.
    We have major concerns about carbon sequestration, carbon 
budgets, carbon cycles and forest management, and the forests' 
ability to mediate various problems that we encounter. With a 
change in global temperature or regional temperature, we might 
have the result of a migration of species. For example, 
loblolly pine might exist far north of where its natural range 
is. That is just one small aspect of the overall program. We 
are focused primarily on carbon cycle, carbon sequestration, 
and forest management to accelerate tree growth.

                          Wood Fiber Increase

    Mr. Regula. Is the U.S. and/or the world getting a net 
increase in wood fiber? I know we authorize about three billion 
board feet in our bill, and I understand there is about 20 
billion board feet growing on the national forests. Is the U.S. 
currently growing substantially more than it is harvesting, 
taking into account State, Federal and private and is that true 
of the world, the globe?
    Mr. Lewis. I can speak about the United States, but I do 
not have the figure on the world in total. It depends on what 
region of the country you go to. On the National Forests, for 
example, recent assessment data shows that we had about five 
times as much growth as removal on National Forest lands. That 
is in our RPA assessment, which is either published or in draft 
form.
    Now, with the reduction in the harvest on National Forest 
land, there has been a shift in harvest to private lands in 
this country. A good bit of that focus was on the southern part 
of the country where Pete Roussopoulos is Station Director. So 
private landowners have to produce more, and about 6, 7 years 
ago, removal exceeded growth for the first time in the South 
for softwood.
    Mr. Regula. On the private lands?
    Mr. Lewis. On the private land in the South.
    Mr. Dicks. And we also get a substantial amount of wood 
coming in from Canada.
    Mr. Lewis. Right. We get better than 10 billion board feet 
per year from Canada.
    Mr. Dicks. That is about a third or thereabouts of the 
softwood in the United States?
    Mr. Mills. Last time I checked, the number was in the 
neighborhood of a third.
    Mr. Regula. Does that include pulpwood or just construction 
materials?
    Mr. Mills. Most of it is construction materials, softwood 
lumber and plywood, but there is some pulp also, especially 
from the eastern part of Canada.
    Mr. Regula. Does the fact that we are only harvesting one 
out of five--growing five times as much as we harvest, does 
that have an impact on forest health?

                        Growth-To-Removal Ratio

    Mr. Lewis. It could but I could not answer that without 
seeing specifically what is happening on the ground in specific 
areas. The five-to-one removal ratio in the western National 
Forests is the cumulative growth in a 5-year cycle based on our 
inventory and analysis data. We were able to show and 
demonstrate that over the previous 5 years, growth-to-removal 
was five to one.
    I can compare that to some of the private lands. I used to 
be Director of the Northeastern Experiment Station. In some of 
those States, we had three-to-one growth removal, two-to-one in 
some States. It all depended on where you were, what species 
were available, what the demands were, and the level of 
management activity.

                              Silviculture

    Mr. Regula. Do you think silviculture is resulting in much 
greater reproduction or much faster growth, and maybe has 
ahigher quality? I think you alluded to that in terms of the strength 
of board that is required.
    Mr. Lewis. Yes. Silviculture is the backbone of forestry. 
Basically, it is how we regenerate forests. Over the past few 
years, we saw a need to go into new types of silviculture 
because of the situation we have on the ground. I give you an 
example: In the Allegheny plateau, for example, that particular 
site was once dominated by the American chestnut. Now we have 
American oak. When oak is removed, we have a problem with oak 
regeneration. That is a silvicultural problem we have to 
resolve. We have an excessive deer population there which 
browzes and deals with regeneration material. We also have 
Hayson fern, and Pete Roussopoulos has a similar problem in the 
South but with probably some of the Southern oak such as water 
and willow oak.
    Mr. Regula. Mr. Dicks.

                             Fire Risk Map

    Mr. Dicks. Tell me, can we put that map back up, the one of 
the country. Maybe you could tell us a little bit, give us a 
little more of a discussion about what these various colors 
mean and what the conditions are and what are the implications.
    Mr. Lewis. Okay. We have color codes of green, yellow, red, 
blue, and then the uncolored, which is agricultural and 
nonforestland. The blue would be the water. The red, condition 
class three. It means the natural fire regimes have not 
occurred. Those are the areas where fire has been excluded.
    Mr. Dicks. So does that mean you have a lot of 
understorage, would that be one condition?

                         Stand-Replacing Fires

    Mr. Mills. Let me speak to this, if I could for just a 
minute, Congressman Dicks. If you look, for example, in Idaho 
and the east side of Oregon and Washington, one way to put the 
red in perspective is that, on Federal forested lands, 
historically about 25 percent of the fires were ``stand 
replacement'' fires--lethal fires that killed the trees.
    Today, mostly because of our success at putting wildfires 
out, about half of the fires now are stand replacement fires. 
The stands are much more dense. We have a different species 
composition than we used to have. There is a lot of fir that 
has come in as a result of putting the fires out. So we end up 
with more dense stands that are more fire prone. When they 
burn, they burn hotter than they used to. In response to some 
people who say ``Well, these are fire dependent systems, we 
have always had fire dependent systems.'' The answer is, yes, 
that is right, but not fires like these and, therefore, some of 
the effects on salmon habitat.
    Mr. Dicks. Because the fire would have occurred earlier in 
the cycle and we would not have let conditions get this bad.
    Mr. Mills. The fuel loadings would not be as high; the 
fires would not be as hot; there would not be as much impact on 
soil and sediment.
    Mr. Dicks. Can you then use things like pruning or other 
things to remove the understorage to lessen----

                          Pruning and Thinning

    Mr. Mills. We can, and in fact, one of the key policy 
debates is whether we ought to stand back and let nature heal 
itself or whether we ought to go in with active management--
thin the stands and reduce the fuel loadings. That is one of 
the issues that is being grappled with--the Interior Columbia 
Basin Project right now--about standing back and letting nature 
heal itself or going in and doing thinning. We have got quite a 
bit of research that points--we are fairly confident that if 
that is the social choice we make, we can thin those stands, 
reduce their densities, and reduce the fire risk.
    Mr. Dicks. And then at that point you might let nature take 
its course if you had to--under some control because if it has 
got all the understorage, then the fires will be hotter. As you 
suggested, you would kill more species, would have an adverse 
effect on salmon, and you know it would be, the conditions are 
so serious. And when you look at that Northwest area that has 
got a lot of class three, doesn't it?
    Mr. Mills. Yes, it does, especially in southern Oregon, 
there, on both sides of the Cascades.
    Mr. Dicks. It is hard to conceive on the west side just 
because of the difference in weather. So have we done research 
in all of these areas or is the same--I know you have different 
species on the west side than you do on the east side. Do you 
get into the pine, right?

                              Fire Cycles

    Mr. Mills. Right, more pine on the east side, but there is 
also some there in southern Oregon. The color codes here deal 
with what we have done to the natural fire cycle. There is a 
natural fire cycle on the west side even though it is far 
longer, two or three hundred years instead of 20 years like the 
east side. So we still have some systems on the west side, far 
fewer, that we have taken out of the natural fire cycle.
    So just as you said earlier, even after we thin on the east 
side, we still need to accomplish a reintroduction of fire as 
part of that system, the way it functions, or we will be back 
in the same spot we are in now.
    Mr. Dicks. Were you involved in the creation of the forest 
plan?
    Mr. Mills. No, I wasn't. That took place before I got 
there.

                           Survey and Manage

    Mr. Dicks. Have you been involved in any of the survey and 
manage issues on these 400 species that the Forest Service was 
supposed to do research on and did not--the judge has now 
enjoined us on.
    Mr. Mills. I am involved a little bit. In fact, some of the 
station scientists are some of the experts on the salamander 
and the fungi and northern spotted owl, some of the species 
involved, doing habitat work on what their habitat 
characteristics are and how to even identify them.
    Mr. Dicks. This is a very big problem, isn't it? Some of 
these things, it is almost hard for me to understand how they 
could have been put into this plan when for some of them it is 
very difficult to do this research.
    Mr. Mills. Extremely difficult. It is kind of the 
convergence of two interesting trends. One is the Endangered 
Species Act which requires a positive certification that you 
provided for in the National Forest Management Act viability 
requirements. You provided for the viability of these species. 
Yet it is coming right up to the edge. There are a lot of 
species we do not know very much about. So perhaps, 
unfortunately, we found ourselves in a situation where dealing 
with uncertainty required these surveys of a very, very long 
list of species for which we have relatively limited 
information.
    Mr. Dicks. Now, you say that you were not responsible to do 
the surveys on all 400 of these species; is that correct?
    Mr. Mills. That is correct.
    Mr. Dicks. Who else would have been doing it?
    Mr. Mills. Well, the land management agencies, the Bureau 
of Land Management and National Forest System that actually 
initiate the treatment actions. The ones that had the positive 
requirements to go out and do the pretreatment surveys or 
preharvesting surveys. Research organizations, not only the 
Forest Service, but State Biological Resources Divisions and 
others have key responsibility to put together some of the 
survey protocols. So we put a lot of energy and effort into 
doing that, but it is a long list.
    Mr. Lewis. I would like to provide some additional 
information on that. I was up at Northeast when that decision 
was made. One role that I see research playing is to provide 
the best, most credible objective scientific information as 
possible, not only to management but to policy-makers as well. 
The Research Branch and I led that effort and did a pretty 
intensive review of the draft planning regs. One example we 
looked at internally within Research was Survey and Manage. I 
personally felt compelled--that we needed to make sure we did 
not get back into a situation like that.
    I am a plant pathologist by training. I know a lot about 
fungi. There were 234 species of fungi that were to be surveyed 
and managed. I am not saying that is good or bad, but there 
were some things that we could add to the decision-making. I 
feel that, as an administrator of the Research branch, I have 
an obligation to do that.
    Mr. Dicks. To speak out?
    Mr. Lewis. To speak out truthfully.

                   PRESIDENT'S NORTHWEST FOREST PLAN

    Mr. Dicks. Truthfully. And you see, this is what bothers 
me. It is hard to conceive--I guess this was done at the end 
when the forest plan was put together in order to gain support 
from certain biologists about, you know, whether they would 
support this plan or not, and so this condition got laid down 
and now the Forest Service was unable, not blaming the research 
part of the Forest Service, but was unable to do the job, and 
so then the same people who wanted this included, they go to 
the court, and the court says you haven't done the work, 
therefore you are enjoined and therefore the timber 
harvesting--and where we have reduced timber harvesting by 85 
percent in the Pacific Northwest--gets reduced almost to zero 
again. So it has caused the people who went along with the 
forest plan and supported it to have to rethink whether that 
was a wise thing to have done in light of the fact that the 
Forest Service didn't get this part of the job done. I think it 
was an unrealistic condition to have been laid down, at least 
on some of these species, as you have mentioned, but the fact 
is that we just didn't get it done.
    Now, is that the problem of research or whose problem is 
it?

                             RESEARCH ROLE

    Mr. Lewis. Research has a role of bringing to the table and 
to the debate, as objectively and as clearly as it can, the 
science and what it costs to do a particular job. We have an 
obligation to do that. Sometimes it may or may not be in sync 
with where a policy-maker might go, but once a policy decision 
is made, as the leader of the Research Branch, I will follow 
that and support it. The role that we play is to provide the 
advice early enough to have some influence on the outcome of 
the decision.
    Mr. Dicks. In this case, the plan was laid down and then 
the work didn't get done, gets enjoined, timber harvest drops 
again, and so, you know, as you might understand, it has caused 
a real serious credibility problem for the Forest Service in 
the Pacific Northwest amongst those people who are hoping that 
we would at least get back up to a billion board feet after we 
had been reduced from, what was it, 4.5 billion board feet, 
which probably wasn't sustainable.
    So either the mistake was in allowing this in the plan in 
the first place or, number two, was not getting the survey and 
managed part of it done once it was in the plan, and part of it 
rests with the research people and part of it rests with the 
people who manage the forest. Is that the bottom line?
    Mr. Lewis. Right, and Tom Mills and the Pacific Northwest 
have been bending over backwards to try to rally support and do 
all that they can. I compliment him for his effort. He has been 
working with the National Forest people even on Survey and 
Manage.
    Mr. Dicks. I don't have any further questions.

                     SMALL-DIAMETER WOODY MATERIAL

    Mr. Regula. We will come back if you do. On the previous 
panel we heard a lot about thinning and utilizing products as 
part of forest health. Do any of you get involved in research 
on how to use the material produced by thinning? It is kind of 
the old thing of getting everything but the squeal out of the 
pig at the meat factory, and this is fiber. Is there research 
that would encourage thinning? Isn't thinning an important part 
of forest health?
    Mr. Lewis. Thinning is an important part of forest health, 
and therefore, in our 2001 budget initiative, we have a focus 
on small-diameter material. One of the principal players would 
be the Forest Products Lab--how do we develop a marketable, 
profitable----
    Mr. Regula. Are you talking about the federally operated 
Forest Products Lab?
    Mr. Lewis. Right.
    Mr. Regula. Any of you in the prior panel want to comment 
on that?
    Mr. Dubensky. Yeah. One of the areas in which we believe 
that the forest research should emphasize is the Forest 
Products Lab for the exact reason that Dr. Lewis had mentioned, 
that they do sort of have new innovative ways of utilizing this 
small-diameter material, using it for strength characteristics 
and opportunities to use it in ways that we hadn't thought of.
    Mr. Dicks. I can tell you this, Mr. Chairman, out in the 
Northwest, small-diameter trees are being utilized and they are 
being chipped, they are being used for lumber, you know, they 
are being utilized, and my view of it, of course, is that in 
many instances that precommercial and commercial thinning are 
appropriate, pruning can be very helpful in getting larger 
structure sooner. That is one reason, Mr. Mills, I so strongly 
supported the research efforts of Chad Oliver at the University 
of Washington, which I understand you had some difficulty with, 
but I just want you to know we are going to continue to support 
that research because we want to have a divergence of views in 
the Northwest about how you manage these forests because I 
don't believe this putting a circle around them is the way to 
do it. So I just want to make that clear.
    Mr. Regula. To follow up, does the environmental community 
accept the idea of thinning as a proper function of forest----
    Mr. Dicks. Not everybody.

                          CHOICES IN RESEARCH

    Mr. Mills. Could I add to that if I could? I agree 100 
percent, Congressman Dicks, that we need a wide range of 
choices. In fact, much of the research we are doing, including 
some of the research we are doing collaboratively with Dr. 
Oliver, is looking at some of the choices, including thinning 
in second growth stands to create old-growth structure and 
produce timber simultaneously. We not only have thinning 
studies on the Olympic Peninsula that do that, we have got some 
major studies collaboratively with the Washington DNR on the 
Capital Forest to look at different harvesting techniques and 
silviculture techniques and different green leaf trees.

                          ADAPTIVE MANAGEMENT

    Mr. Dicks. Frankly, one of the failures of the forest plan 
is that the adaptive management part of it has not been 
successful.
    Mr. Mills. And I would agree with you on that.
    Mr. Dicks. We not only didn't do the survey and manage 
right, we haven't done the adaptive management part of it, 
either, which leads people to think that the Forest Service has 
made a decision in the Northwest that they are not going to be 
engaged, that they are going to just kind of put a big circle 
around the forest and not do much.
    Mr. Mills. May I respond?
    Mr. Dicks. Sure.
    Mr. Mills. I sure do agree that adaptive management is a 
challenge. Our research has shown that we talk a lot more about 
it than we do it. One of the reasons for that is, some of the 
other procedures, like NEPA, are still in place. So the 
flexibility of the decisionmakers simply to change adecision 
document, such as in the survey and manage case, without going through 
the whole NEPA procedure might have been a great idea, but according to 
at least the legal advice Justice provided, the answer was, you still 
have to go through NEPA.
    We are working on a lot of alternatives to simply putting 
lines on a map and reserves. In fact, we have got some very 
active research on the H.J. Andrews Experimental Forest, which 
the earlier panel testified about, looking at some of the fire 
history and fire cycles to look at alternatives to simply a 
conservation biology reserve-based approach. We are fairly 
confident that we have got some good alternatives that are 
available.
    Mr. Dicks. I hope you continue to do that kind of research 
even if it isn't politically correct.

                     Forest Inventory and Analysis

    Mr. Regula. Do you agree with the previous panel that FIA 
is a very important element of your ability to manage well?
    Mr. Lewis. I agree that it is a very essential part. One 
thing that is in the written testimony is the start of forestry 
research in this country. It was in 1876 that Congress 
appropriated 200 dollars--I am sorry.
    Mr. Dicks. Two thousand dollars.
    Mr. Lewis. Two thousand dollars and that was focused 
primarily on assessment of a State forest in this country, and 
it has been part of the foundation of research. Now, the 
surveys point out where we have problems. Recently, we added 
Forest Health Monitoring. We can detect early where we have a 
major problem and then we can concentrate research efforts in 
those areas.
    The inventory analysis points out problems from the way--I 
do not think it is the same with industry. I am not an industry 
person, but from a purely scientific point of view, the survey 
will show me where the problems are. Then the next step in the 
research----
    Mr. Dicks. Right up there on that map.
    Mr. Lewis [continuing]. Is to go to those areas and figure 
out what is going on and to provide some good advice to the 
managers and policy-makers.

                        Social Science Research

    Mr. Regula. The previous panel, as well as you, said we 
have to do science on social goals. I have to tell you, some of 
our colleagues had a little fun with us last year on the floor 
of the House. They wanted to know what was this study on, 
quote, ``Voices from the Southern Forest,'' which examines the 
changing social, economic, attitudinal and other voices of 
Southerners and speculates about the meaning these changing 
voices might have on the future of forest wildlife management 
in the South. Of course, they were trying to point out that 
this is kind of fuzzy and maybe wasn't a wise expenditure of 
tax dollars.
    I would be interested in how you would respond to that had 
you been on the floor managing the bill instead of Mr. Dicks 
and myself.
    Mr. Lewis. Mr. Chairman, I first would like to thank you 
personally for your effort in working through that. I read the 
transcript and it was really commendable.
    Mr. Regula. I had to play it by ear a little bit.
    Mr. Lewis. But I intend to make sure you do not have to 
play it by ear. We have hard information. We have copies of 
those publications and I have brought them with me. I was going 
to talk about them, but there is a person who is better able to 
do that than I, the Station Director whose scientists published 
that publication, Pete Roussopoulos.
    Mr. Dicks. Were the humanities involved in this at all?
    Mr. Roussopoulos. Why, of course. Thank you, Mr. Chairman, 
for bringing that question to the fore here. You have no idea 
how impatiently I have been waiting for the opportunity to 
answer it, and I would like to address it, I guess, at two 
levels.

                      Natural Resource Conference

    I have brought with me a copy, and Mr. Topik has a copy of 
that, I think, from shortly after the discussion you had on the 
floor. It is the in-house published version containing the 
Voices paper--on page 332, I believe, is where that appears. It 
is a session that was held at the North American Wildlife and 
Natural Resource Management Conference that was held in 
Orlando, Florida, about a-year-and-a-half ago or 2 years ago, I 
believe, focusing on southern forests.
    That session at the Conference was intended to paint a 
picture for attendees from all over North America of what part 
of the country they were in and what were the forests and 
natural resource conditions there. I was asked to co-chair that 
section. We composed a program that looked at all aspects of 
forestry in the South. It would have been irresponsible to talk 
about just the trees without talking about the human elements 
that impact them. And so there was a paper that addressed 
issues of demographic change, changing values, changing 
population structure, and expectations of their natural 
resources.
    It actually was received quite well. It was a 
disappointment to me to learn that few had actually seen the 
article when the discussion took place. The picture that was 
painted needed that piece of it. So there was, I guess, a 
programming reason for addressing that issue. We used the 
title, a snappy title, to try to draw people into the session, 
just a gimmick, I guess.
    But a more fundamental level, I think, gets to what many 
members of the earlier panel were addressing. If sustainability 
is the centerpiece of our focus--and I believe that there is 
not a speaker that appeared here this morning that did not 
mention the word sustainability--and I view our purpose in 
natural resources science as providing the scientific 
information and the technology to put it to good use to ensure 
a sustainable future with respect to forest resources. If that 
is true, and if we are accepting international definitions of 
meeting the needs of the present without impairing the ability 
of future generations to meet their needs, then I would think 
the question of what those needs are, how are they changing, 
how might we expect those needs to change, would be germane to 
the issue at hand.
    I see the social science aspect as probably the most 
glaring hole in our development of a natural resources program 
right now, now that the State Foresters and many others have 
begun to lend a hand with Forest Inventory and Analysis. That 
would have been my answer to that question a year ago. And 
thank you for the opportunity to address that.
    Mr. Dicks. What did you hear?
    Mr. Roussopoulos. From the voices?
    Mr. Dicks. Right.
    Mr. Roussopoulos. Actually, the word ``voices'' was used as 
a gimmick, once again, to talk about what is changing in the 
population of the South. Basically, it is getting larger, it is 
getting much more diverse from a racial and ethnic and cultural 
standpoint. A larger range of uses of natural resources, uses 
of public and private forestlands, is being exhibited from that 
population. There are some projectionsthat are offered there as 
to how that might continue to change in the future and what it means in 
terms of providing recreational opportunities for that changing 
population; providing the ability to meet the growing demands that the 
entire Nation, and even world, is placing on the southern forest 
resource, both commodity and amenity values.

                        Abstruse Research Paper

    Mr. Regula. Another one was challenged and I quote the 
title, ``The Analytical Hierarchy, Process and Participatory 
Decision Making: A Systematic, Explicit, Rigorous and Robust 
Mechanism for Eliciting and Quantifying Subjective Judgments.'' 
Well, that is probably a challenging statement to interpret, 
and I might say parenthetically, be more cautious maybe in 
titles that you use for papers, but you can understand that 
some of the Members challenged the expenditure of funds on this 
type of thing. Maybe Mr. Dicks could have but I was hard 
pressed to say just exactly what that meant.
    Mr. Dicks. I thought you did an outstanding job, Mr. 
Chairman.
    Mr. Lewis. Mr. Chairman, I have a copy of that paper. It is 
a very scholarly, scientific paper written by a Southern 
Station scientist from Blacksburg, Virginia, and two university 
collaborators. They have lots of theoretical things, but it 
needs to be translated for the average user.
    Mr. Regula. So that the man on the street understands.
    Mr. Lewis. Basically, it says managing natural resources 
requires both social as well as biophysical consideration.
    Mr. Regula. I think our previous panel said that is true, 
as do you.
    Mr. Lewis. The average person picking this article up, 
reading it as it is written, frankly, would not connect to it, 
I agree. The title is too complicated, but it was written 
primarily to other scientists. The translation of this would be 
converting the information to usable form such as Dr. Tom Mills 
has done.
    Mr. Mills. If I could bring your attention to this, I 
think, Congressman Dicks.
    Mr. Lewis. An example of how we can do this better.

                           Layman's Language

    Mr. Mills. You raised the point earlier about, not only 
doing the science and communicating it to other scientists and 
resource professionals, but getting it out to a far broader 
audience. This is an example of some of the efforts we have 
underway. We put about 10 of these out a year. It takes some 
fairly complex science. In this case, do elk need thermal 
cover? The answer is, yes, they need some protection from the 
wind but they also need some sun. This has got some tremendous 
implications for harvesting and thinning some of those dense 
stands on the east side of Oregon and Washington. That gets out 
to a mailing list of some eight thousand people.
    Mr. Regula. Well, I think you ought to consider putting it 
in a little more layman's language. I have to say the Forest 
Service is, to some extent, a well kept secret. If I would talk 
to my average constituent and talk about the National Park 
Service, they would understand what I am talking about. 
Although if I ask what does the Forest Service mean to you, 
they might be a little perplexed, because I think it was Mr. 
Dicks or one of you that said people think lumber comes from 84 
Lumber and milk comes from Safeway. Maybe it is a story that 
needs to be told, recreation, water quality and air quality. I 
believe Mr. Dombeck said that 60 percent of the water starts on 
the national forests.
    Mr. Mills. That is a number that rings a bell in the West 
anyway.

                           Telling the Story

    Mr. Regula. Well, certainly it would be in the West. You 
have the highest number of visitor days, triple that of the 
Park Service, allegedly, for recreation. So there are so many 
elements to the forest. They are extremely valuable to the 
public, and I am not sure that story gets told very well.
    Mr. Lewis. It is a difficult thing. Even members of my 
church--when I tell them where I work, they think I am from the 
Park Service when I talk I about National Forests. I understand 
exactly what you mean. Sometimes I feel like Rodney Dangerfield 
working in this outfit.
    Mr. Regula. Well, like I said, to the previous panel, as 
well as yourselves, national forests are extremely important to 
this Nation's future in terms of recreation, in terms of air 
and water quality, in terms of the preservation of that very 
valuable resource, i.e., wood fiber and so on, and I don't know 
exactly how we get that story out. These titles don't exactly 
do a good job of that, and maybe what you ought to think about 
is putting your story in a little more laymen's language, if 
you will, so we get a greater appreciation of it.

                            Customer Service

    Mr. Lewis. Mr. Chairman, I have a pretty good story along 
that line. We, over the past 5 to 6 years, have concentrated a 
lot on customer service. In fact, we have hired consultants to 
help us design and keep track of how we are serving our 
customers. We have taken that feedback and used it, I think, 
for a good outcome. Actually, one of them led to these 
publications on social science being on the Internet because 
one of the things customers told us was to provide a list of 
our publications on the Internet and we have done that. They 
also told us that many of our publications were too 
complicated. They could not read and understand it as well as 
they should. Therefore, Pete Roussopoulos as well as Tom Mills 
and others went to this kind of format to make things a little 
bit easier for customers to identify.
    We believe that we have a great field of opportunity in 
customer service, in reaching the average American public as 
well as the professionals and the policy-makers and so forth, 
both in the Administration and in Congress. I look forward to 
actually capitalizing on this even more as we look to the 
future in what we can do as a research organization.
    Mr. Regula. I see a lot of communities are undertaking 
``Plant a Tree'' programs. I think there is the potential there 
for a greater appreciation of what you do and what the private 
sector does, the universities, and so on, in telling the story 
of forestry. It is a great story, it really is. I live on a 
farm and I have planted thousands and thousands of trees 
myself, mostly white pines, and I think the forest story is a 
good one, and I hope those of you in the university world and 
the private sector will work along with the Forest Service in 
getting that story out. It is very important to our Nation's 
future.
    Mr. Lewis. Very good.
    Mr. Mills. Could I add to that just a touch. I wanted to 
bring back to this ``science findings'' because we do make sure 
it is written in layman's terms. Another example isthe 
compilation of information we did in southeast Alaska that was used in 
the Forest Planning process that took hundreds of pages of science 
documents and translated it down into 28 pages of English language 
instead of science-speak.
    Another example is an annual report that we produce once a 
year that has got a very brief summary and just a few 
paragraphs on major studies and it goes out to thousands of 
people. We have also got literally thousands of people that 
attend field tours every year. So we are working hard to take 
some of that stuff, that is pretty complicated stuff, and 
translate it into words that a much broader audience can use.

                        ``The Natural Enquirer''

    Ms. Weber. Mr. Chairman, I would also like to talk for a 
moment about another effort that we are trying to do to 
translate our research results to the general public. In the 
last couple of years, we are now putting together a publication 
which we call, ``The Natural Enquirer'' that is written by 
school-age students, about the fifth grade, sixth grade, 
written by them, for them. It is an effort that started within 
Forest Service Research with the collaboration of students for 
use by science teachers in elementary schools to help them 
understand how science is done--how research is interpreted and 
experiments are done--and then to also deliver some of the 
research results that they can understand and that they use in 
their everyday lives. We would be happy to provide copies of 
our most recent publication which is now being translated into 
Spanish as well.
    Mr. Regula. Well, that is great and I would suggest you try 
to get articles in things like the National Association 
Education Magazine. I assume you have a Web site that tells 
your interesting story.
    I have to adjourn the committee. We have some other things 
to deal with. Well, thank you all, our panelists from the 
previous group, and as well as yourselves. I think it has been 
a very worthwhile hearing.
    Mr. Lewis. One thing I almost forgot, if you would allow 
me, Mr. Chairman. You might recall several years ago I met in 
this room with the President of Mead Corporation and Chief Jack 
Ward Thomas and we signed a Memorandum of Understanding on 
ecological research in Ohio. I am very delighted to tell you 
that that project is working extremely well. They just renewed 
the MOU a few months ago up at Northeastern Station.
    Mr. Regula. That is great, and I gather from the previous 
panel as well as yourselves that there is a lot of cooperation 
between the university world and the forestry world, private, 
public and so on, all basically for the benefit of the public. 
Thank you all for being here. The committee is adjourned.
    [Additional questions for the record follow:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Wednesday, April 5, 2000.

                  SOUTH FLORIDA ECOSYSTEM RESTORATION

                               WITNESSES

JIM WELLS, DIRECTOR, ENERGY AND NATURAL RESOURCES DIVISION, GENERAL 
    ACCOUNTING OFFICE
SHERRY McDONALD
CHET JANIK
MARY DOYLE, COUNSELOR TO THE SECRETARY, DEPARTMENT OF THE INTERIOR
PAM HAZE, DEPUTY BUDGET DIRECTOR
TOM GALLAGHER, FLORIDA COMMISSIONER OF EDUCATION

                            Opening Comments

    Mr. Regula. Well, we have an interesting hearing this 
morning on a very important topic that I think requires a lot 
of attention. I am looking forward to the testimony; and I am 
hopeful that, out of all of this, we can get a reasonable 
completion on a vitally important project, which of course, is 
going to be over a number of years.
    Mr. Dicks, do you want to make any comments?
    Mr. Dicks. I just want to thank the chairman for the 
leadership he has demonstrated on this issue. This is a very 
important project that affects the State of Florida and the 
country, and it is one of the top priorities of this 
administration. There is a lot of work that needs to be done, 
and cooperation that needs to exist between the Interior 
Department, other agencies, and the State of Florida. I think 
the efforts on your part to ensure that we have a strategic 
plan and a clear way of proceeding are essential to the success 
of this project. We are talking about very significant amounts 
of Federal money, so I think having the GAO do this report and 
doing this oversight are very useful for the Congress.
    Thank you, Mr. Chairman.
    Mr. Regula. Thank you.
    The alternative seems to be a collapse of the ecosystem in 
the Everglades, which would be tragic, so we are anxious to 
hear--first this morning from the General Accounting Office, 
Mr. Wells, Director of the Energy and Natural Resources 
Division. Share with us your observations on what is 
transpiring in this whole project.

                             GAO Testimony

    Mr. Wells. Thank you, Mr. Chairman.
    Mr. Regula. Your whole statement will be made part of the 
record.
    Mr. Wells. Thank you. We are pleased to be here today to 
discuss the management of the South Florida Ecosystem 
Restoration Initiative which is, as you know, one of this 
country's most significant environmental endeavors.
    Before I begin, I would just like to introduce my 
colleagues here, Chet Janik and Sherry McDonald, who manage the 
GAO work on the initiative. They will be more than glad to 
answer all the difficult questions, and I will take the easy 
ones. How about that? And we will save some of the tough ones 
for Mary Doyle when she comes up.
    Restoring the South Florida ecosystem will take at least 20 
years to complete, but it is also much more than just time. The 
problem is that the Everglades is sick and dying. The task at 
hand to save the Everglades will be difficult and expensive.
    As you can see from the map on the right there, the 
ecosystem is extremely large, about 18,000 square miles or 11.5 
million acres. The components include the Everglades National 
Park, Lake Okeechobee, the water conservation areas and many 
other parks and refuges.
    The Restoration Task Force was established by the Congress 
to coordinate and facilitate this very complex long-term 
effort. We are here today, Mr. Chairman, to discuss the 
Department of Interior's actions in response to previous GAO 
recommendations and what the task force and Interior have done 
to identify and acquire lands which are critical to the success 
of this initiative. I will briefly summarize.

                          GAO RECOMMENDATIONS

    Last April, we made two recommendations in a report to you 
Mr. Chairman, and to this committee to improve the management 
of the initiative. First, we recommended that the Secretary of 
Interior, serving as the chairperson of the task force, in 
conjunction with all the other 40-some members of the task 
force, develop a strategic plan that would outline clearly how 
the restoration of the ecosystem would occur. It would identify 
the financial resources needed to achieve the goals and assign 
accountability for accomplishing those actions identified in 
the plan. Then, finally, it would try to link the initiative 
strategic goals established by the task force to outcome-
oriented annual goals.
    We can report to you today that the task force is 
developing that strategic plan which is scheduled to be 
completed in July and reported to you.
    Interior just recently released a progress report. The 
progress report does not contain details of the plan as of yet. 
Without these details, we cannot today determine whether the 
plan will adequately address our earlier recommendation or 
whether it will be sufficient to successfully guide and manage 
the initiative. We hope that the task force will take this 
effort seriously when it presents its plan in July.
    We also recommended that the task force develop and agree 
on a decision-making process to resolve conflicts that not only 
have already occurred but will inevitably occur as the 
restoration progresses. Although a conflict resolution process 
is not yet in place, Interior has developed recommendations 
that it will propose to the task force in its April meeting for 
resolving the most difficult conflicts among the Federal State 
tribal and local entities that are participating in this 
initiative.
    Mr. Chairman, we are encouraged that Interior most recently 
has recognized that resolving future conflicts among these 
agencies is going to be extremely critical to the success and 
the timing of the completion of this initiative. Getting 
consensus, as you can imagine, with all the players is going to 
be extremely difficult. We hope that the procedures that will 
be proposed will include when and what types of conflict will 
be elevated to the task force, and if the task force can use 
outside expertise in resolving these conflicts will be included 
in the plan. Many of the ongoing conflicts that we have 
observed seem to be going on without a lot of communication in 
terms of who is doing what to whom and when, and everything 
seems to be--so we are hoping that these conflict resolution 
procedures will elevate and speed up some of the decision-
making that needs to occur.

                 GAO RECOMMENDED LAND ACQUISITION PLAN

    Our latest report, which is being released publicly to you 
and to the public today, discusses land acquisition, a process 
that is integral to accomplishing the initiative's three major 
goals. As you are well aware, goal one was to try and get the 
water right. Goal two was to restoring and enhancing the 
natural environment that existed in the Everglades before a lot 
of changes were made. And goal three was transforming the 
existing built-in environment in terms of sprawl.
    While critical to the initiative's success, we found that 
the task force has not yet developed a land acquisition plan 
that gives them the opportunity to identify all the lands that 
are needed to accomplish the goals. Our report recommended that 
the task force develop such a plan. Interior agreed and the 
States suggest that such a plan may not be needed or is 
duplicative of what they may already be doing.
    Within the last week, Interior has taken the first step in 
developing this land acquisition plan by compiling--and I 
believe it was sent to you--a list of lands that have been 
identified for acquisition by both Federal and State agencies 
participating in the initiative. As we stated in our report, we 
believe this is a good start but only a start. Since the task 
force cannot buy land itself, we believe that the task force 
could use and really benefit from having a plan that will help 
guide and steer the agencies with land-buying authority to 
achieve these restoration goals as quickly as possible.
    Our current report also highlights the importance of 
acquiring as much land as possible as quickly as possible. 
Because, as you know, undeveloped land in South Florida is 
becoming extremely scarce and very costly to acquire.
    Congress provided Interior $200 million in its 1996 Farm 
Bill. Interior granted the funds to the State to buy four 
properties. You can see in the properties on the overlay of the 
map Talisman, Carroll Property, East Coast Buffer, and Southern 
Golden Gate Estates.
    We believe that Interior lost the opportunity to buy as 
much land as possible with the Farm Bill funds. We base that on 
the fact that Interior developed a cost-sharing policy that 
required the State of Florida to match the Federal funds dollar 
for dollar but did not consistently require the State to match 
the funds on several of those four grants. Had it done so, as 
an auditor we could calculate that an additional $77 million 
would have been available to acquire more lands for the 
restoration initiative. By allowing the State to use lands 
acquired earlier, before the grants were officially approved, 
or just waiving the sharing provisions did not maximize the 
acreage required with Farm Bill funds--acquired with Farm Bill 
funds.
    I might add within the comments of the GAO report Interior 
and State did disagree, and they rightly pointed out that, no 
matter what, that the properties that were acquired were high-
priority purchases, and we agree. Our point is not that the 
properties were not needed. Our point was that cost sharing 
certainly helps and using such leverage where possible makes 
sense.
    I think I will just close here and will be happy to respond 
to any questions you may have. Thank you, Mr. Chairman.
    Mr. Regula. Thank you.
    [The statement of Mr. Wells follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                     LAND ACQUISITION COST SHARING

    Mr. Regula. You brought the cost share issue up and the 
Secretary of Interior did waive the cost sharing. Is that a 
statutory requirement?
    Mr. Wells. That is not a statutory requirement. That was a 
policy decision that they made. Again, every time we asked the 
question, they said they made that policy determination in the 
spirit of trying to acquire as much land as possible as fast as 
possible.
    Mr. Regula. Was the State unable financially to do it or 
did they just drag their feet and let Interior pay the bill?
    Mr. Wells. I will let Sherry give you the specifics on that 
because there are details involved.
    Ms. McDonald. We found, in the case of Talisman, Interior 
wanted to close the deal as quickly as possible and was 
concerned whether or not the State would have the money 
available at the time it was needed.
    In the case of Southern Golden Gate Estates, the State had 
been acquiring lands in that area for some time. In fact, they 
spent about $97 million in the past.
    Mr. Regula. Of their own funds?
    Ms. McDonald. Of their own funds to buy land in that area. 
So Interior deemed that as meeting the cost share and waived 
that particular cost share.
    Mr. Regula. Do you think it met the cost share?
    Ms. McDonald. We found they acquired lands after the grant 
was approved that we believe exceeded the cost that they would 
have paid. So we don't believe that counting the lands that had 
been acquired previously meets Interior's goal of acquiring or 
maximizing the amount of land that they acquired.
    We believe that, because the State continued to buy land in 
that area, that they did it in Southern Golden Gate Estates, 
they basically meet the cost-share requirement although not 
required by the grant.
    In the Carroll property, again, Interior accepted as part 
of the match, lands that the State was already acquiring. The 
State again continued to acquire land in that area, about $10 
million more, and we believe, because the State continued to 
acquire land in that area, then they have at least partially 
met the cost share.
    Mr. Regula. So the lands they have acquired are part of 
what is needed for the project?
    Ms. McDonald. Yes. And because they continue to buy lands 
outside the grant, we believe in those cases they have in fact 
met their cost share, although not required by the grant.
    Mr. Regula. The reason for letting the State do it is they 
have an easier set of circumstances to acquire land; is that 
correct?
    Ms. McDonald. The State has the infrastructure in place to 
be able to acquire the lands.
    Mr. Janik. Plus the State has had programs for 50 years on 
acquiring lands.
    Mr. Regula. Why were they doing this? What was their 
mission over the last 50 years in acquiring land? Was it all in 
anticipation of this?
    Mr. Janik. No.

                     STATE LAND ACQUISITION PROGRAM

    Ms. McDonald. The State has been involved in restoration 
activities for the ecosystem for some time. 1993, the Save Our 
Everglades program was initiated. In fact, Everglades National 
Park was actually donated to the Federal Government by the 
State. So they have been involved in restoration activities for 
a long time.
    It is simply in this particular case Interior established a 
cost-sharing policy to maximize the amount of land that could 
be acquired because the land is disappearing quickly. Yet, they 
did not achieve that.
    Mr. Regula. But the State was paying above the appraised 
value, am I correct? That would be a violation of Federal law.
    Ms. McDonald. In some cases. We looked specifically at the 
East Coast Buffer in some detail. Of the 154 properties 
acquired in that area, about 27 were acquired at above 
appraised value. Some of those were condemnations, and they 
paid about 54 percent above price value in those cases.
    Mr. Regula. In the case of condemnations, the jury is going 
to end up fixing the price?
    Mr. Janik. Right. That becomes the appraised value.
    Mr. Regula. So there is no violation, obviously.
    Mr. Janik. It was pretty far above the initial appraised 
value that they had a couple years before that.
    Mr. Regula. Was there a plan, or was this an ad hoc 
decision on land acquisition, or was it part of a pattern to 
fill in what would be the ultimate requirements?
    Mr. Janik. I don't think the objective of all the State 
programs is the same objective as under the current restoration 
initiative. It was basically they had a lot of different 
programs that were initiated since 1947, and a number of them 
that came in in the early '80s, Save Our Everglades and a few 
others, that although restoration is a major part of the 
program, it is not the exact same objectives----
    Mr. Regula. They were interested in water supply for 
development, am I correct? If it wasn't for restoration of the 
Everglades, what was the mission?
    Ms. McDonald. Many of the State programs deal with 
preserving habitat for endangered species, for wildlife 
management areas to provide recreational activities for their 
citizens. Some of the properties were, in fact, for the restudy 
to store water that will be needed later on.
    Mr. Regula. Does the State manage these as part of their 
Fish and Wildlife programs?
    Ms. McDonald. Many of the lands are managed as part of 
their programs.
    Mr. Regula. And they are accessible to the public?
    Ms. McDonald. Yes.
    Mr. Regula. So it is a parallel activity to what the 
Federal Government does.
    Ms. McDonald. Their lands are not incompatible with the 
restoration goals.
    Mr. Wells. The hundreds of ways that land can be acquired 
in South Florida is an illustrative point of why we made the 
recommendation that a strategic plan and a land acquisition 
plan that would help focus and steer what agencies are looking 
at to buy would be a successful help in terms of 
accomplishing----

                             STRATEGIC PLAN

    Mr. Regula. Is that on the way, the strategic plan?
    Mr. Janik. We are supposed to get a copy at the end of 
July.
    Mr. Wells. When we did the original work for you last year, 
in '99, there was not a strategic plan. It was through that 
recommendation----
    Mr. Regula. Will the task force sign off on this strategic 
plan before we get it?
    Ms. McDonald. That is what we would anticipate. Weexpect 
this to be a task force plan that all of the members of the task force 
would agree to.
    Mr. Regula. Are the parties on board to do this? Do the 
State, the South Florida Water District, and Interior and 
probably those representing tribes, all agree on at least 
getting a strategic plan?
    Ms. McDonald. They are currently developing one. It is our 
understanding it will be complete in July.
    Mr. Regula. The inputs are coming from all the sources, all 
the parties to this----
    Ms. McDonald. I assume it will be reviewed by all the 
members.
    Mr. Regula. What happens in the absence of conflict 
resolution? How do these differences get resolved?

                          Conflict Resolution

    Ms. McDonald. Many of the agreements that are between the 
various agencies do have some conflict resolution procedures 
included in them. The conflict resolution process that we 
recommended last year was because we had found that two 
important projects, the Modified Water Deliveries project and 
the -C-111 project, had been experiencing conflicts that were 
leading to schedule delays and cost overruns. In those cases, 
the existing procedures were simply not enough or were not 
being applied, and those conflicts had not been elevated. They 
have not been resolved.
    Mr. Regula. They have not.
    Ms. McDonald. They have not yet been resolved.
    Mr. Regula. There is a need to have a procedure in place 
for conflict resolution. Will it be included in the strategic 
plan?
    Ms. McDonald. No, they are working on one, though. Interior 
has developed recommendations that it will be presenting the 
task force later this month, and those recommendations call for 
the task force to adopt procedures to resolve conflicts.
    Interior has also been discussing the use of outside 
expertise to help facilitate the resolution of these conflicts. 
The procedures have not yet been developed so we do not yet 
have all the details on what the procedures will include, what 
type of conflict would be elevated to the task force, and so 
forth. So until those are actually done----
    Mr. Regula. And they may not be included in the strategic 
plan because the task force will not have yet reached agreement 
on how to do it?
    Mr. Janik. They are supposed to reach agreement, I would 
think, sometime in April or May before the strategic plan.
    Mr. Regula. It seems to me that there needs to be a 
fundamental element of the overall plan on how to resolve 
conflicts. Does the strategic plan anticipate one entity being 
in charge of the whole thing or are you going to still have a 
Hydra-headed program?
    Mr. Janik. I think it will be the latter.
    Mr. Regula. You can't have three admirals on every ship. 
Somebody has to make the battle plan and call the shots. Are 
you saying they should?
    Ms. McDonald. I think what we are trying to point out is 
that this is going to be a very complex effort. The Federal 
Government alone, by itself, cannot do it, nor can the State. 
What we are looking for is some way, as these conflicts occur, 
that they do not go on forever and that the task force as a 
group come together and cooperate and work together to 
accomplish this.
    Mr. Regula. Have they thus far?
    Ms. McDonald. I think the task force is working together. I 
think the conflicts have not yet been elevated to the task 
force for resolution.
    Mr. Regula. Are all the parties represented on the task 
force?
    Ms. McDonald. The State, the Federal Government, and local 
entities as well as the tribes are represented on the task 
force.
    Mr. Janik. One of the problems you have is there are a lot 
of different agencies, some of which have competing missions.
    Mr. Regula. I understand.
    Mr. Janik. That is what they have got to try to resolve.
    Mr. Regula. Did they ever try to resolve these conflicts? 
There are about 20 members on the task force. Did they take a 
vote?
    Mr. Janik. I don't think they have done that for any of the 
conflicts they have had so far.
    Ms. McDonald. I think what the procedures may actually 
include, is a process, at least we hope it will, for resolving 
these.
    Mr. Regula. Mr. Dicks.
    Mr. Dicks. Thank you, Mr. Chairman.
    So the bottom line here is the Department of Interior and 
the State of Florida have not been able to reach an agreement 
on this strategic plan.
    Ms. McDonald. I wouldn't say they haven't reached 
agreement. The task force is developing a strategic plan, and 
the State of Florida and Interior are both represented on the 
task force.

                     State Role in Land Acquisition

    Mr. Dicks. Now, is the State of Florida's position that 
they don't want the Federal Government to be in charge of this?
    Mr. Janik. I think the State's position is more geared 
toward the land acquisition plan that we call for in the report 
we issue today. I think they have problems with that. They 
think they probably can do a better job in that, rather than 
having the task force involved.
    Mr. Dicks. On land acquisition?
    Mr. Janik. On land acquisition, right.
    Mr. Dicks. They are saying, ``we should do the land 
acquisition.''
    Mr. Janik. Right.
    Mr. Dicks. Do they want us to contribute to that 
financially?
    Ms. McDonald. We have been contributing to the land 
acquisition.
    Mr. Dicks. They want to take our money and buy whatever 
they want to buy on a willing seller basis; and their theory 
is, hey, we have been here longer, we put up $300 million, we 
do more than any sovereign nation on land acquisition.
    Ms. McDonald. Yes.
    Mr. Dicks. That is kind of right out of their statement.
    Ms. McDonald. Yes, that is correct.
    Mr. Dicks. But we will take your money to help our effort, 
but we are going to call the shots. Is that the bottom line?
    Mr. Janik. That is what they would like, it seems like, 
yes.
    Mr. Dicks. And they also want to do it on a willing seller 
basis, right?
    Mr. Janik. For the most part.
    Mr. Dicks. Can they get this job done? Can you protect the 
lands that are necessary to save the Everglades if you only do 
it on a willing seller basis? What is your opinion on that?
    Ms. McDonald. I believe some condemnation will be 
necessary. I would hope that you would be able to buy as much 
as you can from willing sellers and that it would be limited in 
terms of what you would have to condemn, but I do believe that 
some condemnation will be necessary.
    Mr. Wells. But as we try to point out in the report, to 
successfully complete this 20-year initiative, to be 
successful, it is going to take a true partnership and a lot of 
consensus agreement, with all parties involved. No one can do 
this alone.
    Mr. Dicks. But the bottom line there is we don't have that 
consensus.
    Mr. Wells. Not yet, but we are encouraged that the task 
force is trying to work through these strategic and planning 
initiatives to see the value in it; and we are optimistic that, 
come early summer, they will have these resolved.
    Mr. Dicks. So what you are saying is we have got to wait 
till early summer and see if they can develop the report?
    Mr. Wells. We have certainly stressed with the chairman the 
importance of the recommendations that GAO has made for 
strategic planning, the value that can be added, and so we are 
still optimistic that by early summer they will have this done.
    Mr. Dicks. Does the Department of Interior have a list of 
lands that it wants to acquire?
    Mr. Wells. Just within a matter of weeks, they have 
provided an identified list of lands that they have already had 
published. We say that is a good start, but we are clearly 
aware that that is not a complete list of everything that is 
needed. There is much more land that is needed that is not 
contained in that list. It is a start.

                          TOTAL COST ESTIMATE

    Mr. Dicks. I want to ask you your view of the current 
estimates of the total cost of the Everglades project--Federal, 
State, and local. Last summer, the Corps of Engineers report 
included an estimate of $7.8 billion. On March 30, the 
Department of Interior provided a more inclusive estimate which 
raises the total to $14.8 billion, making it the largest 
project of its type in history. Discussions early this week, 
however, indicated that $14.8 billion estimate does not include 
any of the cost associated with transforming the built-up 
environment, so-called goal three. This last goal could be very 
expensive. Where do you see cost going once goal three is 
considered?
    Mr. Wells. Higher, much higher.
    Mr. Janik. First, I think----
    Mr. Dicks. Is $20 billion in the ballpark or is that maybe 
low?
    Mr. Janik. Number one, we don't know. Because, apparently, 
they are in the process of changing goal three; and we don't 
know where they are going to come out on that. But we do want 
to commend the Department for coming up with this estimate and 
especially for breaking down the estimate by each of the goals. 
We think that is a good start, but there are a number of 
projects and items that probably--that aren't included in the 
cost estimate that eventually will make it go much higher.
    Mr. Dicks. We have been told that goal three is absolutely 
essential, that without it the project will fail. How critical 
is goal three? You can only compromise--if it is that critical, 
then you can only alter it so much without undermining the 
objective you are trying to accomplish. We waste all this 
money. Is that a fair conclusion?
    Mr. Wells. There is no doubt that any attempt to redefine 
goal three needs to be very carefully looked at in terms of 
what is either being compromised or not achieved based on the 
original goal three goal.
    Mr. Dicks. As you note, Florida has submitted a statement 
saying they are against a Federal takeover of the land 
acquisition role which the State could manage. You don't agree. 
You think they ought to work this out, right?

                  TASK FORCE ROLE IN LAND ACQUISITION

    Mr. Wells. Absolutely. We believe that the task force, 
while they can't acquire lands, can certainly steer and guide 
and make suggestions to acquire the land that is the most 
critical and highest priority to help the initiative. Nowhere 
in our report do we make that recommendation that they take 
over and----
    Mr. Dicks. You think they ought to do it on a partnership 
basis?
    Mr. Wells. Absolutely.
    Ms. McDonald. Absolutely.
    Mr. Janik. Absolutely.
    Mr. Dicks. Lastly, the State is also unhappy about being 
criticized in the report for not fully matching the cost of 
Farm Act-financed land acquisitions. They say they have 
overmatched for 20 years and that, besides, matching is not 
even required in the law. Is it fair to hold them to a 
voluntary requirement based on a technical difference in 
matching for the project when their long-term commitment has 
been so substantial?
    Mr. Janik. What we did with repect to the cost share is 
observe that the Department's main overall purpose was to 
maximize the amount of lands that they wanted to purchase. By 
giving them credit for prior purchases, this is lands that the 
State had already bought, as a result, you are not adding to 
any acquisitions with this. So, therefore, we didn't think that 
they were maximizing the amount of lands that they could get.
    However, to be fair with the State, in a couple of cases 
the East Coast Buffer and the Southern Golden Gate Estates, 
after the grant was approved, the States continued to buy land 
in those areas. We gave the State credit for their share for 
those properties. But the key, at least from our standpoint, 
was maximizing the amount of lands. Prior purchases do not add 
lands and, therefore, do not maximize it.
    Ms. McDonald. We certainly recognize that the State has 
acquired a great deal of land throughout the State of Florida. 
In fact, we point throughout the report to instances where they 
have identified and acquired lands for restoration purposes. 
Our point in this case is simply that the goal was to acquire 
as much land as quickly as possible because the land is 
disappearing, and by allowing prior purchases as a match, you 
don't achieve that goal.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Regula. Mr. Skeen.

                     USE OF CONDEMNATION AUTHORITY

    Mr. Skeen. This land acquisition, we had a reverse problem 
in New Mexico and western States over there because the Federal 
Government owns so much of that land today. Do you have 
condemnation authority today and have you used it?
    Mr. Wells. The Federal agencies involved in the State of 
Florida do have condemnation authority, and they have used it.
    Mr. Skeen. We have got a deal for you, if you will trade 
land with us in New Mexico and the western States over there 
and you can lay this off on the Florida situation.
    Mr. Wells. You raise an interesting point, because there is 
an example where the Federal Government was able to trade land. 
There was some Phoenix land that was traded with a private 
developer, and the Federal Government was able to acquire some 
land in Florida. So it does work, and it has worked.
    Mr. Skeen. As long as we have such a low rainfall, you may 
have a little problem.
    Mr. Wells. We need land and water.
    Mr. Regula. You don't have any water, do you?
    Mr. Skeen. We will take both. That is a very challenging 
situation, because the government and western States still own 
huge amounts of land and then as the trade in places like 
Florida shows to the eastern States--land is one of our 
problems. We have always had to explain to everybody about our 
land situation--what is our situation in Federal lands in the 
West. The people in the east all look on western lands as their 
property as well. They love to come and recreate out there. We 
don't mind having them, but this whole swap thing with Florida 
has brought up this idea and made it more acute.
    You have got a tough problem, as you already indicated. 
Nobody wants to give up land to the Federal Government, and the 
Federal Government doesn't want to give up any land.
    Thank you.
    Mr. Regula. Mr. Hinchey.
    Mr. Hinchey. Thank you very much, Mr. Chairman.
    Your report focuses on the need for land acquisition in 
order to accomplish the three major goals that are set forth in 
order to accomplish the restoration. I would certainly agree 
with you that this is fundamental and very basic.
    One of the arguments you have, as I understand it, is the 
Federal Government has not really held the State strictly 
accountable for matching the amount of money that the Federal 
Government is putting in and that, in fact, they are giving 
them credit for previous purchases which you feel is cheating a 
little bit, and that amounts to about $77 million. Do I have it 
straight so far?
    Mr. Janik. Yes.
    Mr. Hinchey. Basically, that is right?
    Mr. Janik. Yes.
    Mr. Hinchey. I think that all of that makes sense, and I 
think that it would be good if we could get the State to come 
up with another $77 million. That would, of course, enable the 
purchase of substantially more land, which is, I would agree, 
critical to accomplishing these objectives.
    One of the things that troubles me is this need for a list 
of lands that would be acquired. Are you recommending that they 
stipulate which lands ought to be acquired over a period of 
time?

                       Land Acquisition Strategy

    Mr. Wells. No, we are not. The land acquisition plan that 
we envisioned would be a targeted--we are not talking about 
identifying specific parcels of land that are needed. We are 
talking about what types of land would be needed and what types 
of areas would be needed to accomplish the objective.
    If it is water storage, one could have a land acquisition 
plan that could go out in several different directions 
depending on what would be available at a given time. We 
understand the concern that trying to identify individual 
parcels of land in a public document would have price 
implications in terms of a seller. That is not the intent of a 
plan. A plan is a strategy that puts in place what types of 
land are needed and in what direction those lands might be 
needed. So it is more global planning and not a specific plan.
    Mr. Hinchey. Thanks for clarifying that for me, because 
that was my concern exactly.
    If you identify the specific parcels you are interested in, 
the tendency, is for those parcels to increase in value or at 
least to have the land owners ask for more money for the 
purchase of these lands.
    Mr. Janik. But they could, at least, come up with general 
areas. As a matter of fact, if you look in the restudy, the 
restudy says they need 220,000 acres of land and people can go 
through that restudy and figure out to some degree where they 
need land. But that is what we are saying. At least you can 
identify general areas. You don't have to get into the 
specifics.
    Mr. Hinchey. When you say general areas, do you mean 
general areas geographically or general areas by type?
    Ms. McDonald. It would be both.
    Mr. Hinchey. In other words, the types of land that could 
be wetlands, it could be buffer lands in specific areas. We 
want to acquire these--identify the specific number of buffer 
lands that you wish to acquire, say, due west of the Big 
Cypress National Preserve.
    Mr. Janik. Right.
    Mr. Hinchey. That has some of the liabilities of a direct 
identification but not as many. The liabilities probably aren't 
as severe.
    Mr. Wells. Although the bottom line is, land is going to be 
expensive, no matter what you do.
    Mr. Hinchey. No question about it. Your admonition for 
moving quickly, therefore, is I think also a very important 
one.
    Mr. Wells. Not only moving quickly but making sure you 
don't end up having bought land that in the end you figure out 
you don't need. That would be a tragic situation also if you 
didn't have a plan to help you not do that.

                           Status of Planning

    Mr. Hinchey. I can see your point there. That makes some 
sense.
    But, essentially, what you are telling us today is largely 
optimistic, it seems to me. You seem to feel that this process 
is moving along fairly well, and the strategic plan is being 
developed. It is scheduled to be completed in July of this 
year. That seems to me, if I am reading your testimony 
correctly, that you are saying things are moving in a positive 
direction.
    Mr. Janik. They are moving forward. There are no details 
yet behind them, and the devil is in the details. So that is 
what we are waiting for.
    Mr. Dicks. Would you yield just a second?
    Mr. Hinchey. Yes, of course.
    Mr. Dicks. Could you have a secret plan like Richard Nixon 
did to end the war? We keep a lot of plans secret at the 
Federal level.
    Mr. Hinchey. Some of them are even real.
    Mr. Dicks. This would be unique. We may have to think about 
that. Thank you for yielding.
    Mr. Hinchey. My pleasure.

                         RESULTS OF RESTORATION

    Mr. Regula. Let me go to the chairman, but before that, 
fast forward 20 years and $20 billion. What are we going to 
have? Ideally, what is the ultimate result of 20 years and $20 
billion?
    Ms. McDonald. Ideally, I would hope that many of the 
elements of the restudy, if it is authorized, are in place. We 
are storing more water, and the Everglades and the other parts 
of the ecosystem are getting the water that they need when they 
need it and that it is of the right quality. I would hope that 
some wildlife corridors have been reestablished and connectors 
have been put in place, that the Florida panther is doing well, 
that the wading birds have returned and that Florida Bay is 
rebounding and that we would see a recovery in the ecosystem, 
if the initiative's goals are actually implemented.
    Mr. Regula. How about the East Coast Aquifer, because that 
has got to be part of this?
    Ms. McDonald. The East Coast Buffer is part of the restudy.
    Mr. Regula. Would that aquifer be charged or be able to 
handle population growth?
    Ms. McDonald. The restudy does have some plans for meeting 
the increased population, so we would hope that the water that 
is needed for the urban areas as well as agriculture areas 
would also be provided.
    Mr. Regula. So the agriculture areas could still flourish 
20 years from now?
    Ms. McDonald. That is the plan.
    Mr. Regula. So all three parties--in effect, the aquifer, 
the ecosystem, and agriculture--would all prosper if this is 
done right?
    Ms. McDonald. The ecosystem is not just the natural system 
which is the Everglades and Big Cypress. It is also the built-
in environment which includes the east and west coast populated 
areas of Florida. The restoration would also impact them, and, 
hopefully, they would benefit from----
    Mr. Regula. Would there be an impact on the west coast?
    Ms. McDonald. The west coast is definitely part of this.
    Mr. Regula. How are they enhanced in the west coast? I 
don't see an aquifer problem.
    Ms. McDonald. The Caloosahatchee Basin will help their 
estuaries from getting too much fresh water; and, hopefully, 
they would recover as well. The entire ecosystem will benefit 
from the plan.
    Mr. Regula. So the entire south half of Florida has to be 
improved if this achieves the goals that we would anticipate, 
am I correct?
    Ms. McDonald. Absolutely.
    Mr. Wells. Could I add one footnote for the chairman's 
question about looking 20 years out? The assessment team we put 
together in GAO that has done all our Everglades work for you, 
the two reports and the many, many briefings, the conclusion 
that we reach today as we began this initiative, if I am 
looking 20 years out, the South Florida ecosystem is clearly 
already damaged.
    Mr. Regula. Today you mean.
    Mr. Wells. Today. Without this restoration initiative, the 
ecosystem will die. That is the bottom line 20 years from now. 
The consequences to that----

                   OUTLOOK FOR SUCCESS OF RESTORATION

    Mr. Dicks. What are the odds on our doing all this and 
having it be a success?
    Mr. Wells. You heard some optimism on the GAO audit team. 
We go in and look at what initiatives are in place, and we are 
making recommendations for management improvements because we 
are trying to assist the task force in trying to get this 
right. It will clearly depend on the adequacy of the science 
that goes in to make this work. That is something that somebody 
in the Congress with oversight responsibility maybe needs to 
look a little bit at in terms of whether the science is there 
to increase the odds of success. We don't have a percentage 
that I could give you in terms of success, but we are 
optimistic if we do do things right at the beginning this 
initiative, it can be successful.
    Ms. McDonald. And if we can get all the parties that are 
involved to cooperate and to commit to doing what needs to be 
done. It cannot be accomplished unless all the parties involved 
cooperate.
    Mr. Wells. That is why in my opening statement I said I 
hope the task force is serious about doing a good strategic 
plan and agreeing to do a land acquisition plan, because we 
think those are tools for success.
    Mr. Regula. Your statement that the system dies otherwise 
is tough.
    Mr. Wells. It is a tough statement, but clearly the 
statistical numbers that are available today, in terms of the 
numbers of birds that are left, are awesome in terms of the 
decreases that have occurred. The Everglades is only half as 
large as it used to be. Some numbers point to over 90 percent 
of the birds are already gone. That is tough.
    Mr. Regula. Mr. Young.
    Mr. Young. Mr. Chairman, thank you very much. I appreciate 
you and your subcommittee investigating this matter further.
    I remember last year we discussed this issue at great 
length, and one of the conclusions that we came up with was we 
needed a better plan than we had, and we needed someone to be 
ahead of the plan to try to work out the details. I have been 
working back and forth from the Federal Government to the State 
government to try and make sure that we get some kind of a 
cohesive cooperative organizational structure to do just that, 
and I get the feeling that we are doing better in that regard.
    For the record, they shook their heads yes.
    Mr. Wells. Let me add, knowing the General Accounting 
Office, we get paid to talk about bad things, so it is sort of 
tough to sit up here and be optimistic, correct.
    Mr. Dicks. Does that violate the rule?
    Mr. Young. Mr. Wells said if we do nothing and we can't 
make this plan work, that the Everglades ecosystem will die. Do 
the other two witnesses agree with that statement?
    Ms. McDonald. Absolutely.
    Mr. Janik. Yes.
    Ms. McDonald. This is very, very important.

                      STATUS OF FISH AND WILDLIFE

    Mr. Young. Mr. Wells said 90 percent of the birds are 
already gone.
    Ms. McDonald. The wading populations have declined.
    Mr. Young. I would think--let me take a few minutes and 
read some of this list. It is very lengthy, and I am not going 
to read it all.
    Mr. Regula. You are the chairman of the full committee. You 
can take all morning.
    Mr. Young. These are animals, mammals, birds, reptiles, 
invertebrates, plants that are part of the Everglades 
ecosystem. All would be threatened if the Everglades system 
dies: The Key deer, the West Indian manatee, Key Largo cotton 
mouse, Southeastern beach mouse, Florida panther, Lower Keys 
rabbit, rice rat, Key Largo woodrat, Audubon's crested 
caracara--I probably didn't say that right--bald eagle, Florida 
scrub jay, Everglade snail kite, piping plover, Cape Sable 
seaside sparrow, Florida grasshopper sparrow, wood stork, 
roseate tern, Bachman's warbler, Kirtland's warbler, ivory-
billed woodpecker, red-cockaded woodpecker.
    I am probably not saying half of these words right because 
I have never heard of some of these animals before, but I am 
sure somebody is really interested in their survival.
    The American crocodile, which is different than the 
alligator, bluetail mole skink, sand skink, Atlantic salt marsh 
snake, eastern indigo snake, green sea turtle, hawksbill sea 
turtle, Kemp's ridley sea turtle, leatherback sea turtle, 
loggerhead sea turtle.
    And the list is--the list of plants is even longer than the 
list that I just read. Are these animals, birds, plants, are 
they valuable? Are they worth saving? Should we try to protect 
them?
    Ms. McDonald. There are 68 endangered and threatened 
species in the ecosystem and we are to protect those and do 
what we can to enhance their return to viable populations.
    Mr. Young. I thank you for that statement, and I agree with 
that statement, and I think it is essential that we move as 
effectively as we can to do the best job we can to protect this 
system.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                        FEDERAL LAND ACQUISITION

    Mr. Young. I want to ask just one question about the land. 
And, of course, acquiring the land is essential if we are going 
to have a successful program. Page one in the report shows the 
acres acquired and the dollars spent by Federal and State 
agencies in programs in total. How many acres were acquired by 
the Federal Government and how many acres were acquired by the 
State of Florida from 1996 through 1999 and at what cost?
    Mr. Janik. The Federal Government purchased 216,000 acres 
at a cost of about $236 million, and the State acquired 326,000 
acres at a cost of $613 million.
    Mr. Young. So Florida has not been lagging in this effort?
    Mr. Janik. No.
    Mr. Young. In fact, if I understand correctly, at least the 
State tells me that, other than the United States Government, 
Florida has acquired more lands for public use than anybody 
else that we now have.
    Ms. McDonald. They have a huge state land acquisition 
program. They put in about $300 million into it.
    Mr. Dicks. If you will yield briefly, is it accurate that 
about $100 million of the $300 million is in the Everglades 
area?
    Ms. McDonald. That overall figure is for a Statewide 
program. About a third of that goes into the South Florida 
ecosystem.
    Mr. Young. I appreciate the responses that you have given 
me and the other members of the subcommittee. As a Floridian, 
of course, I am vitally concerned about the health and well-
being of the Everglades ecosystem. And I appreciate your 
support on this, but I want to ask one more question. What 
about the eight and a half acre parcel that has been rather 
controversial for a long time?
    Ms. McDonald. That issue has not yet been resolved. The 
Corps has released a draft environmental impact statement that 
will be presented to the South Florida Water Management 
District. It will be available for public comment from April 
14, I believe, through May 30. They hope to have a decision on 
the locally preferred option which will be either to buy it 
outright, whether to protect it in some way through levees and 
canals, whether to buy it out partially, et cetera.
    There are nine alternatives in this particular plan, and by 
August they should make a decision on what will happen. It will 
not be an easy one. I expect it to be very difficult. It is 
very contentious, as you know. But the corporation has now 
provided nine alternatives for the water district to consider.
    Mr. Young. Thank you very much. I appreciate the effort 
that you have put into your testimony as we deal with this very 
important issue.
    Mr. Chairman, thank you very much for the time you 
allocated to me this morning.
    Mr. Regula. If you can stay, we will have Mary Doyle next, 
who is with the Department of Interior, and you can at least 
get her take on this.
    If I understand everything you are saying correctly, we 
have absolutely no choice but to go forward on this program and 
do it successfully. The alternative is not something we want to 
even comprehend, is that a correct----
    Mr. Wells. Very difficult choice.
    Mr. Regula. Thank you very much.

                    OPENING COMMENTS FROM MARY DOYLE

    Mr. Regula. Our next witness is Mary Doyle, Counselor to 
the Secretary for the Department of Interior.
    Mary, we are happy to welcome you; and you may want to 
comment on some of the things that you have heard this morning.
    Ms. Doyle. Thank you very much, Mr. Chairman.
    Mr. Regula. Your full statement will be made part of the 
record.
    Ms. Doyle. It is great to have the opportunity to address 
the subcommittee today. I thank you very much for that chance. 
You have been a great leader in the cause of responsible 
Everglades restoration, Mr. Regula, as recognized by your award 
from the Everglades Coalition in January. It is hanging right 
there. It is beautiful. So we appreciate your many 
contributions to this effort.
    Mr. Young, I would like to introduce myself to you as a 
fellow Floridian, if you count Miami as being in Florida.
    Mr. Young. We still do.
    Ms. Doyle. I want to thank also the GAO staff who prepared 
the report that is under discussion today and their group 
leader Jim Wells. They have been highly professional, extremely 
conscientious, very forthright with us and help us do our work 
better, and we thank you very much.
    I want to spend just a couple of minutes commenting on the 
GAO report and then give you a little progress report on 
matters that I know to be of interest to you and the 
subcommittee.
    First, as to the sole recommendation of the GAO report that 
the task force develop an overall land acquisition plan for the 
Everglades restoration effort. As you know, we concur with that 
recommendation; and we have taken steps that we believe are 
coming close to its achievement. As Jim mentioned to you, we 
submitted at the end of March a land acquisition list that 
describes all the lands we have now identified to date that 
need to be acquired to accomplish the restoration goals of 
getting the water right and restoring and enhancing the natural 
environment.

                 LAND ACQUISITION WITH FARM BILL FUNDS

    Second, regarding the Department's expenditure of the $200 
million Farm Bill funds for Everglades ecosystem land 
acquisition. As the GAO has pointed out to you, Congress in 
appropriating the $200 million did not impose as a matter of 
legislation a 50 percent State match requirement. That was not 
a statutory requirement. Instead, the Department established a 
policy of calling for a 50 percent match but retaining the 
discretion to reduce or waive a match as circumstances 
warranted.
    The Department's goal in the expenditure of the $200 
million Farm Bill fund was not exactly limited to maximizing 
the number of acres acquired with the funds, although that is 
important, too. I can't disagree at all with the GAO'spoint 
that we need to buy as much land as we can as rapidly as we can, 
considering the circumstances of development in South Florida. But the 
goal really in expenditure of the Farm Bill funds was to get the right 
lands, to acquire the lands most desirable and utilizable for 
restoration purposes.
    There was no question at the time that Congress 
appropriated the $200 million Farm Bill funds that the 
acquisition of the Talisman lands, the 50,000 acres in the 
Everglades agriculture area was the primary objective to be 
secured with the expenditure of these funds. The legislative 
history on the Farm Bill mentions Talisman as the most 
desirable acquisition to be secured with this money.
    Talisman was a willing seller transaction. It was 
exceedingly complex. It took 2 years to complete. Talisman will 
by itself provide about 20 percent of all the water storage 
capacity required in the Army Corps restoration plan, so it is 
highly significant.
    The circumstances regarding the Talisman acquisition were 
such that the State of Florida was not in a position to provide 
50 percent of the costs of that acquisition. There were 
political reasons for that. The choice faced by the Department 
was either pay more than 50 percent or not get the land, and we 
made the decision to complete the Talisman acquisition. We did 
it with a 34 percent non-Federal contribution that came from 
the State and from the private parties involved.
    I might also venture that the State personnel, their land 
professionals, were very helpful to us in negotiating the 
Talisman deal. The Talisman purchase alone accounts for 66 
million of the 77 million unmatched dollars.
    So with regard to that portion of the GAO report, I think I 
must respectfully disagree. I think the Department did the 
right thing. I think it did the thing that was best for 
restoration and fulfilled the desires of Congress in completing 
the Talisman acquisition.
    As to the East Coast Buffer acquisitions, we accepted a 
match of dollars and then an in-kind match of land that the 
Water Management District had already purchased. There is a 
debate there. I don't think the decision to accept the in-kind 
match would have been made by the Department of the Interior 
were it not for the fact that the State of Florida has, as it 
has pointed out to you so forcefully in its response, been 
involved for many years and is still involved in substantial 
land acquisition programs for restoration.

                        Interior Progress Report

    As to the progress report--and these are items also 
mentioned by the GAO--I want to report on three matters 
briefly, which I believe are of interest to you.
    One is the so-called assurances language in the upcoming 
administration bill that will propose to authorize the 
Everglades restoration project, the status of several reports 
requested by the subcommittee and recommended by the GAO, and 
then just a word about a new science initiative in Everglades.
    First, on the assurances language. I know this has been a 
matter of great interest to you, Mr. Regula, and you have been 
a real leader on this issue, for which we thank you. What we 
are talking about here is crafting language for inclusion in 
the statute that authorizes the Everglades restoration that 
will ensure that water flows appropriately and in sufficient 
quantities to the natural system always. That is what 
assurances means in our shared definition.
    The Department's goals specifically in crafting assurances 
language are to make sure, one, that the statute is clear in 
its expression that the overarching primary goal of this 
project is the restoration, protection, and preservation of the 
natural system of the Everglades. Two, we want to see, as a 
matter of Federal law in the statute, water set aside and 
dedicated to the natural system in sufficient quantity and 
delivered appropriately in its timing and its quality to 
fulfill the goals of restoration and preservation. And, third, 
we want to see that the Secretary of the Interior, as the 
manager of an important segment of the natural system in the 
Everglades, is a full participant with the Secretary of the 
Army in developing the regulations by which this water will be 
set aside and dedicated to the natural system.
    The bill isn't up to the Hill yet, but I would just like 
you to know that deliberations within the Administration are 
going fine as far as we are concerned. We are pleased with the 
way they are going. The State has not agreed yet, and we really 
want to come forward with their agreement. We are talking to 
them. I am not saying that they haven't agreed. It is just that 
we are not finished in our discussions.
    Next, as to the various reports of the restoration effort 
requested by the committee and recommended by GAO. First, the 
strategic plan that has gotten some attention this morning. The 
working group of the task force, which is the Florida-based 
people that represent all the agencies that are members of the 
task force, has been working hard for the last 5 or 6 months on 
developing a strategic plan. It is going to have 5-, 10-, 25- 
and 50-year timelines specifying what has to happen within 
these periods of time. It is going to identify resources needed 
to fulfill the elements of full restoration. It is going to 
identify what agency is responsible for accomplishing these 
actions, and it is going to link the restoration projects to 
outcome-oriented goals.
    The strategic plan is going to be reviewed by the task 
force in meetings this spring and early summer. The task force, 
I believe, will adopt the strategic plan. That was a question 
here. I believe the task force will overwhelmingly, if not 
unanimously, adopt the strategic plan. The task force believes 
we need one, and we will have the final to the subcommittee as 
promised in July of this year.

                       Interior Total Cost Report

    We have also submitted our best estimate to date of the 
overall costs, State and Federal, of the entire restoration 
effort except for goal three. I would be happy to talk about 
goal three if you would like to ask a question about that.
    This cost estimate is the first atempt at a very big task. 
It is going to be modified, and it will be integrated as part 
of the strategic plan.
    Dispute resolution. The dispute resolution is going to be 
one of the central responsibilities of the Task. I intend to 
make it a primary topic for task force consideration during my 
tenure as chairman of the task force this year.
    We have engaged the services of the newly created U.S. 
Institute for Environmental Conflict Resolution. It is housed 
in Tucson at the Udall Foundation. These people are cutting-
edge, alternative dispute resolution experts, and they are 
coming into the next task force meeting to lead what I think 
will bea very enlightening discussion about dispute resolution.
    What I am hoping will happen here is that the task force 
will begin the work of identifying the types of conflicts that 
we have seen already and that we can anticipate seeing, major 
and minor, and then think very hard about ways of channelling 
those different types of conflicts to appropriate forums for 
their resolution in a timely manner.
    The task force itself may be a conflict resolver in some 
instances. Scientific conflicts or technical conflicts may go 
to some other kind of board or group. Some conflicts have to be 
elevated to Washington, but I think it depends on the kinds of 
characterizations we make of the types of conflicts we 
anticipate and how we respond to them. So I am very excited 
about this. I think this is a very cutting-edge kind of work, 
and a lot of new thought has gone into this nationally, and we 
intend to benefit from that.

                                Science

    Finally, just a word about science. At Secretary Babbitt's 
recommendation, the task force asked the National Academy of 
Sciences to empower a group of experts to provide ongoing 
independent peer review of the science that is being performed 
by the agencies in connection with the implementation of the 
comprehensive plan.
    I should hasten to point out there was a great deal of 
science that went into the development of the Corps' plan. I 
think about a hundred scientists--I think almost 30 scientists 
from the Park Service alone were heavily involved in the 
development of the plan. That science was peer reviewed 
according to agency protocols.
    This is another sort of high level peer review. This panel 
was named a couple of months ago. It has met several times now, 
gathering information and getting itself oriented and educated. 
Its first work plan will be going to the task force at the next 
meeting. I see this science panel as accompanying the entire 
20-year project and will become increasingly important to all 
of us as it looks at the kind of monitoring we are doing, the 
kind of restoration testing we are doing and so on.
    So that completes my update. Thank you so much. I would be 
happy to respond to questions.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                     Water Supply and Flood Control

    Mr. Regula. Mr. Chairman, would you like to ask some 
questions?
    Mr. Young. Just let me ask one question I already posed to 
the other panel. Do you agree this system is going to die if we 
don't fix it?
    Ms. Doyle. We have consensus on that point, yes, sir.
    Mr. Young. Thank you.
    Ms. Doyle. I think it is going to die at an accelerated 
rate also because of the pressure of development.
    Mr. Regula. Do you agree it is important to the entire 
south half of the State of Florida? It is not any one area that 
is impacted.
    Ms. Doyle. This restoration plan that the Corps has 
developed with our participation over the last couple of years 
carries significant benefits and there are positive 
consequences for urban water supply and flood control and the 
protection of the aquifer that you mentioned earlier. It is not 
just that we are going to relink the hydrologic patterns and 
restore the natural ecology of what remains of the Everglades, 
but we are going to build a lot of flexibility into the water 
delivery system in South Florida with all this new storage 
capacity and that will help with flooding. It will preserve and 
protect the water supply for the area. It will guard the 
aquifer from saltwater intrusion. The health of the built 
environment is linked to the health of the natural system.
    Mr. Regula. Do both the east coast and west coast areas 
depend on underground water for populations?
    Ms. Doyle. Yes.
    Mr. Young. Mr. Chairman, if you would yield.
    Mr. Regula. Surely.
    Mr. Young. Areas that don't have this problem might not 
understand this, but once the well has saltwater intrusion, 
that is the end of the water supply. You can't recover it.
    Ms. Doyle. It is irreversible.
    Mr. Regula. So filling up the aquifer keeps the saltwater 
from intruding into it; and, as the chairman points out, if 
saltwater intrusion happens, it is too late.
    Ms. Doyle. Yes.
    Mr. Regula. I think that is the basis for some of your 
statements as to what the ultimate result can be if we fail to 
do this job and do it as quickly as possible.
    Ms. Doyle. I think it took a very long time, way too long 
for the water supply folks, experts in this area to figure out 
how the long-term health of their water supplies was linked to 
protection of the Everglades. It took too long to figure that 
out, but once they figured it out, I think that is where you 
gain a lot of the political support in Florida for this project 
in south Florida.
    Mr. Regula. You mentioned the science. One of the concerns 
we have had on the committee is whether we are getting adequate 
science. I am a little troubled. In 1996 we had $10 million 
plus for science, and in 2001 we dropped to $8.6 million. Is 
the science being adequately funded and is it being adequately 
used to ensure that these decisions are based on sound science? 
We found with the 1,800 miles of canals that the Corps built, 
that maybe these were not based on science; as to what the 
long-term result could be. Now we are back trying to undo that.
    Ms. Doyle. There wasn't much science that went into that 
planning. The scientists I talked to who have been engaged in 
this effort, all of them say they think the science is good. I 
think the science could be better coordinated as we go forward.
    There is science happening in the USGS. There is science 
happening in the National Park Service. There is science 
happening in this new academy panel. Before we come to you and 
ask you for more money for science, I would really like to 
focus some attention on coordination of existing efforts.
    Mr. Regula. Go ahead, Mr. Chairman.

                     Introduction of Tom Gallagher

    Mr. Young. I apologize for interrupting, but I wanted to 
introduce a member of the cabinet in the State of Florida, the 
Honorable Tom Gallagher who is our Commissioner of Education. 
He sits in meetings on all of these issues that are so 
important to the State. He testified earlier at Mr. 
Porter'ssubcommittee. I invited him to come down to listen to what we 
are doing here.
    Mr. Regula. It certainly sounds to me, as someone from 
Ohio, that the stakes are pretty huge. Since we have a lot of 
our Buckeyes down there, I am interested in what happens.
    Mr. Young. And we love every one of them.
    Ms. Doyle. There is no income tax in Florida, Mr. Chairman.
    Mr. Regula. I think it really illustrates how 
interdependent we are as a society. Whether you are in Alaska 
or Florida, there are certain elements cross-cutting here that 
affect the future of all of this.
    Ms. Doyle. This is an ecosystem-wide project, as you so 
well know, which brings together all these agencies that 
haven't worked together up until the time to start planning 
this project. It is going to yield lessons for other areas of 
the country facing similar issues.
    Mr. Regula. It is an interesting commentary, as the 
chairman and I, who both have been around here for a while, 
know that turf sometimes gets in the way of good 
communications.
    Ms. Doyle. We don't have those problems. Did you say turf?
    Mr. Regula. That is reassuring to hear you say that. Does 
the GAO agree?
    Ms. McDonald. I don't think we would agree with that 
totally. I think there are some turf battles, but they are 
working on them, I think.
    Mr. Young. That is improving, as I understand it.
    Ms. McDonald. Yes.
    Ms. Doyle. I think everybody engaged in the effort realizes 
we have no alternative but to solve these turf problems.
    Mr. Regula. You certainly have a lot of players who are 
impacted by this.
    Ms. Doyle. If you look at the comprehensive plan that the 
Corps of Engineers is going to bring you for authorization 
soon, there is an example of really hard work by all these 
agencies together. As to the plan itself you have consensus 
that it is the way to go. So I take hope from that experience.
    Mr. Regula. We are going to save it.
    Ms. Doyle. We are going to save it. What choice do we have?

                       Testimony of Tom Gallagher

    Mr. Regula. Mr. Gallagher, as the highest ranking member of 
the Florida administration here in the room, you may want to 
make a few comments here, because this really depends on the 
State taking a very proactive role or it will not work.
    Mr. Gallagher. That is absolutely true, Mr. Chairman.
    I thank you now for allowing me to say a few words. We have 
committed--the State cabinet, the governor and the other six 
elected statewide officials have voted and are committed to 
restoration of the Everglades. This has been an ongoing 
commitment through prior governors, not just our present 
Governor Bush, and through prior people sitting in different 
offices of the cabinet.
    The legislatures this year are working on methods by which 
the State will be doing its share. The South Florida Water 
Management District will be doing a major part of its share, 
too. That is the Water Management District that most of this 
Everglades area sits in, so it is a major priority for us in 
Florida. It is a very, very important project, and obviously 
none of us can do it ourselves. It does take State and Federal 
Government; it does take industry, all of us being involved in 
doing what we can to restore this very, very important 
environmental resource.
    Mr. Regula. Are you comfortable that the communications and 
the cooperations are working well?
    Mr. Gallagher. I will tell you this. It is so much better 
now than it has ever been, and we are making such great 
strides. I really do feel it is getting to where it needs to 
be.
    Of course, everybody wants other people to do the things 
other people think they ought to be doing. I think that is the 
biggest problem, who is supposed to be doing what.
    I will tell you this, Mr. Chairman. This is my second time 
on the cabinet. I was the Treasurer of the State for 6 years. 
There is much, much better communications. I think everybody is 
committed now. I think for a long time everybody was not 
committed. They were committed for somebody else to fix it, but 
not them.
    Today, we see commitment from the Federal agencies, true 
commitment. We see commitment from the State agencies, true 
commitment. Now it is a matter of coordinating that commitment 
and getting it done.
    That is a long way from where it was 10 or 15 years ago. It 
was, ``Yes, it ought to be done,'' but they didn't know how to 
do it. Now we have stopped pointing fingers at each other, and 
we are saying we will all do it. Now let us just figure out who 
does what part, how much we do, and coordinate our efforts.
    It really is there now. I do think that is where everybody 
is now. The actual signing the line and making it all happen 
still I think needs to be done, but the commitment has to 
happen before the rest of it can be done. I do believe we are 
there.
    Mr. Young. Commissioner, before you arrived, we established 
that the State of Florida has been very aggressive in doing its 
part. In the land acquisition, the Federal Government has 
acquired 216 acres at the cost of $236 million where the State 
of Florida has acquired 326 acres at a cost of $613 million. So 
Florida has, as you say, had really been stepping up to the 
plate.
    Mr. Gallagher. We went through Preservation 2000 money when 
it expired. We have passed a new law that goes into the 2001 
program, which is dollars available to purchase these 
environmentally endangered lands. So we are aggressively, as 
you can see by those numbers, buying these lands to help in the 
restoration.

                       Observations of Resources

    Mr. Regula. Mr. Skeen?
    Mr. Skeen. I have only one thing to offer. If you don't 
have any coyotes, we will send you some.
    Mr. Gallagher. We have a lot of cows in Florida.
    Ms. Doyle. Coyotes.
    Mr. Gallagher. Oh, coyotes. We have no coyotes that I know 
of. But we have cows. We may have fewer cows if we have 
coyotes.
    Mr. Skeen. If you need a few, we will be happy to send you 
matched pairs.
    Mr. Gallagher. Maybe can you send us one sex.
    Mr. Skeen. That won't work.
    Ms. Doyle. Would you like alligators?
    Mr. Skeen. That wouldn't be a bad trade.
    Mr. Young. I presented a list earlier of all theendangered 
species that are habitated in the Everglades ecosystem. It is a very 
long, lengthy list.
    Mr. Skeen. It certainly is a beautiful spot there, all that 
water that you have got. We envy you that. Last year, about a 
year ago, I had a trip into Florida. We went clear around. The 
engineering that has gone into the water system and handling it 
is very good.
    Mr. Gallagher. I know your constituents will--many of them 
will spend some time in Florida before they----
    Mr. Skeen. We will trade you. Chili and whatever your 
staple is in Florida.
    Mr. Gallagher. Plenty of Oranges. Oranges and grapefruit.
    Mr. Skeen. We will send you chili.
    Mr. Young. Of course, on another subcommittee we are 
dealing with citrus canker that is threatening our--
    Mr. Skeen. A beautiful State.
    Mr. Gallagher. Our agriculture commissioner just got back 
from China and made his first delivery of fresh grapefruit to 
the Chinese in the marketplace in Beijing. It is pretty 
exciting.
    Mr. Regula. They haven't had access to this citrus?
    Mr. Gallagher. First time they have had Florida citrus.
    Mr. Regula. How do you transport it? By air?
    Mr. Gallagher. I don't know how he took his. That is 
certainly one way.
    Mr. Regula. If you are going to market it.
    Mr. Gallagher. If it is going to be fresh, I would think 
you would have to send it by air, although it has a halfway 
decent shelf life.
    Mr. Regula. Mr. Hinchey?

                            TASK FORCE ROLE

    Mr. Hinchey. Mr. Chairman, thank you. I want to thank our 
panel for another round of very interesting testimony.
    This time last year I was very troubled by what I thought 
was going on down there in the context of this restoration 
project, but I feel much more comfortable with what is 
happening now.
    Yes, I know there are a lot of problems that have to be 
worked out. And the criticisms that GAO has, as was recognized 
just a few moments ago in your testimony, Mary, have been very 
helpful; I think they have prevented mistakes from being made 
and gotten the task force back on the right track.
    First of all, the creation of this task force back in 1993 
was a very important move. One might say it was just in the 
nick of time. And the support that the chairman of this 
subcommittee has given to this project, as you have recognized, 
has been critically important to the success of this project.
    This is, I would say, the most important and most complex 
environmental project going on in this country, perhaps 
anywhere in the world. It is an extraordinary undertaking. Part 
of that is to correct, not fatal mistakes, but just the normal 
things that take place in the context of what we call 
development and all the negative implications that flow from 
that.
    First of all, I think what you are doing, is very 
important, and I think you are doing it in a way that seems to 
be successful. I was very impressed, as the chairman knows, I 
went down there and spent a few days with you last year and had 
an opportunity to see what you are doing firsthand. First of 
all, I was impressed with the cooperation between the Federal 
agencies and the State agencies, including the South Florida 
Water Management District, and the way that everyone was 
working toward the same objective. People would have different 
points of view, of course, on various issues, but they were all 
intent on reconciling those points of view and keeping the 
project moving forward. So I am very impressed with what is 
happening there, and I think it is critically important.
    I have been visiting Florida on a regular basis for about 
30 years myself, and it is a wonderful place. But when one 
visits a place periodically, you have a different perspective 
and you can see things changing each time you go back. If you 
are there all the time, the changes are so slow that you don't 
really notice them. But when you come and go, you notice 
changes. And, of course, anyone who has come and gone the way I 
have will see changes, all of which are not for the best.
    The development that is taking place has been a great boon 
to Florida, among other things. We are very distressed to 
observe that by the 2010 census, you will probably overtake New 
York in population and have more Members in the House of 
Representatives than we do. But, nevertheless, what you are 
doing now I think reconciles some very difficult problems.
    The recognition of the hydrological science is essential in 
the Everglades, essential not only to the restoration of the 
ecosystem and the maintenance of the ecosystem but also 
essential to allowing the population to continue to exist along 
both coasts, particularly the southeast coast. The Southeast 
aquifer is totally reliant upon the ecological structure that 
exists within South Florida in the Everglades and the 
surrounding region. What is being done here is critically 
important not just as a project to restore an ecological system 
but as a project that will allow people to continue to live and 
thrive in that area as well.
    So I congratulate you on what you are doing. You have got a 
lot of work ahead of you and a lot of controversy and a lot of 
difficulty, but I think that members of this committee, 
particularly our chairman, are going to work very closely with 
you to do everything we can to make sure that you succeed.
    Ms. Doyle. Thank you, Mr. Hinchey, for your support. It was 
a wonderful trip we had together. Hopefully, we will have 
another one soon.

                      KISSIMMEE RIVER RESTORATION

    Mr. Hinchey. I hope so. I think that other members of the 
committee ought to go.
    I just want to say one last thing. I was particularly 
impressed with the Kissimmee project. This is an amazing 
project because it reverses damage that was done purposefully 
and intentionally, with all good intention, at a different time 
when the human mind-set was quite different than what it is 
today. A wild and free-flowing river was turned into a canal, 
essentially. Now it has been recognized that that was a 
mistake, and this canal is being turned back into a river by 
the Army Corps of Engineers. It is a very different role for 
the Army Corps but one they seem to have embraced 
enthusiastically, and I think, characteristically, they are 
going about it in a very effective way.
    That is an amazing project. People should see that project 
and just see what is being done. It is really incredible.
    Mr. Regula. Tell us. I don't know about it.
    Mr. Hinchey. What happened, beginning in the 1920s, this 
Kissimmee river which flows down into Lake Okeechobee was 
turned into a canal for transportation purposes, to move goods 
from the north to the south and I guess vice versa. 
Channelizing the river was a typical kind of thing at the time 
it was being done. This effort was based upon the American 
experience with canal systems going back to the Erie Canal in 
New York and other canals as a means of transporting goods from 
one place to another in a relatively inexpensive way.
    However, canals were rapidly replaced by railroads and 
other means of transportation, and then it was recognized that 
the change in the ecological system was very injurious. Now the 
Army Corps is up there retracing the old, winding river, taking 
the canal, which is relatively straight, it is angular in 
places but, for the most part, is sort of geometrical. Now they 
are taking that geometrical formation and transforming it back, 
following the ancient riverbed and putting that Kissimmee River 
back in its old riverbed. It is really an amazing project.
    Ms. Doyle. They are building meanders. They are making the 
river meander.
    Mr. Gallagher. Where they dug, of course, and cleared it, 
where it used to curve and meander, it just ran right down the 
middle. They are now putting the blockages so it will allow it 
to free flow back the way it was. Of course, it will end up 
filling itself in and be back to normal in 10 to 15 years.
    Ms. Doyle. This is the future of the Army Corps of 
Engineers.
    Mr. Regula. They have made enough mistakes. They can be 
busy for the next 50 years.
    Mr. Gallagher. These are known as the good guys now.

                          Sugar Cane Producers

    Mr. Skeen. Can I ask a question? You are large sugar cane 
producers. Has that changed any?
    Mr. Gallagher. They are still there. They have recognized, 
too, that they are going to have a responsibility for part of 
this restoration, and they are participating. There is always 
controversy how much they ought to participate. They recognize 
that they should participate, and they are.
    Mr. Skeen. Last time I was down there it was a very hot 
topic.
    Mr. Gallagher. As soon as you start pushing them to do 
more, it gets pretty hot, you know. If you let them do less, it 
cools off quite a bit. We have gotten a long way because, for a 
long time, they weren't interested in hearing about it at all, 
but at this point they have agreed that there is some 
responsibility.
    Mr. Skeen. You are large producers of cane sugar.
    Mr. Gallagher. Yes, we are.

                          Tribal Participation

    Mr. Regula. Are the union tribes on board, the Miccosukees 
and the Seminoles?
    Mr. Gallagher. If we can get some of their gambling money, 
we can buy this land quick.
    Mr. Regula. They are cooperating and they are parties to 
this?
    Ms. Doyle. They are task force members. They are supporting 
the basic Corps project plan.
    Mr. Young. Actually, it is important to them to preserve 
this system. This is their life.
    Mr. Gallagher. If I may say one thing. If you have been to 
Fort Lauderdale and you have seen the canals that are in Fort 
Lauderdale, those canals were started and dug to drain the 
Everglades. That was the absolute goal of the developers in 
Fort Lauderdale when they first developed it. And they started 
digging canals and kept digging and have the water flow on out. 
They were going to go right on up through the Everglades and 
drain it all out. They found that to be quite an impossible 
task. The water just kept coming, but that was, again, part of 
the beginning of the problems of Everglades damage.
    Ms. Doyle. They got halfway there, destroyed 50 percent.
    Mr. Gallagher. They did a lot. But that was their goal. The 
goal was to drain it.
    Mr. Wells. Now we need to put the water back in.
    Mr. Regula. I assume the Everglades feeds the aquifer as 
this river of grass moves. It has to be percolating into the 
entire aquifer there.
    I noticed the Miccosukees have sued the United States. What 
is the basis for that? There are three or four of these suits.
    Ms. Doyle. Yes, they sued. There are several lawsuits. The 
latest one was filed on--what was the latest one? They filed a 
lawsuit against the Corps of Engineers alleging NEPA violations 
in connection with the comprehensive plan and the restudy. We 
have some conflicts with them. They are in support of the 
restoration plan, but in the detail and in the way we go about 
it, they are not always with us. And it is just that, we have 
to keep working together.
    Mr. Regula. But they are on the task force.
    Ms. Doyle. They are members of the task force, yes. They 
are very active members of the task force, yes. The Seminoles, 
also. The Miccosukees have their own biologists and 
hydrologists. They--as you say, Mr. Young, they care very much 
about the restoration of their homeland, their home 
territories. They are very sophisticated and very much involved 
in this.
    Mr. Regula. Let me ask the GAO, are you optimistic we are 
going to get from A to B over the next 20 years?
    Mr. Wells. There is a part of me that wants the answer that 
I have used up, the word optimism. We are encouraged--let me 
change the word--that they are beginning the right steps to get 
there.

                        Oversight of Restoration

    Mr. Regula. Do you think we need to continue aggressive 
oversight on this, both in this, subcommittee and other 
committees?
    Mr. Wells. My response would be where we now have a cost 
estimate on the floor of $14.8 billion, with public 
acknowledgment that that number is going to go higher, how much 
higher we don't know, I think the numbers alone say that we 
need to continue oversight, absolutely.
    Mr. Regula. It seems to be a consensus of opinion here.
    Mr. Gallagher. I don't think any of us would not want 
oversight by everybody that is involved, because it is a 
tremendous amount of money. It is a tremendous amount of 
coordination, and I think oversight is a healthy thing.
    Ms. Doyle. Oversight helps the whole process, actually.
    Mr. Regula. Thank you for coming, Mr. Commissioner. I think 
you added to the testimony and have been extremely helpful 
here.
    Mr. Gallagher. Thank you.
    Mr. Regula. Tell the governor we look forward to 
cooperating with him in every way possible.
    Mr. Gallagher. I will do that. Thank you very much. We 
appreciate what you all are doing.

                      Local Community Involvement

    Mr. Regula. Thank you.
    Mary, you are changing goal three, and this is going to 
have a big cost. Are the local communities with zoning and 
planning responsibilities recognizing that they have a role to 
play? Because the pattern of development here is impacted by 
water supply, it is impacted by land use, and ecological 
issues. Is this working and should there be more action taken?
    Ms. Doyle. I think we agree that we need to rethink goal 
three. Goal three relates generally to the relationship between 
the developed areas that surround the natural part of the 
ecosystem and the ecosystem. We have got to put a lot of 
attention there on those border lines.
    As you are well aware, zoning is the prerogative of local 
governments; and in Florida the State also has a role in the 
approval of developments of major impact. The State--just to 
make everything a little more complex, the State of Florida--
Governor Bush has called for a reevaluation of the State's role 
in growth management. This has been quite controversial in the 
last couple of months in Florida; and there is no resolution of 
that debate.
    We have local government members on our task force, sothat 
is some help to us. What we need to do is talk about goal three and 
really what the Federal agencies and the State agencies ought to be 
doing in terms of these land use planning decisions--I am thinking that 
the Governor's new Commission on the Everglades will provide us some 
service there. Governor Bush has appointed an Everglades Commission of 
State and local people, and I think that we need to go to them and work 
in partnership with them on rethinking goal three. The State and locals 
need to be very heavily involved in conceptualizing goal three and 
then, of course, carrying it out.
    Mr. Regula. You are going to have population pressures 
pretty rapidly over the next several years from the north.
    Ms. Doyle. Inevitably. That is where land acquisition comes 
into play. The more land we acquire and take out of 
development, the more we protect against that. But it is also 
going to call for local decision-making and State decision-
making that is going to be kind of tough for them on growth 
control.
    Mr. Regula. Is the local government, such as the State, 
communicating with these communities and at least trying to get 
their cooperation in land use development patterns?
    Ms. Doyle. The State of Florida up till now has been 
unusually active as a State government in land use decision-
making at the local level. It is not quite the pattern in most 
States. We are hoping that will continue, because that is a 
good channel of communication.

                        Berry Groves Acquisition

    Mr. Regula. You mentioned land acquisition. You have asked 
our committee to approve the expenditure of $35 million, or, as 
half of the $65.6 million total for Berry Groves. This is 15 
percent above market value, and this project has never shown up 
on previous land acquisition lists. Why is this property so 
critical?
    Ms. Doyle. Mr. Chairman, thank you for----.
    Mr. Regula. The county commissioners, incidentally, are 
apparently opposed to it.
    Ms. Doyle. Yes. I saw the letter from the Hendry County 
Commissioner raising concerns about this acquisition.
    Berry Groves is a 9,000 acre parcel in the Caloosahatchee 
River Basin west of Lake Okeechobee, and water storage in this 
area is a critical part of the plan. And the Berry Grove 
parcel, 9,000 acres, became available from a willing seller 
about 2 years ago. The negotiations on the purchase price have 
been under way, conducted by the Water Management District, for 
this 2-year period.
    The State and the Water Management District finally 
negotiated the deal that we have presented to you with the 
request that you approve our participation. The purchase price 
of the property now is $65.6 million which, as you point out, 
is 15 percent above the appraised value.
    We think this property is worth acquiring, despite the 
cost, for several reasons.
    Number one, it is uniquely situated and configured to be an 
exceptional water storage facility. It is on the river, located 
in a place where we are going to need to store water coming off 
the lake that is now surging and pulsing out to sea and causing 
a lot of harm to the estuaries. The underground configuration 
of this 9,000 acre parcel is clay soil that is built in such a 
way that it will hold a lot of water. In fact, it will probably 
hold so much water that our land acquisition costs may be 
significantly reduced because we are going to have to buy fewer 
surface acres to store the water here.
    The appraisal itself we had problems with because the 
property was appraised for use as a citrus grove. It is 
substantially improved with canals and levies and other water 
transportation facilities on the property which can be used by 
the Army Corps of Engineers when it turns this property into a 
water storage area. It can use those existing infrastructure to 
carry the water from the lake back to the river.
    The appraiser did not include any value in the property for 
that infrastructure or very little value because he said those 
improvements aren't necessary for running a citrus grove and 
they are just excess, so I am not including them in the value. 
So we see that additional value here in the property.
    Mr. Regula. Is the present use a citrus grove?
    Ms. Doyle. Yes, it is a citrus grove.
    I would like to add, Mr. Chairman, this is the one case I 
have seen where the Army Corps of Engineers, the Department of 
the Interior, the State of Florida, the Water Management 
District, and the environmentalists are all enthusiastically in 
support of the acquisition despite the overappraised price. 
Except, I guess, for the Hendry County Commissioner who wrote 
to you.
    I read the letter. Some of the facts there are a little 
askew. One of the points she makes is that she and other 
concerned citizens were not involved in the decision by the 
Water Management District to acquire this property. I have 
learned that the purchase was the subject of public hearings in 
Hendry County conducted by, I guess, the Water Management 
District or State of Florida.
    She is also concerned about loss of tax revenue base in 
Hendry County. We checked on that yesterday. According to 
Florida law, my understanding of it, the County will get State 
payment in lieu of taxes for a 10-year period under Florida law 
in the wake of this acquisition should it go forward. Whether 
that satisfies her concerns I don't know, but I just offer that 
to you.
    Mr. Regula. Well, there seems to be agreement it is a 
critical parcel.
    Ms. Doyle. Yes, and I think it has got enough factors that 
make it unusual that it can be distinguished from the next guy 
who comes to you and says I want you to pay more than 10 
percent above appraised value.
    Mr. Regula. Mr. Kingston?

                   Acquisition Above Appraised Value

    Mr. Kingston. I had one question, Mr. Chairman, for the 
GAO. That was about the Farm Bill grants, where lands were 
purchased above the fair market value. Did you talk about that?
    Mr. Regula. To some extent, yes.
    Mr. Kingston. I was wondering what the benefit was of 
buying land above the fair market value. I wanted to hear GAO's 
response.
    Ms. McDonald. In Florida, acquiring land through 
condemnation can be very, very expensive. In Florida, when you 
condemn an individual's land, you have to pay not only their 
legal costs but also their appraiser. So, as a result, if you 
can't acquire the land through negotiations, you end up paying 
usually about 54 percent above appraised value, as in the case 
of the Southern Golden and of the East Coast Buffer. So the 
district and the State try to negotiate so they do not end up 
having to pay, at a minimum, 39 percent above fair market 
value.
    Mr. Kingston. And the Secretary of Interior has the 
authority to require a match from non-Federal partners?
    Ms. McDonald. The State and the Department of Interior 
signed a framework agreement that called for the State to match 
the Farm Bill on a dollar-for-dollar basis which could be 
waived at the discretion of the Secretary.
    Mr. Kingston. Now, in your report, you did not include the 
review of land and water conservation funds that were 
appropriated by this committee?
    Ms. McDonald. That is correct. Land and water Conservation 
Funds have been appropriated in 1998, 1999, and 2000. The 1998 
funds were for an acquisition called -ST-A-1E, which is a sole 
Federal responsibility. For 1999 and 2000 it is included in 
committee language that the State must match the Department's 
funds with new money. Those funds have not yet been expended, 
though.
    Mr. Kingston. So you did not include it in the report for 
that reason.
    Ms. McDonald. Yes.
    Mr. Kingston. Last year, we were estimating $11 billion. 
Now we are looking at $14 billion.
    Ms. McDonald. Yes, and we expect it to be higher.

                  GAO COMMENTS ON TOTAL COST ESTIMATE

    Mr. Kingston. Tell me about that. How do you go from $11 
billion to $14 billion in a year?
    Ms. McDonald. Last year, when we did our report, no 
estimate had actually been done of the total restoration 
effort. Those were numbers that we pulled together based on the 
funding that had been spent to that point, the cost of the 
restudy which we knew, and then conversations with task force 
officials and working group members down in Florida.
    Mr. Kingston. Let me stop you just a second. No estimate 
had been done to get that $11 million?
    Ms. McDonald. That we pulled together. Nothing had been 
done prior to that.
    Mr. Janik. When we did our report last year, the only 
estimate on the cost was a $7.8 billion for the restudy. That 
was the only official estimate that was presented.
    Mr. Kingston. At that time, did you raise that point?
    Ms. McDonald. Last year, yes, we did.
    Mr. Kingston. And the year before?
    Ms. McDonald. Last year was the first time we completed the 
review. We pointed that out, and the subcommittee requested 
that the task force pull together a cost estimate.
    Mr. Kingston. Now you are saying the $14.8 billion isn't 
correct either?
    Ms. McDonald. It is not complete.
    Mr. Kingston. When will it be complete and what keeps it 
from being complete?
    Ms. McDonald. There are a number of items that have yet to 
be included in the estimate. As Ms. Doyle just mentioned, goal 
three is being revised. That is not included in the estimate. 
There are a number of quality water issues that have yet to be 
resolved that have not been included in the estimate. We look 
at this as a first cut that will be updated periodically to 
reflect additional costs that have been identified.
    Mr. Janik. There are additional lands that are going to 
need to be acquired that aren't included.
    Mr. Kingston. What is the dollar benefit of doing this if 
you measure in terms of water or in terms of economics?
    Ms. McDonald. The general----
    Mr. Kingston. And I know that is not a dollar goal here, 
but what is the dollar benefit?
    Ms. McDonald. I don't know that I would have figures right 
off the top of my head, but I can tell you that the tourist 
industry would be greatly impacted in Florida if the 
restoration effort does not take place, as will agriculture in 
the cities. It could be a tremendous economic loss if the 
restoration does not occur.
    Mr. Kingston. But we have spent how much total?
    Ms. McDonald. At this point, it will cost about 14.8, plus 
the Federal Government has put in about $1.3 billion to this 
point.
    Mr. Kingston. We have put in $1.3 billion and how much has 
come from the State or other sources?
    Ms. McDonald. I don't know that we have the current figures 
for a comparable period for the State. They have probably spent 
about $2.3 billion.
    Mr. Janik. Most of the money, $8 billion, at least 7.8 is 
for the restudy which has not been authorized by Congress yet, 
so that money has not been spent at all yet.
    Ms. Doyle. If the restudy is authorized, the proposal is 
for 50/50 cost share with the State of Florida. They will pay 
half of the construction cost.
    Mr. Kingston. It strikes me, as a new member of this 
committee who does not know this issue but who has sat in on a 
hearing or two in the past, it seems like on this project, 
which is massive, it does seem like we are making it up as we 
go along, as opposed to other projects where there is really a 
definite vision and a goal and maybe a more tangible mission. 
It strikes me that, when it comes to the Everglades, we are 
just, adding more and more money. Money is easy because the 
Everglades is politically popular. Tell me I am wrong.
    Ms. McDonald. Well, last year, you would have been 
absolutely correct. But one of the recommendations that we made 
last year was that the task force should develop a strategic 
plan that would outline how this restoration would occur, 
identify the resources that would be needed, assign 
accountability to the agencies that would be responsible for 
accomplishing these actions and link their goals to--oriented 
goals.
    Mr. Kingston. I can tell my time has expired.
    I sat on the Treasury Post Office Subcommittee. One of our 
jobs was to try to automate and bring new computer systems to 
the IRS, and $4 billion later we weren't quite there. I am 
beginning to think like this is the Interior Department's 
automation system, but the thing is, there were good efforts. 
There is no bad faith, and nobody is trying to cut a corner. It 
is just that the job is so massive.
    Mr. Regula. We are trying to do that management oversight 
in this subcommittee, I will tell you, Mr. Kingston. At least 
we have their attention.
    Mr. Kingston. That is good.
    Mr. Regula. Do you have any burning questions?
    Mr. Hinchey. Do we have any time?
    Mr. Regula. About 1 minute.

                   TRANSFORMING THE BUILT ENVIRONMENT

    Mr. Hinchey. I would just like a little more explanation on 
the third goal and the transformation that is taking place in 
that third goal. Can you just shed a little light on that?
    Ms. Doyle. The third goal needs more thinking. Right now, 
the title for it is transforming the built environment. I don't 
think that is an accurate description of what we intend here.
    Mr. Hinchey. Is it a semantic problem?
    Ms. Doyle. There is a semantic problem for starters. What 
we have to work on is making sure that there is enough 
buffering of the natural system so that when it is restored, it 
is protected. It is not just restoration but it is preservation 
and protecting against all that development we saw from the 
helicopter in Fort Lauderdale.
    But it is complex because in our country, land use 
decision-making is a local prerogative. It needs some work 
about how we will bring the right people together, the right 
agencies and entities together to provide this kind of 
protection against development.
    Mr. Hinchey. The other part of it, that human activity is 
compatible with the restoration effort, is still essential.
    Ms. Doyle. Yes.
    Mr. Hinchey. What are you doing to ensure water quality, 
that the quality of water that is coming in to the Everglades 
is clear?
    Ms. Doyle. The authorization legislation will call for what 
water quality must be there for the delivery of water. The 
natural system and each of the project features is designed 
with the water quality component in mind, and EPA is very 
involved here with their statutory authorities and their 
oversight.
    Mr. Hinchey. Thank you very much.
    Mr. Regula. Thank you, all of you for being here. I think 
we have had a productive hearing, and we are going to continue 
oversight. Perhaps later this year we will ask you to come back 
and give us an update. Because, as was pointed out by GAO, it 
is better now than it was a year ago. Am I correct?
    Ms. McDonald. Yes.
    Ms. Doyle. Thank you, Mr. Chairman.
    Mr. Regula. Thank you all.
    [Written statements for the record from the Miccosukee 
Tribe and the State of Florida follow:]
    Offset Folios 971 to 988 Insert here

<SKIP PAGES = 018>

    Mr. Regula. The hearing is adjourned.
    [Additional questions for the record and the GAO Report 
follow:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                           W I T N E S S E S

                              ----------                              
                                                                   Page
Arney, Ken.......................................................   293
Ashe, Daniel.....................................................    35
Banzhaf, W.H.....................................................   293
Boring, Dr. L.R..................................................   293
Brown, Dr. Perry.................................................   293
Clark, J.R.......................................................    35
Coles, Ryan......................................................   119
Dombeck, Mike....................................................   169
Donahoe, J.M.....................................................    35
Doyle, Mary......................................................   415
Dubensky, Mitch..................................................   293
Forsythe, Dall...................................................   151
Furnish, Jim.....................................................   169
Gallagher, Tom...................................................   415
Goerl, Vincette..................................................   169
Guertin, S.D.....................................................    35
Haze, Pam........................................................   415
Hill, B.T........................................................   119
Janik, Chet......................................................   415
Janik, Phil......................................................   169
Lewis, Dr. R.L...................................................   293
McDonald, Sherry.................................................   415
Mills, Dr. T.J...................................................   293
Neves, Carole....................................................   151
Phillips, Randle.................................................   169
Rasmussen, Cynthia...............................................     3
Roussopoulos, Dr. P.J............................................   293
Trezise, J.D.....................................................    35
Weber, Dr. Barbara...............................................   293
Wells, Jim.......................................................3, 415
Williams, McCoy..................................................   119


                               I N D E X

                              ----------                              

              Fish and Wildlife Service--Land Acquisition

                                                                   Page
Accountability and Balance.......................................    71
Biography of Director Clark......................................    42
Budget Priorities, FY 2001.......................................    48
Director's Testimony.............................................35, 37
Duck:
    Counts in Georgia............................................    58
    Hunter participation in Georgia/Atlantic Flyway..............59, 63
    Hunting Season...............................................    60
GAO Report ``Fish and Wildlife Service Agency Needs to Inform 
  Congress of Future Costs Associated with Land Acquisition''....    76
GAO Testimony....................................................  3, 6
Hanford Transfer.................................................    53
Land Acquisition:
    Advance Notice...............................................54, 61
    Goals........................................................    52
    Land Acquisition Priority System.............................    51
    Vs. Backlog..................................................    50
Map of the Refuge System.........................................    43
Migratory Bird Conservation Commission...........................    64
Operations and Maintenance:
    Backlog..............................................44, 45, 50, 55
    Cost for New Refuges.........................................49, 62
    Request......................................................    52
Public Access....................................................    70
Questions submitted for the record:
    Representative Jim Moran to the FWS..........................    72
    Representative Jim Moran to the GAO..........................    75
Recreational Fee Demonstration Program...........................    70
Refuge Staffing..................................................65, 67
Refuge System, Growth of.........................................    65
Relative Priorities..............................................54, 60
Visitation.......................................................    70
Wetlands Acreage and Duck Counts.................................    56

                      Forest Service--NAPA Report
                Financial Management and Reorganization

Account Access...................................................   138
Agency Success at GPRA...........................................   145
Agreement With Study Report......................................   187
Allocations to Regions and Forests...............................   143
Appropriations Information.......................................   137
Assurance to Implement Change....................................   190
Audit Accountability.............................................   164
Barriers to Timber Sales.........................................   180
Budget Structure.................................................   165
CFO Reorganization.............................................206, 283
Changing Forest Service Mission..................................   136
Clarity of Mission...............................................   166
Comparison of Forest Service to BLM..............................   146
Comparison to Similar Agencies...................................   163
Conflicting Mission Definitions..................................   183
Congressional Requirements.......................................   144
Conservation Education...........................................   189
Data Collection Equipment........................................   149
Deficient Computer Systems.....................................148, 149
Del Davis' Last Hearing..........................................   119
Elevating Accountability.........................................   171
Ethnographic Studies.............................................   192
Federal Financial Data Management Systems........................   163
Feeder Systems..................................139, 154, 182, 183, 194
Field Priorities.................................................   152
Financial Accountability Oversight...............................   148
Financial Statement Audits.......................................   191
Forest Health Performance Measurements...........................   147
Forest Service Financial Management Actions......................   121
Forest Service Progress..........................................   170
Hurdles to Accountability........................................   147
Hurdles to Implementing Abundant Recommendations.................   179
Implementing Recommendations.....................................   136
Information Systems Technology...................................   193
Management Accountability........................................   186
Multiple-Use Mandate.............................................   184
NAPA Report......................................................   212
Performance Accomplishments....................................137, 201
Personnel for Financial Management...............................   163
Possibility of Real Change.......................................   167
Program Analysis Emphasis........................................   153
Questions:
    Committee....................................................   195
    Mr. Kolbe....................................................   207
    Mr. Taylor...................................................   210
Reconciling Treasury Accounts....................................   181
Sabino Canyon....................................................   191
Secretary's Management Actions...................................   165
Simplified Summary of Budget Impacts.............................   152
Statements:
    Mr. Dicks....................................................   120
    Mr. Dombeck..................................................   169
    Mr. Forsythe.................................................   151
    Mr. Hill.....................................................   121
    Mr. Regula...................................................   119
    Mr. Taylor...................................................   140
Strategic Goals and Objectives...................................   141
Strategic Plan Viability.......................................142, 203
Systems Adequacy.................................................   187
Timber Production Drop.........................................179, 185
Timeline to Implement Recommendations............................   188
Training and Equipment...........................................   139
Transaction Validation...........................................   182
Treasury Accounts................................................   137
Using Available Technology.......................................   146

                        Forest Service Research

Abstruse Research Paper..........................................   372
Adaptive Management.......................................338, 341, 370
Benefits of Research.............................................   313
Budget Request...................................................   295
Choices in Research..............................................   369
Civil Rights.....................................................   348
Clearcuts........................................................   343
Climate Change...................................................   339
Collaborative Efforts............................................   303
Competitive Grants...............................................   320
Customer Service.................................................   374
Development......................................................   337
Ensuring Quality Forests.........................................   335
Experimental Sites...............................................   313
Fire Cycles......................................................   367
Fire Risk Map....................................................   365
Fire Use.........................................................   343
Focus Areas......................................................   326
Forest Economics.................................................   326
Forest Genetics Research.........................................   348
Forest Health Protection.........................................   349
Forest Inventory and Analysis..............294, 304, 327, 336, 338, 370
Forest Management Prescriptions..................................   342
Forest Management Research.......................................   339
Forest Service Research Niche....................................   312
Forest Sustainability............................................   294
Global Warming...................................................   364
Growth-to-Removal Ratio..........................................   365
Interdisciplinary Research.......................................   347
Judiciary-Caused Problems........................................   345
Layman's Language................................................   373
Leadership Role................................................313, 326
Long-Term Funding Continuity.....................................   312
Long-Term Research.............................................303, 341
Measurements of Success..........................................   314
Memorandum of Understanding...............................295, 304, 327
Monitoring Information...........................................   337
Multiple Landownerships..........................................   344
National Research Council........................................   303
``Natural Enquirer, The''........................................   375
Natural Resource Conference......................................   371
Non-Federal Forestlands Research.................................   320
Opening Remarks:
    Mr. Arney....................................................   294
    Mr. Banzhof..................................................   303
    Mr. Boring...................................................   312
    Mr. Brown....................................................   319
    Mr. Dubensky.................................................   326
    Dr. Lewis....................................................   346
    Mr. Regula...................................................   293
Politically Correct Research.....................................   342
President's Northwest Forest Plan................................   368
Prioritization of Programs.......................................   313
Priority-Setting of Programs.....................................   319
Productivity Research..........................................327, 339
Pruning and Thinning...........................................337, 366
Questions from the Committee.....................................   376
Recreation Research..............................................   340
Research Mission.................................................   347
Research Planning................................................   319
Research Prioritization..........................................   349
Research Role....................................................   368
Restoration Research.............................................   304
Road Design Research.............................................   346
Road Maintenance Research........................................   344
Roads Moratorium.................................................   345
Silviculture.....................................................   365
Small-Diameter Woody Material....................................   369
Social Science Research.........................304, 320, 344, 348, 371
Southern Forest Assessment.......................................   294
Stand-Replacing Fires............................................   366
Strategic Plan for FIA...........................................   327
Stdent Group from New Mexico.....................................   335
Survey and Manage................................................   367
Telling the Story................................................   373
Tennessee Forest Acreage.........................................   303
Uneven-Aged Management...........................................   343
White Pine Blister Rust..........................................   340
Wildland/Urban Interface.........................................   340
Wood Fiber Increase..............................................   364

                  South Florida Ecosystem Restoration

Acquisition Above Appraised Value................................   471
Berry Groves Acquisition.........................................   469
Biography of Mary Doyle..........................................   459
Biography of Pamela Haze.........................................   460
Conflict Resolution..............................................   432
Federal Land Acquisition.........................................   444
GAO Comments on Total Cost Estimate..............................   471
GAO Recommendations..............................................   416
GAO Recommended Land Acquisition Plan............................   417
GAO Report.......................................................   539
GAO Testimony....................................................   415
Interior Progress Report.........................................   446
Interior Total Cost Report.......................................   447
Introduction of Tom Gallagher....................................   462
Kissimmee River Restoration......................................   466
Land Acquisition Cost Sharing....................................   430
Land Acquisition Strategy........................................   437
Land Acquisition with Farm Bill Funds............................   445
Local Community Involvement......................................   468
Observations of Resources........................................   464
Opening Comments.................................................   415
Opening Comments from Mary Doyle.................................   445
Outlook of Success for Restoration...............................   439
Oversight of Restoration.........................................   468
Questions for the Record for the Department of the Interior......   500
Questions for the Record for GAO.................................   494
Questions from Congressman Moran.................................   536
Questions from Congressman Skeen.................................   524
Results of Restoration...........................................   438
Science..........................................................   448
State Land Acquisition Program...................................   431
State Role in Land Acquisition...................................   433
Status of Fish and Wildlife......................................   440
Status of Planning...............................................   438
Strategic Plan...................................................   432
Sugar Cane Producers.............................................   467
Task Force Role..................................................   465
Task Force Role in Land Acquisition..............................   435
Testimony of Billy Cypress.......................................   475
Testimony of Mary Doyle..........................................   449
Testimony of Tom Gallagher.......................................   463
Testimony of the State of Florida................................   482
Total Cost Estimate..............................................   434
Transforming the Built Environment...............................   473
Tribal Participation.............................................   467
Use of Condemnation Authority....................................   436
Water Supply and Flood Control...................................   461

                                <greek-d>
</pre></body></html>
